<html>
<title> - MOVING FROM ``NEED TO KNOW'' TO ``NEED TO SHARE'': A REVIEW OF THE 9/11 COMMISSION'S RECOMMENDATIONS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





MOVING FROM ``NEED TO KNOW'' TO ``NEED TO SHARE'': A REVIEW OF THE 9/11 
                      COMMISSION'S RECOMMENDATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 3, 2004

                               __________

                           Serial No. 108-217

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-537                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 3, 2004...................................     1
Statement of:
    Kerrey, Bob, Commissioner; and John F. Lehman, Commissioner, 
      National Commission on Terrorist Attacks Upon the United 
      States.....................................................    20
    Light, Paul C., Robert F. Wagner school of public service, 
      New York University; Bob Collet, vice president, 
      engineering, AT&T Government Solutions; Daniel Duff, vice 
      president, Government Affairs, American Public 
      Transportation Association; John McCarthy, executive 
      director, critical infrastructure protection project; and 
      Jim Dempsey, executive director, Center for Democracy and 
      Technology.................................................   201
    Regenhard, Sally, family member of September 11, 2001 victim; 
      Beverly Eckert, family member of September 11, 2001 victim; 
      and Robin Wiener, family member of September 11, 2001 
      victim.....................................................   111
    Walker, David, Comptroller General, Government Accountability 
      Office.....................................................   156
Letters, statements, etc., submitted for the record by:
    Collet, Bob, vice president, engineering, AT&T Government 
      Solutions, prepared statement of...........................   218
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     5
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    61
    Dempsey, Jim, executive director, Center for Democracy and 
      Technology, prepared statement of..........................   250
    Duff, Daniel, vice president, Government Affairs, American 
      Public Transportation Association, prepared statement of...   231
    Eckert, Beverly, family member of September 11, 2001 victim, 
      prepared statement of......................................   122
    Harris, Hon. Katherine, a Representative in Congress from the 
      State of Florida, prepared statement of....................    97
    Kanjorski, Hon. Paul E., a Representative in Congress from 
      the State of Pennsylvania, prepared statement of...........    19
    Kerrey, Bob, Commissioner; and John F. Lehman, Commissioner, 
      National Commission on Terrorist Attacks Upon the United 
      States, prepared statement of..............................    24
    Light, Paul C., Robert F. Wagner school of public service, 
      New York University, prepared statement of.................   203
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Prepared statement of....................................    46
        Prepared statement of Family Steering Committee..........   134
    McCarthy, John, executive director, critical infrastructure 
      protection project, prepared statement of..................   243
    Miller, Hon. Candice S., a Representative in Congress from 
      the State of Michigan, prepared statement of...............    68
    Platts, Hon. Todd Russell, a Representative in Congress from 
      the State of Pennsylvania, prepared statement of...........   153
    Regenhard, Sally, family member of September 11, 2001 victim, 
      prepared statement of......................................   116
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............   147
    Walker, David, Comptroller General, Government Accountability 
      Office, prepared statement of..............................   160
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................   106
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    11
    Wiener, Robin, family member of September 11, 2001 victim, 
      prepared statement of......................................   127

 
MOVING FROM ``NEED TO KNOW'' TO ``NEED TO SHARE'': A REVIEW OF THE 9/11 
                      COMMISSION'S RECOMMENDATIONS

                              ----------                              


                        TUESDAY, AUGUST 3, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis, Shays, Ros-Lehtinen, 
McHugh, Platts, Schrock, Miller of Michigan, Turner, Carter, 
Blackburn, Harris, Waxman, Kanjorski, Maloney, Cummings, 
Kucinich, Davis of Illinois, Tierney, Watson, Lynch, Van 
Hollen, Ruppersberger, Norton, McCollum.
    Staff present: David Marin, deputy staff director/
communications director; Ellen Brown, legislative director and 
senior policy counsel; Jennifer Safavian, chief counsel for 
oversight and investigations; John Hunter and David Young, 
counsels; Robert Borden, counsel/parliamentarian; Robert White, 
press secretary; Drew Crockett, deputy director of 
communications; John Cuaderes and Victoria Proctor, senior 
professional staff members; Mason Alinger, Brian Stout, Jaime 
Hjort, Susie Schulte, Shalley Kim, and Brien Beattie, 
professional staff members; John Brosnan and Randy Cole, GAO 
detailees; Sarah Dorsie, deputy clerk; Allyson Blandford, 
office manager; Kristina Sherry, legislative correspondent; 
Corinne Zaccagnini, chief information officer; Phil Barnett, 
minority staff director; Karen Lightfoot, minority 
communications director/senior policy advisor; Anna Laitin, 
minority communications and policy assistant; Michelle Ash, 
minority senior legislative counsel; Rosalind Parker and David 
Rapallo, minority counsels; Earley Green, minority chief clerk; 
Jean Gosa, minority assistant clerk; and Cecelia Morton, 
minority office manager.
    Chairman Tom Davis. Good morning.
    The committee will come to order. I want to thank everybody 
for coming.
    We are here today nearly 3 years removed from that terrible 
day of September 11th to simultaneously look back and look 
forward. We grieve again for the men and women who lost their 
lives and pray once more for their loved ones. But it is also a 
time to remind ourselves of the important challenges ahead, the 
tasks of securing our Nation and eradicating terrorist networks 
around the globe.
    I want to commend the work of the National Commission on 
Terrorist Attacks on the United States, also known as the 9/11 
Commission, for its hard work and dedication in issuing its 
report on the 2001 terrorist attacks, once again bringing 
reforms to the Federal Government and that structure to the 
forefront of the homeland security discussion.
    Yesterday, the President endorsed the creation of a 
Presidentially appointed, Senate-confirmed National 
Intelligence Director as well as the creation of a National 
Counterterrorism Center to coordinate and monitor 
counterterrorism efforts. The President's call to action 
demonstrated that the administration, like Congress, is working 
overtime to move forward with the 9/11 Commission's 
recommendations.
    The key to success in implementing the Commission's 
recommendations is making sure we are not simply repackaging 
what we have now. We need to avoid creating another layer of 
bureaucracy. We need to align authority with responsibility to 
make sure information is reaching all the people that it needs 
to reach.
    While the creation of a National Intelligence Director and 
a National Counterterrorism Center are the most highly 
publicized aspects of the Commission's recommendations, this 
committee will be focusing on the broad range of 
recommendations made by the 9/11 Commission. The National 
Intelligence Director will be the subject of considerable 
debate in the coming weeks and months, but the Commission's 
recommendations regarding border security, information-sharing 
data bases, emergency preparedness, homeland security funding 
and intergovernmental coordination are at least as important if 
not more so than the higher profile recommendations.
    We have before us today a diverse group of panelists, from 
Commissioners and family members of victims of the World Trade 
Center and Pentagon attacks to Federal officials, public policy 
experts and industry representatives. The collective expertise 
of these witnesses along with the expertise and experience that 
exists among members of this committee will no doubt lead to an 
interesting and fruitful discussion on the future security of 
our Nation. We need to hear from our witnesses which 
recommendations they view as most urgent, which they see as 
important but dependent on other acts or events and which they 
think will require sustained effort over time to achieve. We 
need to discuss what is achievable administratively and what 
needs congressional action.
    The Commission's report and the focus of this hearing are 
especially timely given the recent elevation of the threat 
advisory levels for the financial sectors of New York, Newark, 
and Washington, DC. The news articles about the intelligence 
information that led to the elevation suggests the decision was 
the result of shared information between the CIA, the FBI, the 
National Security Agency, DIA, and other senior military 
officials. Even if the intelligence information that the threat 
elevation was based on was dated, this type of coordination is 
critical to the future security of our homeland, and the 
purpose of today's hearing is to discuss whether or not it's 
possible to institutionalize this type of interagency 
coordination.
    As we move forward, today, next week, next month, next 
year, we should be encouraged that Congress, frequently through 
this committee's oversight, has already laid a sound foundation 
on which we must build.
    Even before September 11, the committee held hearings on 
impediments to information-sharing and analysis. As part of the 
Homeland Security Act, we passed legislation aimed at 
encouraging the critical infrastructure industry to share 
information about vulnerabilities with each other and with the 
Government.
    Beginning anew today, we need to examine what's preventing 
better and more accurate sharing and analysis between Federal 
agencies, between Federal, State, and local governments, and 
between the private and the public sectors.
    How can we overcome those impediments? Is the voluntary 
information-sharing mechanism between the private sector and 
the Government that we established in 2002 working as we 
envisioned?
    Unlike much of the debate and press coverage and committee 
hearings, we need to be talking about more than just 
intelligence information per se. It's not just, ``intelligence 
information'' that impacts our ability to prepare for and 
respond to terrorist attacks. The realm of information that's 
not being adequately shared is not merely the province of the 
CIA or the FBI or NSA; nor is it encompassed by the public 
sector alone. What about information on public health 
coordination between Federal, State and local providers? What 
about the fact that the private sector owns and operates 85 
percent of the Nation's critical infrastructure?
    This committee has also been looking long and hard at 
Government organizational challenges. Part and parcel of moving 
from a system of need-to-know to need-to-share is the need to 
restructure the executive branch to match the 21st century 
needs and requirements.
    The Commission rightly recognized that we need a Government 
better organized than the one that exists today, with its 
national security institution designed half a century ago to 
win the cold war.
    I believe the Commission's report makes the need for 
reauthorization of Executive Reorganization Authority all the 
more urgent. The absolute, redundant and duplicative nature of 
the Federal bureaucracy is the single greatest impediment to 
moving from a system of need-to-know to need-to-share.
    An editorial in last week's Federal Times framed the issue 
well. It said,

    Take any mission, say counterterrorism intelligence 
gathering and analysis, and divvy it up among a dozen or so 
agencies. Then let those agencies set their own goals and 
priorities, follow their own standards and practices and decide 
their own resources and budgets. What you end up with is a 
design for failure.
    That's what exists now in Government, not only with 
counterterrorism, but with many missions, job training, 
combating homelessness, environmental care, food safety 
inspection, to name a few.
    To take on a mission successfully, there must be a cohesive 
strategy, coordination in planning and practices, effective 
sharing of information, common priorities and budgeting and 
clear direction by a competent, accountable leader.
    That's why 18 months ago the Volcker Commission called for 
all the Government to be reorganized around distinct mission 
areas. As the 9/11 Commission points out, this lack of 
leadership and cohesive management also plagues one of the 
Government's most pressing missions now, counterterrorism.
    The problem of Government ineffectiveness in 
counterterrorism and other important missions is not a lack of 
solutions. The solutions to effective Government are obvious 
and articulated compellingly by both the 9/11 and the Volcker 
Commissions.

    Let's be clear. I don't think any discussion of impediments 
to effective information-sharing can be complete without 
discussing the need to reorganize the executive branch. This 
committee has held several hearings on the need to reauthorize 
Executive Reorganization Authority, which expired in 1984. The 
authorities existed off and on for a period of 50 years, giving 
Presidents the ability to submit executive branch 
reorganization proposals to Congress for a guaranteed up or 
down vote without amendment. In doing so, executive branch 
reorganizations could come before Congress without getting 
buried in congressional committee jurisdictional turf battles 
that has spelled the demise of many governmental reorganization 
proposals in recent history.
    I may take some heat for saying this, but we need to look 
no further than deliberations that led to the creation of the 
Homeland Security Department for evidence that Congress is not 
terribly well-equipped to tackle organizational challenges: Too 
much turf; too many egos; far too much time.
    The recommendations made by the 9/11 Commission make 
reauthorization of this authority all the more urgent. The 
obsolete, redundant and duplicative nature of the Federal 
bureaucracy is the single greatest impediment to improving 
information-sharing. As hearings held by this committee over 
the past 2 years have shown, the same problem of poor 
organization exist in Federal food safety oversight, Federal 
child welfare functions and multiple homeland security 
functions.
    In our battle to move forward to better protect ourselves, 
there are no Republicans or Democrats, only Americans. Talking 
to my kids and countless others in northern Virginia, one thing 
is clear, a whole generation of Americans will grow up with 
September 11 as its most formative experience. This younger 
generation is no longer cynical about the idea of ``We, the 
people.'' They realize that these attacks were not just on the 
people who were killed and injured but also on the very things 
that define us as a society--religious freedom, equality, 
economic opportunity, and political choice. And this generation 
will know that the ruthless will not inherit the Earth.
    Without further adieu, I welcome all the witnesses to 
today's hearing. I look forward to their testimony.
    And I now recognize our distinguished ranking member, Mr. 
Waxman.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.001
    
    [GRAPHIC] [TIFF OMITTED] T6537.002
    
    [GRAPHIC] [TIFF OMITTED] T6537.003
    
    [GRAPHIC] [TIFF OMITTED] T6537.004
    
    Mr. Waxman. Thank you, Mr. Chairman.
    This does feel awfully good to sit here. Well, I want to 
thank you for holding this hearing. This is a timely and 
important hearing. Understanding and acting on the 
recommendations of the 9/11 Commission should be an urgent 
national priority.
    Let me begin by welcoming the family members of the 
September 11 victims, those testifying today and the thousands 
of family members you represent. Without your resolve, the 9/11 
Commission would not have been established and we would never 
have learned as much as we now know about the truth of what 
happened. And without your commitment, we would not be 
considering the Commission's recommendations or even holding 
this hearing. Because of you, our Nation will be safer, and we 
thank you.
    I also want to thank John Lehman and Bob Kerrey who served 
on the 9/11 Commission and who will be testifying today. The 9/
11 Commission produced an extraordinarily important report, 
with dozens of concrete recommendations for fighting terrorism 
and making our Nation safer. And the Commission did so 
unanimously, achieving a rare bipartisan consensus. We owe 
Secretary Lehman and Senator Kerrey a debt of gratitude. And we 
ignore their recommendations at our peril.
    The recommendations of the 9/11 Commission are getting 
attention right now. In fact, the House has over a dozen 
hearings scheduled this month alone. I have been around long 
enough to know what is likely to happen next: Without sustained 
public pressure, Congress will vacillate, and the 
administration will temporize. And we will end up with a pale 
shadow of the bold action recommended by the 9/11 Commission.
    Indeed, this may already have started to happen. The 9/11 
Commission recommended major reforms in our intelligence 
agencies. The Commission recommended the creation of a National 
Intelligence Director who would be in charge of a new National 
Counterterrorism Center. The Commission proposed giving the 
National Intelligence Director the authority to wield real 
power. The director would control the budgets of the 
intelligence agencies and would have direct management 
authority over the head of the CIA and other intelligence 
agencies. But this doesn't appear to be what President Bush had 
in mind. The President yesterday spoke about giving the 
National Intelligence Director the authority to coordinate and 
monitor the actions of the intelligence agencies, but he made 
no mention of giving the intelligence director the authority to 
control the intelligence budgets. And he specifically said that 
a new intelligence director will not be in, ``the chain of 
commands.''
    In this city, if you have a fancy title but you are not in 
the chain of command and you don't control the budget, you are 
a figurehead. And another figurehead is not what the 9/11 
Commission recommended and what our Nation needs.
    The 9/11 Commission made over 40 concrete recommendations. 
Its recommendations cover a wide range of crucial subjects, how 
to protect our borders, how to safeguard our transportation 
systems, how to support our first responders, how to conduct an 
assessment of risks and vulnerabilities. All of these 
recommendations are essential. We will be doing the Nation a 
grave disservice if we ignore any of them.
    Let me give you an example of why I am so concerned about 
the fate of the recommendations. The 9/11 Commission warned 
about the dangers of weapons of mass destruction getting into 
the hands of al Qaeda. Here is a quote from the report, ``Our 
report shows that al Qaeda has tried to acquire or make weapons 
of mass destruction for at least 10 years. There is no doubt 
the United States will be a prime target. Preventing the 
proliferation of these weapons warrant a maximum effort by 
strengthening counter-proliferation.''
    Here is what the Bush administration did last week: It 
killed international efforts to strengthen nuclear weapons 
inspections. This is a quote from a front-page article in the 
Washington Post on Saturday, ``In a significant shift of U.S. 
policy, the Bush administration announced this week that it 
will oppose provisions for inspections and verification as part 
of an international treaty that would ban production of nuclear 
weapons materials. An arms control specialist said the change 
in U.S. position will dramatically weaken any treaty and make 
it harder to prevent nuclear materials from falling into the 
hands of terrorism.''
    Well, the cynicism is breathtaking. A week after the 9/11 
Commission recommendedx greater nonproliferation efforts, the 
administration undermines an international nonproliferation 
treaty, and then it says it is doing everything possible to 
fight terrorism and implement the recommendations of the 9/11 
Commission.
    Despite their merit, many of the ideas in the report from 
the 9/11 Commission have encountered resistance. Nearly 3 years 
ago, a bipartisan group of members from this committee urged 
the administration to develop a coherent strategy based on a 
comprehensive threat and risk assessment. Over 2 years ago, 
Representative David Obey, the ranking member of the House 
Appropriations Committee, and I wrote the Bush administration 
to recommend the creation of a White House office that could 
unify the collection and dissemination of intelligence.
    Over 1 year ago, Representative Jane Harman, the ranking 
member of the House Intelligence Committee, introduced 
legislation to establish a National Director of Intelligence. 
And over the past year, Representative Jim Turner, the ranking 
member of Homeland Security Committee, has repeatedly proposed 
initiatives that closely parallel recommendations of the 9/11 
Commission.
    But all of these suggestions have fallen on deaf ears. 
Secretary Ridge never even bothered to respond to the letter 
that Mr. Obey and I sent over 2 years ago, in fact, 
recommending what we now have before us. It could have been 
done 3 years ago. It could have been put into effect 2 years 
ago. It could have been effective 1 year ago. We rushed into 
creating a Homeland Security Agency, and we ignored the 
problems of coordinating the intelligence, which we all knew 
from September 11th, was the biggest problem we had.
    With so much at stake, we can't let that happen again. The 
9/11 Commission has spoken. Now, it is Congress' turn and this 
administration to work with us in order to act to make those 
recommendations become the law of this country.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.005
    
    [GRAPHIC] [TIFF OMITTED] T6537.006
    
    [GRAPHIC] [TIFF OMITTED] T6537.007
    
    [GRAPHIC] [TIFF OMITTED] T6537.008
    
    [GRAPHIC] [TIFF OMITTED] T6537.009
    
    [GRAPHIC] [TIFF OMITTED] T6537.010
    
    Chairman Tom Davis. Thank you very much. I wasn't sure I 
was going to get the chair back that easy. But thank you very 
much.
    I understand our first witnesses are not here yet. So what 
I am going to do is--and when we get our commission members 
here, we will go immediately. But until that time--Mr. Waxman, 
with your concurrence--we will alternate with opening 
statements.
    And I will go with Mr. Shays, whose subcommittee has led 
the way on so many of these issues.
    Mr. Shays. Thank you, Mr. Chairman. This is a good day, and 
it can be a partisan day.
    As the third anniversary of the September 11th attacks 
approaches, we finally have a credible, comprehensive picture 
of what went so horribly wrong and what needs to be done to 
prevent further tragedy. The recommendations of the 9/11 
Commission rise from the ashes of Ground Zero to the rubble at 
the Pentagon and the wreckage in Pennsylvania, demanding action 
by the living in the cause of those who died.
    The task of implementing the major reforms outlined by a 
unanimous bipartisan commission will not be easy. As the 
Commission's vice chair observed, the status quo always has an 
entrenched army of defenders. But the September 11th families 
that we will hear from today have no patience with apologists 
for a system which failed them so totally and so personally, 
nor should they. Their status quo changed forever that 
September morning. They ask now only that we act quickly to 
change the dated structures and flawed practices that 
contributed to their profound grief.
    Many of the recommendations strike familiar chords. In the 
course of 20 hearings on terrorism issues before September 
11th, the National Security Subcommittee which I chaired 
discussed the need for unified threat assessment, sharper 
strategic focus on the real enemy and the need to restructure 
Government to meet the threat. Three national commissions--
Bremer, Gilmore, Hart-Rudman--presaged the Commission's call 
for structural and operational reforms within and between 
levels of Government. Many of these recommendations went 
unheeded until it was too late.
    It took unimaginable tragedy to bring us to this moment. 
Only courage, foresight and imagination will propel our actions 
in time to prevent the next calamity. These recommendations 
should be a unifying force, a mandate to put past divisions and 
biases behind us and heed the lessons so sadly learned.
    In closing, I congratulate the 9/11 Commission for a job 
extraordinarily well done, and I thank the families for their 
courage and determination and love for this country and their 
efforts to make sure that life will be different for the next 
generation.
    Chairman Tom Davis. Thank you, Mr. Shays.
    We will have one more opening statement, and then we will 
go right to our panelists. Thank you all for being with us.
    Mr. Kanjorski.
    Mr. Kanjorski. Thank you, Mr. Chairman, and Ranking Member 
Waxman.
    I appreciate the opportunity to offer my views at the first 
hearing in the House on the final report of the National 
Commission on Terrorist Attacks Upon the United States.
    Late last month, the 9/11 Commission released its much 
anticipated final report which examines the circumstances 
surrounding the September 11th attacks and provides 
recommendations for preventing future terrorist strikes.
    This report is the culmination of 19 days of public 
hearings, a review of 2\1/2\ million pages of documents, 
interviews with 1,200 individuals in 10 countries and public 
testimony of 160 witnesses. As we begin our review of the 9/11 
report, I would urge my colleagues to consider the 
recommendations of the Commission as a whole rather than 
identifying a single proposed reform for review or examining 
these matters on a piecemeal basis. By focusing only on certain 
aspects of the report, we risk losing the overall intent of the 
Commission's recommendations. We need to see the forest and the 
trees, not either the forest or the trees.
    Nevertheless, today's hearing is intended to consider 
recommendations of the Commission regarding the creation of a 
National Intelligence Director and the formation of the 
National Counterterrorist Center within the Executive Office of 
the President. These recommendations have already sparked 
considerable public debate. On the one hand, the National 
Intelligence Director and the National Counterterrorism Center 
must have independent budgetary authority and the ability to 
make personal changes necessary. In addition, the director must 
have the ability to do so without pressure from the 
intelligence agencies under its jurisdiction.
    On the other hand, placing the center and the director 
within the executive office of the President may shift the 
intelligence operations closer to the politics within the White 
House and may influence the intelligence-gathering system. Such 
a result could cause considerable concern for me.
    Moreover, I am very troubled by recent press reports that 
indicate that the President may unilaterally issue an Executive 
order to create the position of National Intelligence Director. 
In doing so, no congressional confirmations would be held to 
ensure the director is properly vetted. In implementing the 
recommendations of the Commission, we must provide the 
appropriate checks and balances.
    As we begin our review of the recommendations included in 
the 9/11 report, we also need to ensure that Congress 
adequately addresses these matters in the long term. I have 
therefore joined with many of my colleagues in supporting 
legislation to extend the 9/11 Commission for 18 months in 
order to oversee the implementation of its recommendations. I 
would urge the other members of our panel to also support this 
bipartisan bill.
    [The prepared statement of Hon. Paul E. Kanjorski follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.011
    
    Chairman Tom Davis. Thank you very much, Mr. Kanjorski.
    We have our panelists with us today.
    And let me just thank you on behalf of Mr. Waxman and 
myself for your work on this Commission. It is a very important 
report. Both of you had long distinguished careers in public 
service before you came to this Commission, which I won't 
outline now, but we are very pleased to have you with us today.
    It's our policy that we swear in members before you 
testify. So if you would rise with me and raise your right 
hand.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much.
    So Senator Kerrey, I think we will start with you, and then 
Secretary Lehman.
    And thank you both for being with us.

  STATEMENTS OF BOB KERREY, COMMISSIONER; AND JOHN F. LEHMAN, 
COMMISSIONER, NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE 
                         UNITED STATES

    Mr. Kerrey. Mr. Chairman, right off the bat, I am going to 
disobey and have Secretary Lehman lead off, if you don't mind. 
I came off vacation as per your request, and he is much better 
prepared than I am.
    Chairman Tom Davis. That is fine. All right. You don't need 
to take your full 5 minutes. So if you just want to be here for 
questions, that is fine as well.
    Admiral Lehman. Thank you, Mr. Chairman.
    We have together submitted a statement for the record. I 
won't belabor you with that and re-read it to you. But I would 
like to start by thanking all of you for the support that you 
have given us, both in bringing us into existence and then 
helping us to carry forward our responsibilities.
    This has been a remarkable experience for all of us. We are 
five Democrats and five Republicans. None of us have been 
particularly known as being pussy cats in the past, and we had 
our strong views and positions. And through the process of deep 
study of these issues and the facts of the investigation, we 
have ended up entirely unanimous. Not a single dissent, not a 
single additional view and with total unity of purpose. And I 
am very pleased to see that this committee is approaching the 
issues, our findings and our recommendations, in exactly the 
same nonpartisan spirit, with a unified purpose to get these 
changes done to make this country safer.
    We are very pleased, all of us, with the reaction of the 
leaders of Congress, the reaction of Senator Kerry and his 
campaign, and the reaction and action of the President in 
moving out very smartly to analyze and implement these 
recommendations. They are very important. And while the 
organizational recommendations are the ones that naturally 
attract the most attention, they are not the most important. 
The most important are the recommendations that we lead with: 
What to do, the strategy, the objectives and priorities that 
are needed to win this war against Islamist terrorism.
    You will never ensure security by moving around 
organization charts. You will never determine human behavior by 
trying to design a better organization chart. But it's 
unacceptable to have institutions that have evolved since the 
Second World War, built over time to deal with the cold war and 
its threats, hemmed in with a variety of restrictions and 
regulation over time that were appropriate when put in but are 
no longer appropriate.
    It's time for an entirely new system of providing our 
Nation's leaders and the congressional leaders with the 
intelligence they need to make wise policy and decisions.
    Our recommendations are not a Chinese menu; they are a 
whole system. If all of the important elements are not adopted, 
it makes it very difficult for the others to succeed.
    And one last comment before going to your questions after 
hearing Senator Kerrey's comment. I would strongly recommend 
these be viewed as a whole and that the powers needed to carry 
out these recommendations be enacted as a whole package. And I 
am sure that this will result in a far more effective means of 
providing intelligence to this Nation going forward if they are 
implemented.
    Senator Kerrey.
    Chairman Tom Davis. Thank you very much.
    Senator Kerrey.
    Mr. Kerrey. Well, Mr. Chairman, members of the committee, 
let me first of all say what Secretary Lehman just said, which 
was that a remarkable thing happened in this Commission. There 
were 10 of us selected by, as you know, elected officials in 
the city of Washington, DC, where there is a considerable 
amount of partisan strife. And we reached a unanimous 
conclusion in spite of that. And I would say, I've scratched my 
head and tried to figure out why.
    It is in no small measure due to the assistance of the 
families who aren't responsible for this legislation but were 
present at every single one of our hearings and present with us 
in spirit at all of our deliberations, as well as a careful 
reading of the narrative. If you read the narrative, and I know 
that it is a long narrative including the footnotes. But if you 
read the narrative, I believe it will put you in the right 
mood. And I think that's what happened to us; we got back in 
the mood of that terrible day, and the mood that happened for 
60, 90, whatever it was afterwards, days afterwards. And the 
Nation and the world truly were united.
    I mean, I live in New York City today, and it was 
remarkable for me to see the Yankees get cheered at Kaminski 
and get cheered at Fenway because--not because people love the 
Yankees, but because people felt a unity with New York that was 
truly moving. And I think the narrative puts you in that 
spirit. The narrative allows you to go back to that terrible 
but also wonderful moment when the Nation rallied together.
    Of the things that I have noticed in the news that has been 
covered--there are several that have not been covered. I 
presume that you will have a lot of questions on the structure 
of the Government, and a lot of that is dealt with in our 
opening statement.
    The foundation for what we are talking about, however, is 
the belief that this is not a war on terrorism. It really is a 
war on, in this case, a narrow and small group of radical 
Jihadists that believe that killing infidels is something 
that's a good thing to do and believe that the United States of 
America is, to use Osama bin Laden's words, the head of the 
snake.
    And we unanimously conclude that a vigorous and relentless 
military and law enforcement effort are going to be necessary. 
We unanimously concluded that we are going to have to engage in 
the ideas that we have for too long left in the shadows. We 
unanimously concluded that we need to also develop an agenda of 
hope that the United States of America leads to try to 
implement in the world.
    Of the five areas of action, again, I know that the 
restructuring of the Government is the dominant one. But I call 
to your attention, Mr. Chairman and members of the committee, 
that there are a number of areas where funding is the problem, 
especially border security, especially having to do with these 
paper documents that we all carry around called passports. 
There are significant vulnerabilities that still remain simply 
because the time lines and the implementation of the U.S. Visit 
visa program extends all the way out to 2010. There are 
management issues that have to be addressed. That's a constant 
problem that you, Mr. Chairman, and this committee are 
constantly dealing with, with the executive branch.
    Third, there is the issue of secrecy. In my strongly held 
opinion, secrecy is an enormously difficult problem for us. I 
think we over-classify to a fault. But, more importantly for 
the Congress, as a consequence of there being secrecy, you do 
not have investigative journalists doing the kind of oversight 
that you have in every other walk of life when it comes to the 
Federal Government. Simply, you don't wake up in the morning 
and read the Washington Times and the Washington Post and see 
some investigative story that's out there that provokes you to 
do oversight. It's not there with our intelligence agencies. 
And you need to recognize, I think, the limitations that 
imposes upon Congress.
    Fourth, there is a number of areas where further 
investigation is necessary. Time merely ran out on us. I love 
John Kerry; I intend to vote for him. My confidence in him was 
shaken when he said that we ought to work for 18 more months. 
One of the reasons that I think that came about is that we were 
actually--because we had subpoena powers. In this unique 
position, we were doing congressional oversight. I would urge 
you to think about that and try to come up with an alternative 
way to do that on a permanent basis.
    I know that Congressman Shays was frustrated in trying to 
exert oversight over the intelligence agencies. There is a 
rightful place for Congress here, which brings me to my fifth 
point: Those things where law--changes in the law are going to 
be necessary. I am strongly of the view that what Congress 
needs to do is to see this as a moment when you have to push 
back on the executive branch. You need more power and 
authority.
    My first preference is a joint intelligence committee that 
is created in law, not by congressional resolution. These 
intelligence agencies respect the law and are much less 
respectful of congressional resolutions. Second, that law 
should say that Congress has to be kept fully and completely 
informed, not informed when there are intelligence failures, 
but fully and completely informed. In my view, again, because 
of secrecy, this committee should be required to report on an 
annual basis of the status of our intelligence agencies. There 
is no such thing as an operational readiness inspection as 
there is with our military. There needs to be some public 
declaration of where we are. I believe a joint committee would 
be the preferable way for Congress to push back. It is a much 
stronger position, Congress versus the executive branch, than 
perhaps the executive branch would want. But from my 
evaluation, the stronger, the better, the more likely it is 
that Congress is going to get the kind of oversight necessary 
to make certain that we sustain this effort to strengthen our 
intelligence capabilities over the long term.
    Mr. Chairman, I think--I don't know if I went 5 minutes or 
not.
    [The prepared statement of Mr. Kerrey and Mr. Lehman 
follows:]

[GRAPHIC] [TIFF OMITTED] T6537.012

[GRAPHIC] [TIFF OMITTED] T6537.013

[GRAPHIC] [TIFF OMITTED] T6537.014

[GRAPHIC] [TIFF OMITTED] T6537.015

[GRAPHIC] [TIFF OMITTED] T6537.016

[GRAPHIC] [TIFF OMITTED] T6537.017

[GRAPHIC] [TIFF OMITTED] T6537.018

[GRAPHIC] [TIFF OMITTED] T6537.019

[GRAPHIC] [TIFF OMITTED] T6537.020

[GRAPHIC] [TIFF OMITTED] T6537.021

    Chairman Tom Davis. That's fine. Thank you very much.
    Well, let me start the questioning. Let me ask you both 
what your views are on the President's announcement yesterday. 
The Commission proposed establishing a Senate-confirmed 
intelligence director in the White House. The White House 
proposed establishing such position outside the White House. We 
get into the line of budget control and the like. Do either of 
you have a reaction to that?
    Admiral Lehman. Well, I think it is a very good start, a 
good opening bid. It is a responsible first step to start the 
process which, most importantly, I think, in working out the 
details, will go on up here in Congress, in your committee, and 
in your Senate counterparts.
    The rationale for creating a National Intelligence Director 
is not based on creating a new layer of bureaucracy. Far from 
it. It makes no sense at all, unless it has the power to break 
up bureaucratic layers, to remove bureaucratic layers, to 
dismantle the vertical stovepipes that make it impossible, in 
many cases, for the real sharing of intelligence between 
agencies. That's the purpose.
    So to carry it out, this National Intelligence Director has 
to have hiring and firing power. He has to have not just budget 
coordination power but budget and appropriations and 
reprogramming power--must have power over the IT protocols that 
now provide enormous technological barriers between our 
intelligence agencies and the sharing of data and have the 
power to bring rationality to the security system of 
classification, compartmentalization, declassification, 
security clearance granting and background investigations. 
Those four powers are essential. Without them, it will become 
just another layer.
    Mr. Kerrey. I think it's a very good start. I am pleased to 
see it begin. I do think that lesson under law--my mic's not 
on? Can you hear me now?
    I think it is a very good beginning. The President deserves 
credit for coming out of the box with endorsement of the NID 
and the NCTC. This is not a new argument, especially the NID. 
We all who were here during the 1990's remember when the 
Aldridge Ames spy case broke, and suddenly, we had a commission 
to investigate what went wrong. Les Aspin first and then Harold 
Brown chaired that.
    They came out with a set of recommendations, and indeed, 
Brent Scowcroft at the start of the Bush, the second Bush 
administration, did the same thing, evaluated what needed to be 
done. And everybody that looks at it comes to the same 
conclusion: The person that has the responsibility needs the 
authority. And, absent that, they are not going to be able to 
get the job done. I mean, it is a fairly simple rule in life, 
and it is especially important in Government. And, right now, 
the person that has the responsibility, the person that gets 
called up to the Hill, the person that gets the Senate Select 
Committee on Intelligence to do an evaluation and gets kicked 
the bejesus out of him, in the House as well, is the Director 
of Central Intelligence. But he doesn't have budget authority 
or hiring authority. And after Aspen Brown, we tried to get 
some of it done, and what happened was that the Department of 
Defense and the Armed Services Committee killed us. That's what 
happened.
    We had to take the Armed Services Defense Authorization 
Bill, the Senate Select Committee did, on sequential referral 
in order just to get concurrent review. That's what happened. 
And for the rest of my time in the Senate, I didn't get a 
damned thing out of the Armed Services Committee because it 
made them mad, especially the staffers were quite upset with us 
for taking that bill on sequential referral. And that's the 
fault line.
    I know that Secretary Rumsfeld is going to oppose this. If 
DOD wins one more time, then next time there's a dust-up and 
there's a failure, don't call the Director of Central 
Intelligence up here. Kick the crap out of DOD. Because they 
are the one with the statutory authority over budget. 
Appropriations goes to DOD for national foreign intelligence. 
Please don't tell me it's going to deteriorate our capacity to 
support the warfighters. We don't touch tactical intelligence 
in this recommendation.
    So, if it's not done, if DOD and the Armed Services 
Committee one more time, then the next time you have a problem, 
don't call the Director of Central Intelligence up and blame 
them, because they have responsibility but they don't have 
either budgetary or personnel authority to be able to get the 
job done.
    Chairman Tom Davis. Thank you.
    The recommendations for reorganization in the report focus 
largely on the intelligence-related functions, but Senator 
Kerrey, let me ask you, wouldn't you agree that we don't 
necessarily have to stop there, that the problem goes deeper 
than just the intelligence community?
    A number of Federal functions out there that are organized 
just as haphazard functions, functions that could impact 
Homeland Security.
    Mr. Kerrey. Yes. I mean, I say, it's sort of the preamble 
to the Constitution, we are always trying to be a more perfect 
union and not a perfect one. So, if somebody tells me the 
Government screwed up, I say, ``Yeah, OK, it screwed up.'' It's 
a constant process of trying to make it better, and it is never 
a process where you expect that it's going to be perfect.
    And, by the way, Mr. Chairman, I have no reason to blow 
smoke at you guys and gals here. But this committee can perform 
a very important function in providing oversight. I'm going to 
underscore, I believe one of the reasons that there's 
consideration being given to extending the 9/11 Commission is 
we really were doing oversight. People were nervous when we 
were showing up. They were afraid, going, ``Oh, my god, what 
are they going to say about us?'' Well, they ought to have the 
same sort of respect and fear, at times, when you all show up 
with your subpoena powers. And it seems to me that tucked in 
there is a very important point.
    I was on the Senate Select Committee on Intelligence for 8 
years. I was vice chairman under Senator Shelby and under 
Senator Specter. I think the committee did good oversight up to 
where it could. But it's not created under law. It doesn't have 
the kind of authority that it needs to have. It can't demand 
full and complete accounting. And there is no investigative 
journalism out there digging up stuff that we are missing.
    So it seems to me, in this area, there's a real need for 
Congress to say: We have to create stronger capability on our 
part in order to be able, in this particular area where you 
don't have the kind of investigative journalistic oversight, 
where you can influence what the executive branch is doing, 
regardless of who is President, more than you currently can.
    Chairman Tom Davis. Thank you very much.
    Mr. Waxman.
    Mr. Waxman. Well, I appreciate the work the two of you and 
your fellow members of the Commission have done and your 
presentation here today. You both seem passionate that we need 
somebody in charge of intelligence. And then you both said you 
thought the President's proposal was a good start.
    Don't you think we need to get on to doing what we need to 
do fast? Because we are going to only be here another month or 
two or three; and if we are going to pass a bill, we ought to 
pass a really good bill.
    Would either of you be satisfied if we passed a bill like 
the one the President suggested yesterday? Because he suggested 
what we need is to have a director who could coordinate the 
budgets--not control them. Let's start with that one. Do you 
think that's good enough? I don't think your mic is on.
    Admiral Lehman. Well, the devil is in the details. I think 
that the fact that, here we are a day after the President 
proposed this and you are hard at work preparing to begin to do 
this legislation is very encouraging. It is not enough to 
coordinate, and I don't think the President really was drawing 
the line there at all. I think that in order for him to have 
all hands on deck there supporting these initiatives, that he 
didn't have to jawbone every one of them into every last detail 
of our recommendations. There is time to bring them along, and 
you are going to play an essential roll in bringing them along.
    So I don't see anything that is contradictory. I think, by 
the end of the process, I'm confident that the word coordinate, 
while it might still be there, will be subservient to direct in 
the executive sense. Because those powers must be given. And I 
don't believe the President will oppose them. I think, you 
know, unlike the rest of us, he has a whole administration that 
he has to kind of herd along and keep consensus in.
    Mr. Waxman. I appreciate your optimism about it.
    But, Senator Kerrey, what are your views? It seems to me 
that, unless the Commission demands that we act and keep in 
tact their proposal and not have it watered down and made 
ineffective, lest the families of the September 11 victims 
continue to press in the next several months, isn't it more 
likely than not, from your experience as a Senator, that this 
is all going to get watered down into coordinate and the lowest 
common denominator to satisfy the bureaucracies that don't want 
change?
    Mr. Kerrey. Yes.
    Mr. Waxman. Well, that was a forthright answer. That seems 
to me----
    Mr. Kerrey. You gave me the opportunity to go yes or no, 
Congressman.
    Mr. Waxman. Well, what about the management authority of 
this National Intelligence Director, that the President 
suggested that there be no operational responsibilities with 
this new counterterrorism center, and they wouldn't have 
control over State Department, CIA, FBI, Defense, Homeland 
Security, and other agencies. Do you feel that there has to be 
more than just control over the budgets but management control 
over these other agencies?
    Senator Kerrey, why don't we start with you this time?
    Senator Kerrey. Well, yes I do. I mean, in this case, I 
will align myself with the executive director of the 9/11 
Commission who said, in some instances, and this would be one, 
it would be better to do nothing.
    The NCTC is in response to the observation. The National 
Security Council's budget has gotten 50 percent bigger since 
September 11, but they are now down to weeds, doing operational 
things. They are doing planning. They are doing J-3 work to use 
a DOD phrase. And what we envision is to create the NCTC, not 
to make it a larger bureaucracy but to enable the National 
Security Council to get back to what it is supposed to be 
doing, which is the larger policy disputes. And the larger 
policy debates are always going to break out between DOD and 
the Secretary of State and others in the national security 
structure.
    So I think, in my view--by the way, on the NID, this has 
been studied and studied and studied. So the fault line will 
always be between the Department of Defense and the national 
foreign intelligence. And the question will be whether or not, 
in this particular instance, we can rise to it. And I think 
you'll see--not just John and I. I think you will see the 9/11 
Commission stay very unified--respectful, Congressmen. I mean, 
we have to be respectful of the President. It is an initiative 
that he has taken. We have to be respectful of that initiative. 
But in that moment of being respectful, point out that, if all 
it is is consultative, if all it is is advisory, then you are 
better off not doing it. You are better off not taking action 
if the action produces another agency that doesn't have real 
statutory authority.
    Mr. Waxman. I share your concern. And if you look at the 
failures in our intelligence, they are really quite 
breathtaking. Not only in September 11, where we had some 
clues, but we forgot to or we were unable to connect the dots. 
But you look at what happened in Iraq, where they were 
desperately trying to find evidence, not ignoring evidence, but 
trying to find evidence to fit into a preconceived political 
notion.
    And in the late 1990's, we had the FBI looking for a plot 
by the Chinese to interfere with our elections and our 
political process at the same time that Hanssen was selling 
information to the Russians and endangering our national 
security. And the intelligence agencies didn't know about the 
underground tests in--if I can just complete my thought, Mr. 
Chairman--in India, and the Chalaby debacle.
    All these things, it seems to me, cry out for us to enact 
the kind of recommendations you have given us so we can put 
this intelligence system back into some coherent place.
    I urge you all to continue pressing the Congress and the 
President to get these reforms enacted.
    Chairman Tom Davis. Thank you.
    Mr. Shays.
    Mr. Shays. Thank you.
    In spite of some of the partisan rhetoric that I know we 
are going to be hearing in the weeks and months to come, I 
think we are going to get the job done, and I think we are just 
by the tone that both of you are setting today. You are not 
getting tempted to take political shots at either side, and 
your report doesn't, either. And it's almost sacred to me what 
you guys have done--and ladies. I mean, it is almost sacred. 
And I believe it's going to lead to some great things.
    When I look at your recommendations, I wonder what can be 
done administratively, what can be done through Executive 
order, what can be done through regulation, what can be done 
through law, statute, and what can be done or has to be done 
through House and Senate rules. And I just want to 
parenthetically say, I will not vote for any rule of the House 
that doesn't have these reforms next year.
    For instance, if we don't create a committee that oversees 
the Department of Homeland Security, that has total oversight, 
I'm not voting for a rule. And I'm not going to because I 
think, if I did, I would be putting my country in danger. 
That's basically my mindset.
    Tell me, what are the things--I realize this is a package. 
But what are the things you want us to do first? Because I 
don't think it's all going to come out in one bill. What would 
you want to see us do first before anything else?
    Admiral Lehman. Well, I would say that the--ironically, the 
most important thing to do is to fix the congressional issues, 
as you say, the Homeland Security. We strongly endorse a joint 
committee on intelligence with appropriating powers. Fix that 
first if there has to be a priority, because the rest of the 
system that we are recommending will not function properly 
without Congress fixing its own committee structure and 
jurisdiction.
    Next, I would say, enact the joint or the National 
Counterterrorism Center and the National Intelligence Director 
with the powers that we recommend. Again, our model here is not 
a super-consolidated, making one big agency or a new 
bureaucracy. The model is the kind of general electorate and 
other large successful corporate model, where you have a very 
small, powerful CEO at headquarters staff, where you don't try 
to micromanage the refrigerator division and the jet engine 
division. You give them objectives. You provide them the tools. 
If they don't produce or they don't pursue the corporate 
policy, you remove the people who are obstructive and replace 
them with people that do it. You don't try to run the 
operations themselves. That's the model that we are 
recommending here.
    And it's of a piece. It all goes together. The National 
Counterterrorism Center and the other national centers, for 
instance, for proliferation that we are recommending all are 
enabled by a powerful National Intelligence Director. So it is 
of one piece. And those two, if you want symbols, are the most 
important.
    Mr. Kerrey. Well, I don't know, Congressman. I mean, I 
agree with John. I do think, if you can get the congressional 
oversight piece done and create a much stronger committee under 
law, with much greater enforceable requirements that we 
currently have, I think a lot of it's going to take care of 
itself, especially since one of the--I strongly believe that 
one of the things that's really difficult in democracy is, it 
is oftentimes the little things that are most important. So it 
may not be a big enough deal for the Times or the Post or 
somebody to cover it, and because it passes unanimously, nobody 
is going to pay attention to it. But those little differences 
oftentimes determine the difference between success and 
failure.
    The only thing, when it comes to doing things first, that I 
would recommend, among the things that I found to be most 
helpful in getting in the right mood to--you know, to agree 
with John. But, you know, you've got to be in the right mood to 
agree with John. And he has to be in an even better mood to 
agree with me.
    If you read the sentencing statements of the 1997 trial of 
Ramzi Youssef, the mastermind of the World Trade Center 
bombing, and read the sentencing statement of Judge Duffy in 
that trial. There is an ideological fault line there, and 
you've got to come to terms with it. And if you don't come to 
terms with it, you get it wrong. It's not about a mechanical 
response to a mechanical problem. There are ideas that are 
being argued on the planet today, and those ideas are gaining 
currency and gaining ground in areas that we think that they 
shouldn't be gaining currency and gaining ground.
    I mean, I would urge you--the report itself is too darn 
long to process in a short period of time, but ask your staff 
to get the 1997 sentencing statement of Ramzi Youssef and the 
sentencing statement of Judge Duffy, because it describes the 
fault line and describes where these arguments are.
    I've heard people say, ``Well, these guys are all evil-
doers, and they're all cowards.'' Read this statement, and what 
you will see is a political argument, distorted, and messed up 
and dangerous, but you'll hear a political argument that was 
confronted, I think, in the absolute correct way by Judge 
Duffy, but you hear it in a way that I think will enable you to 
sustain the motivation that you are going to need through all--
you know, all the difficulty of trying to change these laws.
    Chairman Tom Davis. Mr. Kanjorski.
    Mr. Kanjorski. Thank you, Mr. Chairman.
    If I could just ask a few questions about, how you envision 
the national director? Is he going to be of Cabinet status, or 
is he replaceable and fireable by the President? Does he have a 
term of years? How do we make sure that he isn't just a tool, 
as perhaps some people have suggested Mr. Tenet became in the 
last several years of responding to the needs of the White 
House rather than having an independent mind?
    Admiral Lehman. Well, we are silent in our recommendations 
as to Cabinet membership. I think most of us think that Cabinet 
membership is not a particularly good idea. But Cabinet level, 
that is, executive level, one, is essential.
    Mr. Kanjorski. But would he have a term that is 
independent----
    Admiral Lehman. No, we have not recommended that he or she 
have a specific term, because he will have such power that he 
needs to serve at the pleasure of the President. He must be 
confirmed by the Senate, must be responsive to the Congress 
to----
    Mr. Kanjorski. But we would be retreating from the 
precedent of the Director of the FBI and the present CIA 
Director. They have a term of years.
    Admiral Lehman. Well, the CIA Director, I don't believe has 
a term of years. The FBI does, and I'm not so sure that's a 
successful model to pursue, myself. But we did not address 
that. We are silent on the issue of term.
    But I would like to follow what underlies your question.
    It is essential to keep policy and intelligence separate; 
and in the structure that we are recommending that is 
maintained in the all-source National Counterintelligence 
Center and the other centers for fusing intelligence by 
professional analysts, providing the purely objective, as much 
as humanly possible, product; and, if you will, the National 
Intelligence Director is the person the President holds 
responsible for the integrity of this process, to bring forward 
to the National Security Council.
    I personally think the practice that has grown up in the 
past few years of the President requiring that professionals be 
brought along for the daily briefing, that he gets to see and 
hear the professional analysts who are most expert in the 
particular area or subject matter, this provides an ideal setup 
for that, where the President will have visibility.
    The National Counterterrorist Center Director will be 
confirmed by the Senate. He will be known to the President. So 
you will not have the danger of a National Intelligence 
Director becoming the monopoly source of information to the 
President.
    Mr. Kanjorski. Mr. Secretary, I am sort of worried. As I 
gather, the conclusion of the Commission is that this is a 
threat above and beyond what we have imagined it to be, this 
fundamental Islamic movement worldwide. I don't have enough 
information to make the judgment myself. But we have to balance 
that with the Constitution and the preservation of the 
Constitution.
    The one thing that worried me, I was thinking of the old 
NKVD leader in the Soviet Union, Beria, who succeeded to become 
prime minister by virtue of the fact that he ran the secret 
police.
    If we centralize that authority and give them a $40 
billion-plus budget to control at will, does that not eschew 
the authority that it may become uncontrollable, and the 
protection we are doing all this for, to save the Constitution, 
may be dissipated?
    Admiral Lehman. It is a very legitimate question to raise 
and to address, and I think the answer to it is the control 
must be exercised by the Congress. That is why we insist that 
he or she be confirmed and accountable to and at the beck and 
call of the committees of Congress. But it is no different--in 
fact, if you compare the powers, the inherent powers of the 
Secretary of Defense, compared to this intelligence director, 
the intelligence director's pale in comparison to what we have 
put into the centralized Secretary of Defense. So we believe it 
is manageable. We are recommending other protections of civil 
liberties, an oversight board in Justice and so forth, because 
these are real, legitimate issues that have to be kept 
constant. We can't let the pendulum swing totally over to 
security.
    Mr. Kanjorski. Some people suggested there may be a 
political idea in Congress. If I may extend this, for 6 years 
of the last administration, all I did was sit on committees and 
in hearings and oversight, but I cannot remember anything in 
the last 3 years of oversight. We can't even get subpoenas for 
the Defense Department.
    Chairman Tom Davis. Thank you.
    Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman and, Commissioners, 
thank you both for being here. Thanks for taking the politics 
out of it. Thanks for being brutally frank. It is most welcome 
and most refreshing, I can assure you.
    Throughout your report, comparisons are made between the 
Joint Chiefs of Staff and the new structure that advocates for 
the NID. The Joint Chiefs are used as an example of a 
successful joint operations planning agency that is the type of 
capability that we hope to instill in our intelligence 
community. I don't have the exact numbers, but I know the Joint 
Chiefs is very large, numbering in the thousands, and exists as 
a separate robust agency that draws on the finest officers from 
the various military services.
    If this type of capability is desirable, why did the 
Commission recommend a modest NID directorate with a relatively 
small staff and is just another Presidential adviser? Why not 
advocate a more robust capability that can truly steer the 
multiple intelligence agencies and make meaningful demands for 
their resources and budgets?
    The joint duty is currently sought after, you know, a 
prestigious assignment for many military officers and a 
requirement for promotion to a general or admiral rank. Should 
similar joint intelligence analysis and operation and planning 
experience be required for promotion above a certain level in 
the intelligence community?
    Mr. Kerrey. Well, Congressman, I appreciate the question. I 
think the recommendations that we are making for the NID, even 
though we do envision it being a relatively small agency, has 
substantially enhanced powers. We do cross the line and say 
that we think that DIA, that NRO, that NGA, that NSA, that 
these agencies, the directors, should be recommended by the NID 
Director or the NID Secretary. Whatever you end up, they should 
have the power to make the recommendation.
    Under current law, they have consultative authority, and 
that is all. Under current law, the appropriation goes to the 
Department of Defense, and we are recommending the 
appropriation go to the new Director or Secretary. I mean, it 
doesn't take a lot of intelligence to figure this out, but that 
will give this Director and this individual a substantial 
amount of power and authority.
    But I also want to use this as an opportunity to point 
out--although I don't want to be filibustering you with my 
answer, I did want to point out that, in my case, my vision for 
this is not so much that we are creating new structures or a 
czar or super-agency but that we really need to be building the 
network that allows the person with the question to get in 
contact with the person that has the answer.
    I would urge you again to read--there is a memorandum for 
the record produced by Major General Russel--I think his name 
is Honore. I think he was the CINC of NORTHCOM in 2003 when we 
did our memorandum for the record.
    Basically, what he is saying is we are heading toward a 
train wreck of computer interoperability, where the first 
responders won't be able to make contact with the person at the 
top. And nothing in this whole thing was more painful than 
listening to Mohammad Atta say, we have planes. American 
Airlines knew it, and the Department of Defense didn't. I mean, 
all the way through that day you see this interoperability 
problem.
    So some of this is not so much giving somebody the 
authority but having a vision for a management network that 
enables that person that has the question out there, wherever 
they are, to get in contact with the person that has the 
answer, especially the person who has the answer with the 
capability of deploying resources to help that individual solve 
their problem.
    Admiral Lehman. By the way, your idea of joint tours, that 
works so well now after Goldwater-Nichols, is a very good one, 
and I hope we will see some language to that effect in the 
legislation, which is why we recommend and believe firmly that 
the National Intelligence Director has to have personnel 
authorities to ensure that kind of thing happens.
    Mr. Kerrey. The point that John actually made right after 
we did our interview with former President Clinton, that one of 
the problems, however, with Goldwater-Nichols, and I have heard 
some of the concern about the NID that is sort of on this 
point, one of the problems you have with Goldwater-Nichols is 
the President is sitting there talking with his Joint Chiefs of 
Staff and said what is our options, and you only got one person 
in the room today. Twenty years ago you had four people in the 
room telling you a range of options. It limits the President's 
capabilities. We got down to this. Either we have to invade or 
we have to send in T-LANS. There were a lot of options in 
between that were never fully considered and I think were 
tragic consequences.
    Mr. Schrock. In your minds, is it desirable that the term 
of this Director overlap different administrations so as to 
take advantage of institutional knowledge and experience? I 
have heard a lot of members of the services and the service 
secretaries--and you were one of those--Mr. Secretary, who said 
after 4 years you are just learning the job and then you are 
gone. Should it be an 8-year term? What should it be?
    Admiral Lehman. My view is that the professionals, the 
heads, for instance, of these national centers, should have 
long terms, and not necessarily in statute but at least an 
accepted policy that it should be at least a 4, maybe a 6-year 
term. But I personally do not think--and, again, we, the 
Commission, have taken no position on terms. It could work with 
terms. It could work without terms. I personally do not think 
terms for the most powerful position is a good idea. I think it 
must serve at the pleasure of the President.
    Mr. Kerrey. I agree with that. The challenge, of course--
Warren Buffett has this great line. He says he likes to buy 
companies that an idiot would run, because eventually one will.
    Well, you have the same problem. You have to write the law 
understanding that every now and then somebody is going to put 
a real stinker in there to run the joint. You have to hope that 
the body across the way catches enough of it and be able to, 
you know, exercise some judgment beyond just ideology.
    So I think you have to--I think the NID--if you create an 
NID with this kind of power, I think you have to let that 
individual serve at the pleasure of the President.
    Mr. Schrock. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman, for calling these 
hearings so quickly. It is important, and I thank the 
Commission members.
    I truly do believe that the 9/11 Commission is an example 
of government at its best. We certainly need to act on your 
recommendations. We do not have time to wait. The terrorists 
are certainly not going to wait for us to be ready.
    As one who represents many of the families of September 11, 
and some of them are here today to testify, we thank you for 
your continued determination. They have expressed their desire 
that all of your recommendations be implemented, and they have 
stated they will not rest until that happens. They have even 
more recommendations, and I look forward to their testimony, 
and I certainly support their efforts.
    I would like to turn to one of the areas that, Senator 
Kerrey, you have spoken about, many, many times, and that is 
the high-threat funding formulas.
    Secretary Ridge testified at your Commission hearings in 
New York City that he believed that our Homeland Security 
resources should go, ``Where the threat exists.'' And, clearly, 
that is New York City. We are again in the cross hairs of al 
Qaeda.
    But the administration has never offered a plan to Congress 
for actually fixing the homeland funding formulas to keep them 
in line with the recommendations of the Commission, that they 
be based on threat and risk assessment. Instead, they have 
continued in an almost discretionary total way of allocating 
these funds. Specifically, in the basic homeland form grant 
formula, 60 percent of it is discretionary in the hands of the 
administration. Yet they have not allocated that on risk 
assessment. I would like to know whether you believe that 
should be changed.
    Second, they have ballooned the number of high-threat 
cities from the original 7 to now over 80, which resulted in 
aid to New York City, to give one example--and other high-
threat cities have the same example--it was cut 69 percent, 
from $150 million in 2003 to $47 million in 2004.
    The fire grant resulted in 9 cents going per capita to New 
York, with over $9 in Montana. The basic State grant for New 
York is roughly $5 and in Wyoming is over $38.
    Just last week, the chairman of the House Select Committee 
was getting ready to introduce a bill that was supposed to 
provide homeland funding based on risk, but not all of the 
details are known. It is not even open to the public yet. But 
we know that it goes away from all high-threat funding and 
would still guarantee a minimum to each State without the State 
needing to justify the need for a minimum or even being high 
threat.
    So, in your opinion, is that the approach Congress should 
be adopting to avoid distributing homeland funds as pork-
barrel, as you have talked about? Would you elaborate on the 
work on the committee on high-threat formulas and how the 
funding should be distributed?
    Mr. Kerrey. Well, Congresswoman, I spent 8 years on the 
Senate Appropriations Committee, and I am an advocate of pork. 
So I think it is basically 535 people in Congress trying to 
figure out how the money is going to be spent. I have argued 
strenuously with those who say, well, we ought to do it all by 
formula and turn it over to the bureaucrats and let them 
decide. So my hands are not clean on this one.
    I don't think you are going to change that, and I am not 
honestly that familiar with the formula itself. It sounds 
like--you go from 8 to 60 cities. It does sound like one of 
those mistakes that are so obvious that you probably shouldn't 
be doing it.
    But my own view on this is unless and until we recognize 
that the likelihood of an attack in New York City and northern 
Virginia or the Nation's Capital, Washington, DC, again, is 
very great, unless you come to terms with that, it is going to 
be very difficult to do the right thing.
    In my view, the right thing is to create, if possible, a 
separate line in DOD and defense appropriations. Because 
anybody that is involved with fire effort or police effort, OEM 
effort up in the State of New York is doing the Nation's work. 
New York City has been attacked twice, there have been at least 
two additional attempts that were intercepted, and if the 
Nation gets attacked again, it is likely New York City is going 
to be attacked.
    I just don't think I don't have much confidence--I am not 
wildly enthusiastic about getting into the mess of trying to 
figure out how to make Congress work better when it comes to 
doing appropriations. Therefore, the conclusion I reach is that 
what we should consider is creating a separate line in the DOD 
authorization so that you recognize right up front that in New 
York City it is the frontline of our defense efforts against 
terrorists.
    Admiral Lehman. If I could just followup on that, that is a 
very good point. Because what we lack on today is in the 
connectivity among the firemen, policemen and the first 
responders and between them and as it escalates up through the 
FEMA, through the National Guard, which are going to be needed 
to respond in potential attacks in the future, on up into the 
military.
    This is something where the Department of Defense has 
tremendous expertise, has procurement, has technology, has R&D. 
Fort Monmouth, NJ, the head of the Army Signal Corps, is just 
outside of New York. So this is something I think should be a 
Defense Department responsibility, to provide that kind of 
support to the first responders in the high-risk cities like 
New York.
    Mrs. Maloney. Mr. Chairman, I request permission to place 
in the record a letter to Congressman Cox urging that the 
formula be based on assessment of risk and vulnerabilities, and 
also the statement from this important report, which I hope 
does not gather dust but is implemented in its entirety, the 
statement that Homeland Security should be based, the funding 
formula, strictly on assessment of risk and vulnerabilities----
    Chairman Tom Davis. Without objection.
    Mrs. Maloney [continuing]. And statements of other areas 
that are totally within the discretion of the administration 
now.
    Chairman Tom Davis. Without objection.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T6537.024

[GRAPHIC] [TIFF OMITTED] T6537.025

[GRAPHIC] [TIFF OMITTED] T6537.026

[GRAPHIC] [TIFF OMITTED] T6537.027

[GRAPHIC] [TIFF OMITTED] T6537.028

[GRAPHIC] [TIFF OMITTED] T6537.172

[GRAPHIC] [TIFF OMITTED] T6537.022

[GRAPHIC] [TIFF OMITTED] T6537.023

    Chairman Tom Davis. Mr. McHugh.
    Mr. McHugh. Thank you very much, Mr. Chairman. Gentleman, 
thank you and to your fellow Commissioners for your bipartisan 
approach to this very, very important issue.
    Obviously, as a New Yorker and as someone who was in New 
York City just yesterday, the pain will never go away, nor 
should it. As Senator Kerrey said in his comments, this entire 
examination has helped remind us of that desperate day and the 
emotions we felt.
    Just for the record, I listened to Senator Kerrey's 
comments about his intention to vote for President. Secretary 
Lehman, you are under oath. Who will you vote for for 
President?
    Admiral Lehman. I am going to vote for President Bush.
    Mr. McHugh. The record will reflect it is a tie.
    Chairman Tom Davis. That reflects the national polls, by 
the way.
    Mr. McHugh. Following up, the gentleman from Pennsylvania 
made some comments about civil liberties and concerns that many 
have expressed. You gentleman are aware that some of your 
recommendations--the biometric, national ID card, driver's 
license, etc.--has caused some concerns.
    Next year, major portions of the Patriot Act are set to 
expire. It is going to be very controversial. I happen to 
believe that if you had to live under, as a Commission, pre-
Patriot Act, and had to abide by the barriers that existed in 
Intel sharing, you probably could not have done your report.
    From the perspective of the bill and the need to have a 
National Intelligence Director and a counterintelligence 
center, that ability to synthesize, how would you comment as to 
the efficacy and the need to maintain at least the spirit of 
the Patriot Act?
    Mr. Kerrey. Well, Congressman, first of all, I think that I 
have to declare that anything that has to be called the Patriot 
Act, I sort of felt like I probably would have voted against it 
without even reading the darn thing. But having examined it--
and I didn't examine it at all until I got on this Commission--
I think it has been misdescribed by both, in many cases, 
extreme supporters and extreme opponents.
    What we concluded was that if you just put the burden of 
proof on the executive branch, don't give the government more 
investigative powers than are absolutely necessary, if you can 
get in that quiet moment where you say tell me what value added 
is occurring here, because if there is value added, there is no 
question we have gotten value added in breaking down the walls 
and expediting FISA, although with FISA right now we got a 
backlog because we don't have enough people to process the 
applications.
    Just like if you are sitting over there right now working 
for the National Geospatial Agency with a Top Secret clearance, 
the private sector will pay you $20,000 because there is a 15-
month backlog on security clearances. So there is a number of 
areas here it seems to me that the Patriot Act provokes us to 
examine, beyond just what the law itself does.
    I mean, I think if it is possible to get to that moment 
where conservatives that are concerned about excessive 
government power and liberals that are concerned about 
excessive government power can actually examine the details of 
the statute, then I think you will extend those things that 
need to be extended and won't extend those things that don't. I 
am afraid, based upon my reading of it and my knowledge of it, 
which is pretty limited, that is the best I can do.
    Admiral Lehman. I would just add I think overall it has 
provided a tremendous increase in our security, but, in doing 
that, it has raised the specter that in the future there could 
be abuses, which is why we have recommended that we set up in 
the Justice Department a board of oversight specifically to 
protect privacy and civil liberties and so forth.
    But its contribution in dismantling ``the wall'' and the 
whole criminal justice mentality of no sharing has been 
invaluable. So it is important that those essential things be 
continued and made permanent and at the same time not losing 
sight that civil liberties must always be a consideration.
    Mr. Kerrey. Like I say, there will come a day--we may not 
be able to imagine it today, there will come a day when the war 
on terrorism is sort of back to background noise, 20 years from 
now, 25 years from now. You are always going to have terrorism 
as a tactic being used by individuals against more powerful 
people. There is going to come day when we are going to hear 
cases where the Patriot Act is sort of used like RICO, not for 
its intended purposes but for other purposes.
    I mean, really, I know that there are times when 
conservatives that are concerned about the power of the 
government and liberals that are concerned about the power of 
the government can come together, and that is what I trust the 
most, it is that conversation that I trust the most when it 
comes to trying to figure out how to get the Patriot Act 
reauthorized so it can do what John says, it can add value 
where value is being added, but where it is not necessary, 
don't extend it.
    Again, I don't come here with any very specific 
recommendations, but if it really isn't necessary, I urge you 
not to extend it.
    Mr. McHugh. Thank you both very much. I guess that is the 
efficacy of sunsetting.
    I would say just, Senator, I would say I suspect a lot of 
people voted for and against it without reading it. So, 
business as usual.
    Chairman Tom Davis. Mr. Kucinich.
    Mr. Kucinich. Thank you very much.
    First of all, I want to thank both gentleman for serving on 
the Commission and, for each of you, for your long, 
distinguished career in public service, which certainly 
informed your work on the Commission.
    I want to pick up a little bit from Mr. McHugh and the 
question that he raised. I am pleased that the 9/11 Commission 
identified civil liberties as an area of major concern. As a 
matter of fact, on page 394 of the report, it says, ``While 
protecting our homeland, Americans should be mindful of threats 
to vital personal and civil liberties. This balancing is no 
easy task, but we must constantly strive to keep it right.''
    Of course, those of us who are involved in the debates over 
the Patriot Act and have worked to pass amendments to it were 
guided by the spirit of Ben Franklin, who said, ``Those who 
would give up essential liberty to purchase a little temporary 
safety deserve neither liberty nor safety.''
    Now the Commission, continuing with its recommendations, on 
page 395 said that we should ``look across the government at 
the actions we are taking to protect ourselves, to ensure that 
liberty concerns are appropriately considered.''
    You recommend, as Mr. Lehman has mentioned, ``At this time 
of increased and consolidated government authority, there 
should be a board within the executive branch to oversee 
adherence to the guidelines we recommend and the commitment the 
government makes to defend our civil liberties.''
    Now I have not yet seen, members of the committee, the 
administration concur with this recommendation, and I would 
dare say that we are really faced with a challenge here, so 
that we do not permit fear of terrorism to erode our basic 
liberties and thereby undermine the spirit of America itself.
    The Commission says, page 395, ``If our liberties are 
curtailed, we lose the values we are struggling to defend.'' 
Part of what we are dealing with is terrorism, and the other 
part is fear of terrorism.
    Senator Kerrey, you mentioned in your remarks a moment ago 
about there is two sides to the question of the Patriot Act, 
and we have the Patriot Act, which I opposed, these color-coded 
threat systems. You know, Americans are forever wondering, what 
does this mean, Code Orange? The CAPS program, total 
information awareness, discussions about that, there are real 
concerns out there around the country about the potential of 
these structures to curtain our essential liberties and whether 
or not these structures open the door to manipulation of 
information for political purposes.
    So I think that, aside from the obvious duty that we have 
as Members of Congress taking an oath to defend the 
Constitution of the United States, this Commission 
recommendation to create a strong board to oversee the 
government initiatives and protection of our civil liberties is 
something that is absolutely critical and is something we 
should consider incorporating possibly in the form of an 
amendment.
    I would like to ask if either Mr. Kerrey or Mr. Lehman 
would like to elaborate on your vision for what could be called 
a Federal civil liberty ombudsman, somebody to make sure that 
this quality that we have, that is so essential to who we are 
as a Nation, is not eroded.
    Mr. Kerrey. Well, the idea, Congressman, came actually 
from--at least the first time I heard the idea discussed, it 
came from a discussion of the detainee policy right after 
September 11, where we were unable to ascertain any security 
value added from all those detainee efforts and felt that there 
was going to be a need, regardless of what the effort was, to 
create a force inside the Justice Department that could do this 
kind of evaluation in an objective fashion.
    I also have to say, if Ben Franklin were around today, if 
he had been on this 9/11 Commission and come to terms with 
Ramsey Yusef and Osama bin Laden and other guys who sit around 
and talk sort of casually about killing hundreds of thousands 
of Americans, I do think that he would say, well, wait a 
minute, we can't sit around and worry about violating Osama bin 
Laden and Ramsey Yusef's civil liberties.
    Remember, in 1998 and 1999----
    Mr. Kucinich. Senator, with all due respect--this is my 
time.
    Mr. Kerrey. No, Congressman, I don't need you to say ``with 
all due respect'' as you interrupt me.
    In 1998 and 1999, we sat around and tried to debate whether 
or not we were going to pull the trigger to kill Osama bin 
Laden. We had that great debate because we were worried about 
collateral damage at the moment he was planning to kill 3,000 
Americans, trying to acquire nuclear weapons to kill maybe a 
million. It is right in the report.
    You have this stark language of us being concerned. I 
embrace that concern. I am glad we lead in those areas. I am 
glad we have this concern about civil liberties. It needs to be 
there. But the enemy has no concern for civil liberties. The 
enemy has no concern for the Geneva Convention.
    You have to come with that--and I know you do in that 
debate--we have to come with that hard-headed attitude, or are 
not going to get this thing balanced right. All we are going to 
do is score a point to an audience that is apt to be 
sympathetic to our viewpoint.
    Mr. Kucinich. You did not answer my question with respect 
to the balance.
    Mr. Kerrey. Well, I answered as best as I can, or as far as 
I am going to go today, I guess, Congressman. I mean, where do 
you find my answer to be inaccurate?
    Mr. Kucinich. How do you protect civil liberties?
    Mr. Kerrey. I don't think you protect civil liberties 
absolutely. I don't have an absolute civil liberty to speak 
freely, to operate freely. I always have to balance what I am 
saying against the interests and the rights of another 
individual.
    So if I am sitting in a mosque somewhere having a 
conversation that I think it is a pretty good thing what 
happened on September 11, to kill Americans, and I would like 
to perhaps support other people who are doing the same sort of 
thing, as far as I am concerned, I just forfeited my right, it 
seems to me, to not have the government of the United States 
interfere with either that conversation or my effort to do so.
    So I can't balance it in general, unfortunately. I have to 
get to the specific thing that we are talking about in order to 
be able to do that balancing.
    That is why I say, Congressman, I do think both the 
mechanism that we are recommending and the general thing I said 
earlier with the Patriot Act, you got to get to that place 
where you have both liberals and conservatives who say we don't 
want the government to have too much power, because that is, in 
the end, what you are dealing with. It is not so much civil 
liberties as it is the power of the government to investigate 
us without any control over that government, regardless of what 
it is you are doing. And I think you need--in our system of 
government, I think we need real limitations on what the 
government is able to do with individual citizens. At the same 
time, we are fighting a war against individuals that don't feel 
that way.
    Mr. Schrock [presiding]. Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    I thank the gentlemen for your service to our country and 
all the Commission members for rising above the political 
rhetoric and the bashing and all of the partisanship that goes 
on, even as you have heard in this committee. You have produced 
a truly bipartisan report that rises above that and honors the 
thousands who died on September 11, honors their grieving 
family members and also gives hope to our men and women in 
uniform throughout the world who are fighting those Islamic 
extremists who seek our destruction and who corrupted their 
religious teachings in such a distorted way that they can state 
that they are killing for their creator.
    I wanted to raise two issues that were raised in your 
report that is currently being debated in our committee on 
International Relations, and we will have you appear before us 
in the coming days. These legislative proposals we are putting 
forth have to do with the information-sharing component of your 
report and the need for executive branch reorganization. I 
wanted to ask you if you believe that each agency involved in 
counterterrorism efforts should reorganize their own 
infrastructure to better integrate and coordinate the 
intelligence, the policy, the operational components, and 
should each agency essentially have a single dedicated office 
or division working exclusively on U.S. counterterrorism policy 
that will serve as a point of contact for other U.S. agencies 
in the soon to be created terrorism center.
    Also, another proposal that we are looking at is your 
observation of the Commission that has to do with the need to 
transform the system of need-to-know to one of need-to-share. 
But there are concerns that increasing the number of 
individuals with access to intelligence could jeopardize 
sources and methods; and, in turn, that could jeopardize not 
only our intelligence gathering capabilities but our 
operational response as well. How would you address those 
concerns and safeguard against these potential problems?
    Thank you.
    Admiral Lehman. I will start, if I might, to answer that. 
One of the most essential things in reforming our current 
structure is to rationalize the current security system, as you 
rightly put it, to change from a need-to-know to a need-to-
share culture. That is one more very strong remedy for a 
National Intelligence Director who has that power that cuts 
across agencies.
    Today, too many agencies do all their own classifying, do 
all their own background investigations, do all their own 
stamping, and when in doubt stamp it one level higher than it 
should be. What we are recommending is a cultural change, and 
that goes to the first part of your question, should each of 
the 15 agencies change, reorganize themselves.
    I believe that the only reason for making these 
organizational changes is to bring about a cultural change, to 
provide an environment in the whole community and in each of 
the agencies where people can become innovative, can do the 
right thing. Because we have fabulously talented people in each 
of these agencies that are kind of in shackles because of the 
bureaucratic process.
    So if we can change, give the power to somebody at the top 
to break up these shackles, to remove these obstacles, then 
each of the agency heads will be able to reorganize their own 
agencies and bring about a culture of sharing and of putting 
proper responsibilities where they belong.
    Specifically, in the classification issue, one of the 
greatest tyrannies in the classification system is what is 
called originator control. If NSA originates a piece of 
intelligence, they get to control it, nobody else. If CIA 
originates a piece, they get to control it, it is called ORCON. 
That has to be totally changed.
    We have to have a system where sources and methods are 
detached as soon as the intelligence is gathered and then it is 
fed into the system of sharing free, so everybody don't have to 
maintain this ORCON compartmentalization throughout. That is 
why you are getting an idea why we believe this is a whole. It 
is not a Chinese menu, these recommendations.
    Chairman Tom Davis [presiding]. Thank you.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. I 
want to thank you and the ranking member for convening this 
hearing. I also want to thank the witnesses for the tremendous 
work you have done as part of the Commission. I want to commend 
the family members for the role that they played in bringing 
the Commission about.
    On Saturday, the Washington Post ran a front-page story 
that described a significant policy shift by the Bush 
administration. It announced that it will now oppose 
inspections and verifications as part of an international 
treaty that would ban the production of nuclear weapons.
    Senator Kerrey, could you give us your views on this? Is 
the administration going in the right direction, the wrong 
direction, appropriate direction? What do you think about this?
    Mr. Kerrey. I wasn't in town Saturday, so I missed that 
story. I am not sure, Congressman, honestly what the 
administration is proposing. I do think that the chem/bio 
nuclear threat is very real, especially nuclear. It is almost a 
question of when, not if, one of these gets used. At the same 
time, I must tell you, I think the likelihood of the United 
States being attacked by a terrorist using just straight 
conventional weapons is a more likely thing.
    You all were terrified by a couple of snipers here for a 
number of months, and that wasn't weapons of mass destruction. 
So it can still be pretty easy for me to go out and get a 
couple hundred pounds of C-4 and a time stick and put it 
someplace where it would do a lot of damage. There are a lot of 
conventional vulnerabilities.
    So I don't think that is the question that you asked me, 
but it is about as far as I can go to answer your question. I 
don't know what the administration proposed.
    Mr. Davis of Illinois. Let me proceed. The article went on 
to say the administration's position will dramatically weaken 
any treaty and make it harder to prevent nuclear materials from 
falling into the hands of terrorists.
    Mr. Lehman, do you have a view on this?
    Admiral Lehman. First of all, I do believe that 
proliferation efforts have to be redoubled and intensified, 
that this really is the most serious long-term threat. I agree 
with Bob that the more immediate is conventional but the 
catastrophic is in nuclear. So I am a true believer in 
nonproliferation, and we are recommending one of the national 
centers be a nonproliferation center.
    However, I also believe in President Reagan's dictum, 
``trust but verify.'' When you are dealing with nuclear 
materials, we have found--I mean, I was sent by President 
Reagan to try to threaten President Sia of Pakistan not to 
proceed with nuclear weapons. I sat right across from him at 
dinner, and he looked me straight in the eye, and he said I 
give you my word, we are not developing nuclear weapons. And 
about 2 years later, they had their first test.
    So I used to be, in one incarnation, the Deputy Director of 
the Arms Control Agency. I believe in arms control. I believe 
in treaties. But they must be verifiable. We cannot take the 
words, we cannot trust a toothless international organization 
to verify. We have to have an international organization or 
national means, such as we developed with the Soviets, that are 
intrusive but reliable.
    Mr. Davis of Illinois. Let me just ask--finally, the 
article said that the administration came to its conclusion 
because such a system would cost too much. The Commission 
report says that preventing proliferation of these weapons 
warrants maximum effort by strengthening counterproliferation.
    I assume that the Commission felt that the cost would be 
warranted if we could prevent further proliferation of these 
weapons. Is that your understanding?
    Admiral Lehman. The principle, as opposed to its specific--
because I don't think any of us on the Commission addressed 
this specific move by the administration--but money spent on 
reducing proliferation, regardless of the cost, in my judgment, 
if it is effective means it is money well spent.
    Mr. Kerrey. It does look from the article that this weakens 
verification. Frankly, Congressman, I would want to ask Senator 
Nunn what he thought of this or somebody else that steeped 
themselves in trying to reduce the threat of nuclear 
proliferation.
    Indeed, in our discussions, we pointed to the Nunn-Lugar 
Act as something that, with the corrections Congress made 
through good oversight, is something that needs additional 
funding and additional support. So I would seek to deflect your 
question to somebody that is more knowledgeable than I. As is 
oftentimes the case when I see something on the surface, my 
surface reaction would be this is going to weaken our 
capability to stop proliferation. I would check it with 
somebody more knowledgeable than I.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.029
    
    [GRAPHIC] [TIFF OMITTED] T6537.030
    
    [GRAPHIC] [TIFF OMITTED] T6537.031
    
    [GRAPHIC] [TIFF OMITTED] T6537.032
    
    [GRAPHIC] [TIFF OMITTED] T6537.033
    
    Chairman Tom Davis. Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman. I appreciate it.
    Let me just say to the panelists here how much we certainly 
appreciate your dedication to our Nation. You have all had 
terrific careers, but I think certainly what you have done with 
the 9/11 Commission will be a mark of your careers as well. I 
appreciate your coming.
    I appreciate our chairman calling this hearing and the 
leadership of our Speaker as well. There are a number of 
different committees that will be having hearings on this 
remarkable report that you brought out. I think it was very 
appropriate. I had some consternation about the Congress going 
on recess right as you were delivering this remarkable piece of 
work, and so I think there are a number of things that our 
committee should be looking at with your recommendations.
    I am going to go to something that is so almost 
ridiculously simple but so fundamental in one of your 
recommendations and something I have a little bit of expertise 
in as well.
    Before I got this job I was a Michigan Secretary of State 
and in that my principal responsibilities--one of my principal 
responsibilities was serving as the chief motor vehicle 
administrator, issuing drivers' licenses, State identification, 
etc.
    Actually, in your Commission's report, here on page 390 you 
have a recommendation ``secure identification should begin in 
the United States. The Federal Government should set standards 
for the issuance of birth certificates, sources of 
identification, such as drivers' licenses,'' etc.
    I wonder, during the course of your hearing, as you were 
taking testimony there, if you found that there was--at least 
it has been my experience that there really has not been a 
Federal standard on how we are issuing drivers' licenses or 
State ID cards. This I think is the foundation of your 
identity.
    You have a driver's license, that is how you are going to 
enroll into a flight school or get on an airplane or what have 
you. Yet all of the various States--there are a number that 
have very high secured drivers' licenses, essentially 
fraudulent free, but there are still a number of States who are 
issuing drivers' licenses, first of all, without requiring any 
really good, essential primary documentation as to the identity 
of the individual that they are issuing these licenses to, and 
I think we have a serious problem with that.
    For instance, with commercial drivers' licenses, just 
reading this latest terrorist threat, we see that there is 
quite a bit of consternation that much of this terrorist threat 
could manifest itself in people in trucks, in cars, with bombs.
    You have I think the possibility certainly with not having 
the kind of secured licensing system that we need to have with 
people getting commercial drivers' licenses, for instance, with 
hazardous materials endorsements. They are literally using our 
own freedoms against us. Yet the technology does exist out 
there for us to have not only secure licenses but biometrics, 
the retinal scanning, whether or not we would put fingerprints 
on licenses.
    I think we all have to be very concerned as we use 
technology about privacy concerns. At the same time, there 
certainly is technology there, and it would seem appropriate, 
and as you say in your recommendations here, that the Federal 
Government should be issuing Federal standards to the various 
States.
    Again, I know we are talking about national security 
directors, etc., but this is such a fundamental thing that 
every American has and needs to have, and I do think the 
Federal Government would have a very appropriate role in this. 
I am just looking for a little comment from you two individuals 
on that.
    [The prepared statement of Hon. Candice S. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.034
    
    [GRAPHIC] [TIFF OMITTED] T6537.035
    
    [GRAPHIC] [TIFF OMITTED] T6537.036
    
    [GRAPHIC] [TIFF OMITTED] T6537.037
    
    [GRAPHIC] [TIFF OMITTED] T6537.038
    
    [GRAPHIC] [TIFF OMITTED] T6537.039
    
    [GRAPHIC] [TIFF OMITTED] T6537.040
    
    Admiral Lehman. Well, I am very pleased that you single 
this out, because I think all of us on the Commission are very 
proud of this recommendation, because it came from some very 
interesting intellectual disputation on the Commission. Because 
there were some of us who were sympathetic to the idea of a 
national identity card and others that were very concerned 
about the privacy and civil liberties issues.
    We believe we came up with what is as near to a perfect 
solution as you can with this national standard, because this 
is not a national identity card. It keeps in the States the 
responsibility for those documents and for the administration 
that goes behind that. There will be no national identity card. 
Yet it gives all the security benefits that a national identity 
card would give. And it does not have to be enforced by the 
Federal Government. If there are Federal standards, it becomes 
enforced by the insurance industry and by private industry. If 
a State doesn't adhere to national standards, insurance rates 
are going to be a lot higher.
    Similarly, we recommend the adoption of national standards 
for building safety and fire codes and so forth. Similarly, the 
Federal Government doesn't have to enforce it. It gets enforced 
by insurance underwriters and private industry. So we are very 
pleased with that and hope it will get enacted.
    Mr. Kerrey. I actually would have gone further with the 
recommendations. Just for all those folks that are worried that 
the national identification card is going to impinge on your 
privacy, get rid of your credit cards first, stop using the 
public e-mail second, don't travel anymore, third, and then 
tell me what the hell you think of it.
    I mean, the problem is we have given away so much of our 
privacy already without knowing it; and the trouble is, absent 
our capacity to in a much more sophisticated way tell who that 
small fraction is--there is no more than 1 percent--in fact, it 
is less than 1 percent of the 500 million visitors of the 
United States of America we believe have criminal intent.
    The trouble is, yes, they are slowed down a bit, but it is 
the 499 million others that are slowed down that cause us to 
basically impose upon ourselves more regulatory costs than we 
ought to and more regulatory delays, etc. This is about as far 
as we could go on a Commission.
    But I will just tell you, on the Democratic side of this 
Commission, there was enthusiasm to push this envelope even 
further.
    Chairman Tom Davis. Thank you very much.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Just as the members of the families who are here today and 
all they represent have turned their personal pain into public 
service, and we thank them for that, I want to add my remarks 
to the Commission members, the two people here before us, and 
thank them for their public service. You have done a great 
public service to the country, and we all appreciate that.
    There is no reason in my mind, having looked at all the 
exhaustive work the Commission has done to date, that we 
couldn't have in place by September 11, 2004, on the 
anniversary date, some legislation to move us forward, and I 
really hope that this Congress, the majority, takes a direction 
on that, and certainly we will work with them to get that done.
    In your report, you had a strong desire for a National 
Intelligence Director that had control over budgets, the 
ability to approve and submit nominations for the heads of 
initial agencies, a counterterrorism center that had 
responsibility for operational planning. I think all of those 
things make absolute sense, but I think they also demand 
incredible oversight, which is a point you both made today.
    In your report, you give two suggestions of how we might do 
that. One is a joint House-Senate committee for intelligence, 
and the other, of course, is one committee in each body 
designated toward that goal, with combining authorizing and 
appropriations powers. What is the preference and why?
    Mr. Kerrey. Well, it is most unfortunate, from my 
standpoint, you found the two----
    Mr. Tierney. Is your mic on, Senator?
    Mr. Kerrey. It is, yes. The two people that are the 
strongest advocates of a joint committee are sitting before you 
today, so when we say what are the preferences, we are going to 
leave out the preferences of the other Commissioners as we 
respond, because we favor the joint committee.
    I favor the joint committee because I think is the 
strongest of the options. It gives Congress a stronger play. It 
gives Congress the strongest possible play.
    If you go back and look at the joint Atomic Energy 
Commission model, the critique that was the loudest and 
eventually shut it down was that Congress was treading on the 
privileges over the executive more than it should.
    In this area, where classification is the rule, you don't 
know what is going on. Congress has to have a strong committee.
    Regardless of which option you pick though, Congressman, I 
would make sure it is written into law. Don't do with 
congressional resolutions. No matter what the critics of the 
CIA will tell you, the men and women who work there follow the 
law, and they are just a little less persuaded by a 
congressional resolution.
    Second, require full and complete accounting. Require that 
in the statute. Especially if it is in law, it will be done.
    The third thing is. Because it is classified, because you 
don't have the oversight, whichever model you pick, require in 
law that the committee issue a public report once a year that 
is not classified, that lets people know what the status of 
these agencies are. Are they funded well enough, where is the 
weaknesses, where is the strengths, etc. Get something out 
there that is public.
    The principal reason I think that Congress may find the 
joint committee appealing, however, and it is a very important 
one--again, I was on the Appropriations Committee, and I know 
that combining authorizing and appropriating--in the Senate, 
you could probably get 60 people privately to tell you that is 
a great idea. But the only people who are going to vote for it 
when it comes to the floor are people who are, A, not a member 
of the Appropriations Committee or, B, hope to get something 
from the Appropriations Committee for the rest of the time of 
their career in the Senate, which is probably less than 10.
    So what I believe you can do to accomplish that end is 
again in statute require that the committee have representation 
from the Foreign Relations Committee, the Armed Services 
Committee, Judiciary, and I would say Defense Appropriations as 
well.
    We have additional language that keeps, as much as 
possible, the politics out of it. One of the things I heard 
earlier, our Commission had power because we had subpoena 
power, and it was real subpoena power. Tom Caine was willing to 
use it. We got access to documents, we got movement, we got 
things.
    This is not a whack on President Bush. President Clinton 
probably would have done the same thing. No matter who the 
President is, who the executive leadership are, they are going 
to say, we have Executive privilege; you can't come and look at 
these things.
    So that subpoena power and the willingness to use it--if 
you have a round in the chamber and they have it on ``safe'' 
all the time, nobody is going to be afraid of you. So in this 
particular case you have to take as much of possible the 
politics out of it so that subpoena means something to the 
executive branch.
    Admiral Lehman. I totally agree with Bob. I am a year older 
than he is, so I go all the way back to actually dealing with 
the Joint Committee on Atomic Energy when I was on Kissinger's 
staff and a Deputy Director of the Arms Control Agency.
    It was a powerful committee. It was very searching and 
probing, and it got the issues out before the Congress and 
provided tremendous guidance to the executive branch. It was 
almost a perfect model, in my judgment, of how the equal 
partnership between the two branches was. It attracted people 
like Mel Price and Scoop Jackson and Craig Hosmer. So I am 
equally enthusiastic with that as the proper solution.
    Mr. Tierney. Thank you.
    Mr. Kerrey. Mr. Chairman, I am going to make a general 
point. I appreciate there has been a lot of public attention 
putting pressure upon you all to hold hearings during--one of 
the most unfortunate names that you all have--the American 
people have to refer to a time off as recess. You guys need a 
vacation. You need to get away every now and then.
    One of the things we discovered is, had more of us read Tom 
Clancy, we might have been able to figure this out. Had more of 
us read Blackhawk Down or seen the movie, we might have 
understood that bin Laden was either directly or indirectly 
responsible for shooting down our helicopters on October 3rd 
and 4th, 1993.
    Part of the problem is that you are so pressed for time, 
constantly getting briefings, constantly reading this stuff 
coming through your in-boxes, that when we say failure of 
imagination, that is what happened to all of us.
    So one of the unfortunate things is you have a lot of 
pressure to hold these hearings during recess, and God bless 
for being able to do it, but take some time off. Rename it a 
vacation. Say we need vacation, too. We got to go away and shut 
down and throw our cell phones away and our BlackBerries away 
and not make contact with anybody other than the fiction that 
we are going to take with us and read.
    Chairman Tom Davis. Thank you. You can have as much time as 
you need it here. If you want more time, you can have it on 
that subject.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I do want to thank you 
for holding this hearing on this important issue, and I want to 
thank the family members for their effort to focus on 
advocating for issues that will make America safer, and I want 
to thank the Commissioners for their effort in putting together 
a bipartisan Commission report and their efforts to continue 
the recommendations in a bipartisan manner.
    One of the questions earlier I think inadvertently 
diminished the President's call for a National Intelligence 
Director, focusing on the words ``coordinate.'' I just for a 
moment for the record wanted to state what the President said.
    I have in front of me his statement from that day where he 
called for the National Intelligence Director. He said, ``The 
National Intelligence Director will serve as the President's 
principal intelligence adviser and will oversee and coordinate 
the foreign and domestic activities of the intelligence 
committee. Under this reorganization, the CIA will be managed 
by a separate Director. The National Intelligence Director will 
assume the broader responsibility of leading the intelligence 
community across our government.
    Of course, we all have to wait for the final specifics of 
what we are going to receive in that recommendation, but I 
didn't want the record to reflect a diminishing of what the 
President's efforts were.
    Senator Kerrey, twice today in listening to your testimony 
you have said things that relate to how I felt in reading the 
report.
    One, you said that in reading the narrative it will take 
you back to where you were that day and give you really the 
commitment of moving forward on these issues.
    On that day I served as mayor for the city of Dayton. Our 
city the prior month had a weapons of mass destruction 
terrorist response exercise upon the urging of one our city 
commissioners, the late Lloyd Lewis, who thought we in the 
community needed to be prepared for this looming threat. 
Attorney General John Ashcroft attended that event.
    In reading the 9/11 Commission report, I was struck that 
your recommendations were very similar to the recommendations 
that came out of our Dayton Domestic Preparedness Action Report 
on what was needed for our first responders. Those 
recommendations were for issues of training, protection, 
equipment, intel on the local level, interoperability and 
command structure.
    I know our chairman of the National Security Subcommittee, 
Chris Shays, similarly before the September 11 event had held 
hearings on the needs of our first responders.
    The second thing that you had said was the issue of the 
statement by the terrorists that ``we have planes'' and the 
time period within which the Department of Defense was able to 
respond, in fact not respond.
    Assuming that we put all this intelligence structure 
together, intelligence only provides us knowledge, knowledge of 
which we have to take some action with, and assuming that a 
terrorist event is occurring or unfolding, both our first 
responders and our Department of Defense are going to need to 
have the resources necessary to be able to protect us and to 
work through a crisis.
    In looking at the report, it notes that at 8:25 a.m. was 
the first notice of the hijacking; at 8:46, F-15s were 
scrambled; at 9:25, they were over New York City's air space; 
at 9:39, the Pentagon was attacked.
    So my two questions relate to if you can comment further 
and expound on your issues you saw in the resources and the 
needs of our first responders and also, second, on the issue of 
our ability for the Department of Defense to have a national 
defense system that can respond if we do have intelligence of 
an unfolding event.
    Mr. Kerrey. Well, you know, first of all, I think there are 
significant vulnerabilities that are still here.
    As a former mayor of Dayton, you are apt to have a greater 
sense of urgency in coming to terms with the training needed to 
prepare first responders. You can't just put an ad in the paper 
and hire somebody and bring them in and all of a sudden Mary or 
Jim or Sue can do the work. They have to be trained. If you 
want them to be effective against an effective biological 
weapon, they have to be trained to do it. Yet among all the 
additional things you have to do is to be able to identify 
somebody who can be a suspect or try to deal with the crisis 
once it starts going forward. So there is a huge amount of 
training that is required.
    My experience with law enforcement is it's the one area 
that oftentimes gets shorted. It's hard to do. It's hard to 
constantly allocate the more money that's necessary for police 
and fire, and, in our case in New York, an Office of Emergency 
Management Personnel, to keep their skill level up.
    Congressman, I really would urge you to look at--and I'm 
now trying to pronounce General Honore's name the second time. 
I hope I got it right the second time. He produced a memorandum 
for the record. He was CINC of NORTHCOM, Commander in Chief of 
NORTHCOM at the time, and it's a terrific memo because he's 
talking about exactly what you're talking about, I think, which 
is the first responder is the first line of defense.
    And what I was talking about, when I was talking about this 
agony of listening to American Airlines here, where we have 
planes, is the issue of computer interoperability. Honore deals 
with it very, very passionately and very clearly, that he 
believes we're still headed toward a train wreck.
    The second individual that I would urge you to talk to, I 
would call into your offices, I don't want to recommend you 
bring her here to a hearing, that's the last thing I want you 
to do, the woman who led our team in the border security, Susan 
Ginsburg, because Susan talks passionately and with great 
capacity about the shortcomings we have again in training our 
personnel so they are prepared to do the job, and talks as well 
to Congressman Miller's point earlier that we have significant 
vulnerabilities at the border dealing with identification; that 
we have significant vulnerabilities still remaining with people 
out there having to make a decision that don't get the 
intelligence that they need to make a decision on the spur of 
the moment.
    So the fact that your former mayor of Dayton prepares you 
enormously well to help other Members of Congress figure out 
what those responders have to do because they are the ones we 
are going to rely upon the most to keep the country safe or, 
God forbid, to handle the next crisis.
    Chairman Tom Davis. Thank you very much.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Mr. Chairman, at the outset I want to thank you and Mr. 
Waxman for your promptness in responding to the 9/11 Commission 
report.
    Commissioner Lehman and Senator Kerrey, I would also like 
to thank you again and extend our gratitude, to join the echo 
of the chorus up here for the great efforts of your Commission 
and yourselves personally on behalf of our country.
    Today's hearing offers the first opportunity for the House 
of Representatives to review the various proposals, both 
structural and policy-oriented, set forth in the 9/11 
Commission final report. And I would just like to respectfully 
urge my colleagues when weighing these proposals to abide by 
the bedrock principles upon which our Nation was founded, 
namely our government's responsibility and obligation to ensure 
the basic security of our people, as well as maintaining the 
delicate system of checks and balances that guarantees our 
government's accountability to our people, and also, of course, 
a profound commitment to safeguarding the civil liberties that 
have come to be inseparable from the American way of life.
    To this end, and in consideration of the 9/11 Commission's 
recommendations, I think we must dedicate ourselves to devising 
a National counterterrorism policy that truly promotes 
information sharing and cooperation and, above all, 
accountability, as both you gentlemen have testified to today. 
And I would agree with others who have noted that the 9/11 
Commission, and yourselves in particular, have offered to the 
Congress a shining example of what bipartisanship can 
accomplish, and that is reflected in your report.
    I think all of us here are committed to developing an 
effective counterterrorism policy regardless of where those 
recommendations may come from, whether it is the Commission or 
the Congress or the administration.
    And, last, I would be remiss if I did not say to the 
families of those loved ones who were lost on September 11 that 
we thank you for your persistence and your loyalty and your 
dedication throughout this process. You have contributed 
greatly to this process, and it is my only hope that the weight 
of your sorrow will in some way be lightened by knowing that it 
is shared by both your neighbors and your Nation.
    My question to the Commissioners is simply this: This 
committee has previously investigated goings-on at the FBI in 
the Boston office, and we found during that investigation that 
there was an institutional, a cultural resistance to 
information sharing. We found that intelligence was actually 
the currency of career advancement for many of those FBI agents 
and supervisors.
    Is there one proposal, is there one formulation in your own 
minds that will break down that resistance to information 
sharing that we have seen at least in the FBI and I believe is 
probably prevalent through all of these intelligence agencies?
    Admiral Lehman. This was one of the most long-considered 
issues that we debated and thought about and took testimony on. 
It certainly was a contributing factor to September 11. It is a 
deep cultural reality that good law enforcement people do not 
share evidence. It is ingrained in their professionalism, and 
it is needed in the law enforcement community. That is what 
makes it so difficult to blend or to share intelligence 
gathering and analysis on the one hand and law enforcement on 
the other.
    We thought very hard about creating an independent agency, 
an independent domestic intelligence agency, on the MI-5 or 
some other similar model, like Australia or Canada has. We 
ultimately decided not to recommend that, but to recommend 
something that, we think, neatly addresses exactly the problem 
that you found in Boston and that we found endemic in the 
domestic intelligence problem in the FBI. We are recommending a 
semiautonomous service within FBI that is protected by the NID; 
that has either the Executive Assistant Director for National 
Security and for Intelligence perhaps combined in one strong 
Deputy Director of FBI that is dual-hatted to both the National 
Intelligence Director and to the FBI Director so that we retain 
the strengths of the connections of the FBI with the local law 
enforcement community, which is one the great gatherers of 
domestic intelligence, and we keep the protections of civil 
liberties that the Justice Department provides, yet we protect 
that intelligence function within FBI from exactly the 
dominance of the law enforcement culture of no sharing and of 
case development and so forth, rather than this sharing culture 
of intelligence analysis.
    That is another reason why this is all of a piece. If we 
proceed with the National Intelligence Director and do not give 
him hiring and firing authority over that FBI Intelligence 
Deputy, and give him or her that authority over the budget and 
appropriations for the FBI intelligence function, then you have 
not really made much difference. You have not brought FBI into 
the fusion of our intelligence.
    Mr. Kerrey. And may I say, we were very impressed, the 
Commission was very impressed, John can shake his head if I'm 
wrong, but we were very impressed with the progress that 
Director Mueller has made in a relatively short period of time 
to change that culture.
    Part of the culture is just understandable human nature. I 
mean, I don't want to tell you something because I'm afraid 
you're going to screw me with it.
    Mr. Lynch. Either that or you'll get credit for it.
    Mr. Kerrey. Or I won't get credit for it. But there is also 
another one that I just--there are times when secrecy doesn't 
equal security. There are times when secrecy equals the 
opposite. It makes us less secure.
    Ninety percent of the foreign policy stuff that we get 
today to make decisions that you get today you get from open 
sources, and the more we keep these things secret, the less 
debate we have. And in my view, the reason we didn't identify 
bin Laden as public enemy No. 1 prior to September 11 is we 
kept the details about who he was secret. After September 11, 
the full story's out there. And 75 percent of what we knew 
about bin Laden we knew in 1997, 90 percent we knew in 1999, 
and we knew 100 percent by 2001. We kept it secret, and, in my 
view, it made it exceptionally difficult to do what we needed 
to do to reduce that threat.
    Mr. Shays [presiding]. The gentleman's time is up.
    Admiral Lehman. One very briefly anecdote.
    Mr. Shays. Please be brief.
    Admiral Lehman. Very brief.
    In the 1993 World Trade Center, the Justice Department had 
to turn over to the defense counsel the names of the 
coconspirators that intelligence had gathered. It went straight 
to bin Laden, but they could not share it with CIA.
    Mr. Shays. Amazing. Very interesting, your responses.
    At this time the Chair would recognize Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman. First, I want to thank 
you, like everyone else here, for a really exceptional piece of 
work here. Bipartisanism is fantastic in this town, I commend 
you for it, and I'm going to treasure this.
    I'm going to try to couch questions that I got back home, 
and one of the first questions I want to ask you is, we are in 
a war on terrorism. Can we lose this war on terrorism? And what 
would be the results of losing the war on terrorism for the 
American people?
    Or even better, what do they expect to win? When would they 
say ``we win'' on the war on terrorism? Because the concept of 
a war for the American people is not fitting with what we are 
doing, and I think your report does fit what we are doing.
    Mr. Kerrey. Well, Congressman, first of all, I presume that 
home is--help me a little bit. You said when you go back home. 
I can tell it is not New Hampshire, but----
    Mr. Carter. Well, I'm from Texas, and we take war real 
seriously in Texas.
    Mr. Kerrey. Well, I mean, the first thing I'd say, Judge, 
is a war on terrorism is inappropriately named. Terrorism is a 
tactic. It would make as much sense for us to declare war on 
zeroes after December 7, 1941. Terrorism is a tactic. It is 
used by individuals to try to accomplish some objective. It's 
hard to get your head into that, but that's what's going on 
here.
    And one of the more controversial things we dealt with, and 
you'll see it in the report, we used the language we believe 
that what we are dealing here with is radical Islamic jihadists 
who have made the decision--in this particular case they made 
the decision that killing Americans is the most important thing 
to do. They have targeted Americans.
    Now, they have spread, and they have hit Spaniards in 
Madrid, they have gone beyond that, but the thing that made bin 
Laden unique was his decision to say, we're not going to try to 
destabilize Pakistan or Saudi Arabia or other Muslim nations, 
we're going to try to destabilize the United States of America 
by taking this tactic right to the head of the snake.
    Mr. Carter. So then would you say their purpose is to kill 
Americans, which they have declared; and by killing Americans, 
make us reach a point where they control policy in this country 
by threats or taking actions of terrorism?
    Mr. Kerrey. Yes. I think there is a combination of things. 
First of all, they say, well, you're all going to go to heaven 
and hang out with virgins for eternity. If bin Laden believed 
that, he'd be sending his kids, and he's not. So, apparently, 
it's a device that works from time to time.
    But understand, if you examine terrorism, especially in the 
1990's, it's been developed in very sophisticated ways. How do 
you disguise explosives on your body, etc? But I believe you 
have to go to the ideological argument that underlies it. 
That's why I said earlier, to look at the Ramzi Yousef 
statement and compare it to--confront it by Judge Duffy's 
statement, I think you get the battle right there.
    And we can't be unafraid to argue that point, that central 
argument that you hear Yousef using in trial. It is wrong, it 
is deadly, it's cowardly, put whatever you want on there, but 
you've got to get to the argument itself.
    In my view, the only way to confront it successfully is to 
understand that you may never get to a perfect world where 
we're never vulnerable to terrorists. That is not likely to 
happen, in my opinion. Second, I think you've got to understand 
that vigorous military and law enforcement effort have to be 
used.
    I had an interesting exchange earlier with Congressman 
Kucinich over this thing. Bin Laden doesn't, these guys don't 
sit around and say, geez, what about civil liberties and what 
about the Geneva Convention and so forth. They've got to be 
vigorously pursued and relentlessly pursued, because if they 
feel like we're going to apply moral relativism to what they 
do, then I think the game is over.
    Third, I think we do have to have--whether you call it 
diplomacy or debate over the ideas or whatever, we can't just 
paper over these arguments. And the last thing, I think the 
United States of America has to continue to say that democracy, 
that free markets can provide you with an opportunity agenda. 
And we have to show it can. Whether that's trade policies or 
advocating good safety nets or whatever it is, if democracy 
doesn't make life a little bit better for the individuals who 
are inside of that democracy, we have a heck of a problem.
    And we can't ask our law enforcement and our soldiers, 
sailors, airmen, and marines to fight this battle if, for 
example in 2006, the farm bill comes up and we say we want 
business as usual, just to put it right like I think it is. 
Now, that may not sell back down in your congressional district 
in Texas, I don't know, but we can't, I think, win this unless 
we can honestly say to the world that democracy and free 
markets can be a vehicle to make your life a little bit better 
regardless of where you live on this planet.
    Mr. Carter. Mr. Chairman, may I have just a little bit 
extra time?
    Mr. Shays. The gentleman's time has run out. Is that OK?
    Mr. Carter. All right, Mr. Chairman.
    Mr. Shays. Thank you.
    At this time we would recognize Chris Van Hollen from 
Maryland.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    I thank both of you gentlemen for your incredible service 
to our country, and I, too, want to thank the families of the 
September 11 victims for everything you've done for our country 
and making the Commission possible.
    Secretary Lehman, I was encouraged by your comment that 
your recommendations are not a Chinese menu, and that the devil 
is in the details, and I ask that you continue to evaluate 
proposals, whether they come out of the White House or the 
Congress, in the days ahead to see if they meet that test, 
because I don't think it's partisan in any way to ask you to 
evaluate those proposals, whether they be out of the White 
House or out of the Congress, and I thank you for that.
    There's a line in your report on page 406 that says, ``The 
most serious disadvantage of the NCTC is the reverse of its 
greatest virtue,'' and you go on to say that ``in fighting this 
war against Islamic terrorism, we may have to concentrate more 
power in a certain entity, but we may concentrate too much 
power in one place,'' and, therefore, you call for checks and 
balances.
    I want to ask both of you gentlemen with respect to your 
recommendations and observations for the Congress, because, in 
my observation, Congress is very good about telling other 
people how to change themselves and reform themselves, but it 
does not have as good a track record when it comes to making 
reforms of itself.
    And, Senator Kerrey, you mentioned the challenges you had 
with the Armed Services Committee and others during your 
service in the Senate. I'm interested in your advice as to how 
you create pressure within this institution to create some of 
those changes, No. 1.
    No. 2, in addition to the changes you recommended, it 
requires the political will of the Congress to exercise that 
accountability. And you mentioned the subpoena power you had. 
The fact of the matter is, in the last couple of years, the 
Congress has not issued any subpoenas with respect to Federal 
Government agencies. And it gets to the question--and I don't 
mean for this to be partisan because it could happen whether 
you had Democrats in control of the White House and the 
Congress or Republicans in control of the White House and the 
Congress--but the fact of the matter is we need as an 
institution, the Congress, to strengthen and see our role as a 
coequal branch of government and not necessarily endorse--see 
ourselves as someone who is an endorser or cheerleader of all 
the policies that come out of the executive branch.
    I only mention the subpoena issue because I think it's a 
reflection of the fact that Congress has maybe not exercised 
its full powers, and I ask for your observations on that.
    And the final question I have relates to the other part of 
what I see as intelligence failures. You examined intelligence 
failures dealing with September 11. We, of course, have a 
number of groups that are looking at the issue of weapons of 
mass destruction and failures in intelligence, or oversight of 
intelligence, or interpretation of intelligence in that regard. 
My one concern with some of your recommendations is the very 
thing that may have lent yourself to supporting a good response 
to the intelligence failures with regard to September 11, I 
would ask you gentlemen whether they could exacerbate the 
intelligence failures with respect to weapons of mass 
destruction in that you would have more homogeneity, more 
cookie-cutter approaches if you have one Director; and whether 
that would create additional pressures for everyone to salute 
and say, yes, sir, we agree with your analysis, instead of 
having different centers of analysis.
    Admiral Lehman. Well, I'll take the last part of that and 
let Bob deal with the first part.
    I think that homogeneity is something we absolutely must 
get away from. Time and again through our investigation, we 
found that group think in the community prevented imaginative 
perception of what the real threat was. We think that the 
recommendations we are making here, the system that we are 
recommending ensures competitive analysis, not homogeneity, not 
agreement.
    When there are going to be national intelligence estimates, 
there need to be dissenting views in those intelligence 
estimates when there are, and there usually are. DIA is very 
likely to have a differing perspective on some aspects of the 
same facts than CIA. And we want to make sure that many senior 
leaders, where there is honest differences of perception and 
analysis, they get to see them, that it is not an enforced 
consensus.
    One of the tremendous things about our report is, I am sure 
as you read it, this is not a ground-down homogeneity of views. 
It is a sharp-edged report with a lot of bold statements and 
facts in it, yet we reach unanimity on it. That is what we have 
to get, and to do that you have to have someone who ensures 
that the environment is such that people aren't afraid to speak 
out, that there is entrepreneurial spirit by analysts, and that 
there is a willingness to take risks.
    Mr. Kerrey. Well, honestly, I forgot what the first part 
was.
    Mr. Van Hollen. Well, just based on your experience, how 
you would propose the Congress go about enforcing your 
recommendations? What would you do as a Member of Congress? And 
is there an institutional problem when--do you sense that 
Congress has in any way lost its ability, its more traditional 
role acting as a separate branch of government with respect to 
national security oversight?
    Mr. Shays. This is a repeat of the same question.
    Mr. Kerrey. Yes, based upon my own experience, I think 
there is a tendency to yield ground on national security when 
ground shouldn't be yielded by Congress. I think, though, 
again, to hit the one issue I have talked about several times 
in this area, it's even more typical because it's all 
classified. I mean, you'll see ferocious debates going on in 
the open press about whether or not our military is at the 
readiness levels they need to be at. There is no such debate 
going on in intel. None.
    Earlier, one of the members of this committee made a 
reference to the failure to detect the Indian nuclear 
detonation. We detected it the year before. We missed it by a 
hair the second time. And then you say, wait a minute, Vajpayee 
campaigned on a promise to detonate a nuclear weapon. We 
shouldn't need the CIA to tell us he's going to do it. He'd 
promised to do it, unless we expect in India they don't keep 
their promises, or something. I don't know.
    Third, find those areas where you're doing good work and do 
more of it. As you know, oftentimes it's someone in a position 
of power that wants to make the government work better that 
you're not going to see them out in the press. Right now in 
intel, I think Senator Inouye and Senator Stevens are doing 
exceptional oversight on the Defense Appropriations Committee. 
They care about the subject matter. You never see it out in the 
press. And as a consequence, in this case, I believe that 
unless Congress changes the law in intel to create a much, much 
stronger committee than you currently have, I think you're 
always going to be frustrated.
    And the last thing I'd say is that I don't really think 
that we should be extended for 18 months. I don't think it 
works for us to be extended for 18 months, even if I had 18 
months to give to the task, because in many ways we were doing 
what now Chairman Shays, who is about ready to gavel me down, 
was trying to do with this committee. This committee can do 
oversight of the intelligence agencies where you see failure 
happening, and I think can be a very substantial force to make 
sure that these changes occur.
    Mr. Shays. Thank you, Senator.
    At this time the Chair would recognize Marsha Blackburn 
from Tennessee.
    Mrs. Blackburn. Thank you, Mr. Chairman, and thank you for 
your time and patience in being with us today to talk to us. We 
appreciate the report and appreciate your working with us 
through this.
    It is interesting listening to you talk about the need to 
fix the committee structure, to fix the vulnerabilities with 
immigration, and the importance of not just moving around the 
organizational chart, Mr. Lehman, as you had said, the need for 
our Intelligence Director or Czar, whatever the name may be, to 
have control of the budget, appropriations, of the technology 
protocol. And in listening to all of this, I feel that what I'm 
hearing you say is that through the decades government has 
grown far too bureaucratic, far too unable to respond quickly 
or in an effective and efficient manner; that the process is 
far too bureaucratic, and that instead of just shifting the 
power around and reorganizing, that you feel we need to go 
about recreating a different way for government to work. And I 
guess in all of this, we are paying a price for underfunding 
intelligence through the years.
    One of my questions is very similar to some you have had; 
how you would envision this agency working without the 
traditional constraints of government that we address each day? 
I know some of the questions I am going to get from my 
district, where much of Fort Campbell is located, is if some of 
our military intelligence units would be answering to the 
Secretary of Defense or to the intelligence czar. I'm 
interested to hear your take on how this would operate without 
those traditional constraints of bureaucracy.
    Also, Mr. Kerrey, in responding to that, I noticed on page 
25 of the executive summary, you talk about the proposed need 
for reforms and to speed up the nomination process. And you 
have served in the Senate, you have served as vice chairman of 
Senate intelligence, and I know that you brought your 
background of some of the successes and failures in that 
committee to your view on the Commission and used that kind of 
as background. And I would like to know how you think that we 
could speed up that nomination process, with the rules of the 
Senate allowing a single Member to stop the process from moving 
forward, and if you had any thoughts on that?
    And, Mr. Lehman, if you would first address how you would 
approach the structure, and then, Mr. Kerrey, how you think we 
can speed the nomination process.
    Admiral Lehman. Thank you.
    Yes, we are not recommending a structure that would not 
have the traditional Constitutional restraints and 
congressional oversight, and the committee reorganization is a 
major part of that. But it will also be subject to each of the 
agencies that make up the intelligence community, their own 
inspectors general, their own internal controls, and their own 
oversight within the executive branch.
    But all good corporations have to regenerate themselves, 
have to go through reengineering. What has transformed the 
productivity of American industry is constant improvement, 
total quality, lean manufacturing, which is a cultural change 
that you never leave the organization alone. It is constantly 
changing and improving. The government tends not to go through 
those kinds of renewings and reengineerings, but when they do, 
they have shown--the government has shown that they can create 
the same kind of innovation and new energy and new ability to 
deal with the modern world, just as corporations can.
    That is what we are recommending, a reengineering of the 
government process to break up the concrete layers of 
bureaucracy that have ossified over the last 60 years, to take 
apart the vertical stovepipes that have built up between the 
agencies to prevent the sharing. So we are not--we don't see 
this either a funding issue. You will look in vain for large 
declarations that we have underfunded intelligence over the 
years. Certainly there have been periods in the last 10 years 
when parts of intelligence, for instance HUMINT, have been very 
underfunded, because I'm sure very few of you have been 
collared by lobbyists for HUMINT, yet I would be willing to bet 
you've all had lobbyists from satellite manufacturers and other 
intelligence collection technologies. So there have been gross 
imbalances.
    As to the service, what we are recommending here--first of 
all, the naval intelligence and the service intelligence corps 
are among the best in the intelligence community. They have 
their own esprit de corps, their own training program, and 
their own professionalism. They report to Defense Intelligence 
Agency as well as the Chief of Naval Operations, and they, in 
turn, report to the--in theory, but not in practice--to the 
Director of CIA. Now they will be part of an integrated yet 
decentralized intelligence community, each with its pockets of 
excellence under a National Intelligence Director.
    Mr. Kerrey. Well, I mean, changing the rules in the Senate 
having to do with one person being able to put a hold on a 
nomination is exceptionally difficult to do. And I think, as 
well as almost all the recommendations that we have made in our 
report, they are all difficult to do. They all have real 
problems and barriers in front of them.
    There are areas, for example, in funding, where funding is 
the answer. I have dealt with deficits the whole time I was in 
the Congress practically, so I understand how difficult it is. 
But to look at our border security recommendations, the U.S.-
Visit program, to have it fully implemented by 2010 is just too 
darned slow. There are some management weaknesses that have to 
be addressed.
    There are still some oversight lapses where secrecy is a 
barrier. Additional investigation has to occur. We just ran out 
of time. We couldn't get to it. And there are some changes in 
the law, all of which have problems attached with it. I would 
just urge you, again, to get into this narrative.
    Nineteen guys hijacked four commercial aircrafts on 
September 11 using box cutters and legal knives, and it wasn't 
even a close call. All the defenses that were put up against 
them, all the security measures that we have in place failed to 
prevent them from attacking the United States of America. It 
wasn't even close. If you look at the images at Dulles Airport 
that were released by, I guess, the lawyer who is bringing a 
case against somebody, if you look at those images, we saw 
those images and didn't want to put them out there because we 
were concerned that it would give away some security issues. 
But if you look at those images, you say, my God, it looked 
like they could have walked on to practically anything that 
morning.
    All of us--anybody that was here in the 1990's, we all need 
to sort of join hands and walk to the podium and say, we 
screwed up, and in that attitude understand we might be doing 
it again right now. We presumed we had time, and we were wrong. 
Every step of the way we'd say, well, I think I have a little 
more time; certainly this can wait until some other time. Maybe 
we can get another study or something.
    If you find somebody saying, I don't want to yield 
privilege, which is what you're talking about with the Senate 
rule; I don't want to yield power; this is going to be too 
uncomfortable for me; I may no longer be chairman, or whatever, 
then you've got an argument where you just have to turn to us, 
I think, probably, and say, you guys have to stoke the fire a 
little of the public so we can do what we have to do.
    Chairman Tom Davis [presiding]. Thank you very much.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Yes. First, I thank you for your 
service, and I want to thank the families also for all that 
you've done. I think the country is really learning a lot about 
what we need to do, and I want to thank the chairman and the 
ranking member for having this hearing right now so we can get 
started.
    I think when you look at what we need and your 
recommendations, both very important, to have a National 
Intelligence Director, you have to start at the top. You have 
to have one boss. You have to have that boss who will hold 
other agencies accountable for their performance. But in order 
to do that, you also need budget authority, and I would hope 
that the President would listen to these hearings and 
understand that this is very important. Just like he is the 
boss of the United States of America, we need to have that 
focus here.
    Now, I would like to talk to you about another phase, and 
let me ask you this, too. There was a group of members on the 
Intelligence Committee that introduced H.R. 4104, that is the 
Intelligence Transformation Act, and that was in March. Did you 
have a chance to review that?
    Admiral Lehman. Yes, we did, and we've had quite a bit of 
dialog with the sponsors and the staff, and continue to have. 
There were some good ideas, by the way, that have been 
incorporated in our recommendations.
    Mr. Ruppersberger. And the reason I point that out, that is 
an existing bill where I hope, in a nonpartisan way, we can 
review the elements in that bill so that we can buildupon that 
as you all have in your report.
    Now, one of the major issues is the Deputy Director of 
National Intelligence. If you look at the way intelligence is 
made up, and I think Senator Kerrey referred to this, the 
Department of Defense, the majority of the resources go to the 
Department of Defense in the intelligence community. Now, if, 
in fact, you're going to have the teamwork integration, which 
is so necessary to be effective in intelligence, you're going 
to have to have the Department of Defense at the table.
    And I think this bill, H.R. 4104, created what they call a 
dual hat. Let me read to you and see if you agree with this 
provision in H.R. 4104. Deputy Director of National 
Intelligence. There is a Deputy Director of National 
Intelligence who should be appointed by the President, by and 
with the advice and consent of the Senate. The Deputy Director 
of National Intelligence shall also serve as Under Secretary of 
Defense for Intelligence.
    Now, in order for us to pull together, we know the power of 
the Secretary of Defense, one of the most powerful positions in 
the world. When you have that person at the table, and then you 
have a Director of National Intelligence without budget 
authority, and you have those two together, who is going to 
win? Well, I don't know, but I tell you, I'd say the advantage 
going in would be with the Secretary of Defense. We need to 
pull those groups in together.
    Would you be in favor of having a Deputy Director, a dual-
hatted individual as is stated in H.R. 4101, to pull all of the 
agencies together so that we have one unit dealing with the 
issue of intelligence?
    Admiral Lehman. Yes, we support that, but we also support 
two other deputies as well. We believe that your proposal for a 
deputy that is dual-hatted to the Secretary of Defense and to 
the National Intelligence Director is an excellent idea and can 
pull together all of the agencies in defense. There also has to 
be hiring and firing shared between the National Intelligence 
Director and the Secretary of Defense, but that deputy should 
not have authority over domestic intelligence. There should be 
another equal deputy for domestic intelligence, and that should 
be the Deputy Director of FBI, who also should be dual-hatted; 
that is, the Deputy Director for Intelligence National Security 
should be dual-hatted to both the FBI Director and the National 
Intelligence. And the third should be a Deputy for Foreign 
Intelligence, and that should be the CIA Director.
    So we have taken your idea and added to it the domestic 
deputy and the foreign deputy as well, but we think that is 
essential.
    Mr. Ruppersberger. OK. Getting back to my question, though, 
do you think that by having that Deputy Director dual-hatted 
with the Department of Defense will deal with the issue when 
there could be a conflict or a power grab, so to speak, between 
the Secretary of Defense versus intelligence? Do you think that 
would be enough to rectify that issue?
    Admiral Lehman. It will be enough to ensure that this 
dispute gets in front of the President to decide.
    Mr. Ruppersberger. OK, and that's what's important.
    How about you, Senator Kerrey.
    Mr. Kerrey. Well, I agree, so long as the National 
Intelligence Director has statutory authority over the 
appropriated moneys and has statutory authority over hiring and 
firing. Absent that, they simply are going to be too weak, and 
we'll be right back where we are today. I mean, you're better 
off, in my view, with nothing than creating something that just 
adds one more impression that this person has power that they 
do not have; one more moment for them to come up and answer 
questions from Congress about things over which they have no 
responsibility.
    Mr. Ruppersberger. OK. I see my red light is on. Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Kerrey. If I could, Mr. Chairman, can I----
    Chairman Tom Davis. Sure.
    Mr. Kerrey. I'm going to volunteer either in writing or the 
next time I'm persuaded to leave vacation to come down and 
testify before the committee, there is one area in this report 
that I care deeply about that is not mentioned, and it does 
have to do with DOD and CIA, and that is we're recommending 
that the authority for covert operations be transferred to DOD. 
And if at some point you have questions about that, I think it 
is sort of the last step on jointness, and I think the 
exercises in Afghanistan and the exercises in Iraq demonstrate 
that this is a good move to make. It still gives CIA authority, 
but, in my view, it will dramatically improve the quality of 
those covert operations.
    Chairman Tom Davis. Thank you.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    Senator Kerrey and Secretary Lehman, appreciate your work 
and all your fellow Commissioners and your staff, a daunting 
task, and you've done it in remarkable fashion, both in the 
broad global strategy you've put forward as well as specific 
recommendations.
    My colleague talked to you about the standards for a 
driver's license. I appreciate that type of detail because it 
is something that amazed me when I came to learn that the 
majority, I believe, of our States do not require proof of 
legal presence in the United States to get a driver's license, 
yet it's one of the accepted forms of government ID deeming 
you're supposed to be here or allowed to be here. So that type 
of specific recommendation, hopefully, will help us move some 
legislation that's out there and get some of these standards in 
place.
    To followup the discussion with the previous Member on the 
NID and the personnel authority, in your statements you talk 
about NID having personnel and appropriation authority, but 
also the Chief of the National Counterterrorism Center. Can you 
elaborate how that's going to interact, since the Chief's going 
to answer to the NID; how their shared authority over personnel 
at these various agencies, how you envision that working?
    Admiral Lehman. Well, I think the Pentagon provides a good 
example. Standards for promotion and rank in each of the 
military services are different. You don't have to fly 
airplanes to get promoted in the Army. Each Secretary of the 
Department governs the personnel policies, but they have to 
conform to Defense Department standards. So you can easily take 
an 06 naval captain and assign him to a joint command in an 
Army-commanded unit, because there are common personnel 
standards to be met that allow that kind of joint assignment.
    Now, this is different than detailing, and it's an 
important point. Today, for instance, at the TTIC, the 
Terrorist Threat Intelligence Center, people are detailed from 
all the agencies, but their fitness reports are still being 
written by the people back at their home agencies. That is a 
huge difference.
    When a person is jointly assigned, it's the person who, for 
instance, will be running the National Counterterrorism Center 
that will write the fitness report and really have a huge 
influence on whether that person, from whatever agency they 
came from, gets promoted or doesn't get promoted or gets 
assigned to a choice billet or doesn't get assigned to it.
    Mr. Platts. So more accountability from the staff to the 
NID?
    Admiral Lehman. But more real clout by the National 
Intelligence Director. The key is, currently the CIA Director 
has exhortation capability, and people sort of think he has 
authority, but he doesn't have authority. So he can say, oh, 
let's cross-assign people. But if you don't have the authority 
to direct, and if the person being directed doesn't do it, they 
get fired and replaced by that NID Directorate. That's what 
we're talking about. Big, big difference.
    Mr. Platts. One of the other areas you touch on in a broad 
sense is more public diplomacy; us doing a better job of kind 
of winning the battle on the front with the younger citizens, I 
guess, of the Muslim nations.
    Is there a specific recommendation? One of your 
recommendations says, ``In a broad sense, where Muslim 
governments, even those who are friends, do not respect these 
principles, the United States must stand for a better future.''
    Is there something specific; Saudi Arabia, Egypt, any that 
are allies that we should be looking into?
    Admiral Lehman. There are two that I want to draw attention 
to that I think would have enormous leverage. One is putting 
some money into schools in these areas. There is no alternative 
for parents in much of Pakistan and the rest of Indonesia, for 
instance, the rest of the Muslim world. If they want their 
children to have a better future, i.e., to learn to read and 
write, they have no alternative but to one of these jihadist 
madrassas. We should take the initiative, working with those 
governments, and put some money behind it to create schools 
that can teach usable skills, and it can be done at a very 
relatively low cost.
    Another is international broadcasting. It's pathetic the 
number of hours that we're on the air to just tell the truth, 
in Farsi, in Urdu, and the various dialects of Arabic.
    Mr. Platts. On the schools, is one of the challenges we 
have that we give a lot of money to the United Nations, but 
then that doesn't come back to us as credit to those parents 
that the United States is helping their children? Do we need to 
do more unilateral partnerships with these nations?
    Mr. Kerrey. Well, the context here, and this is how great a 
job we've done, we saved a Muslim nation, Kuwait, in 1991. We 
saved Muslims in Mogadishu in 1993 from Pakistan, part of a 
U.N. peacekeeping force. We saved a Muslim nation, Bosnia, in 
1995. We save a Muslim nation, Kosovo, in 1999, and yet you go 
do public opinion polling in Muslim nations, and they don't 
like us. I mean, that's how lousy a job we've done of 
communicating to the Muslim world----
    Mr. Platts. And we've just liberated 50 million Muslims in 
two nations.
    Mr. Kerrey. Exactly.
    But there's another issue that I think is important. Look, 
when I graduated from high school, back when dinosaurs roamed 
the Earth, 75 percent of the people on this planet were living 
in nations where democracy wasn't the rule. Now it's just the 
opposite. Even in China they're beginning to see democracy at 
local levels; not as much as I think they're going to need in 
order to deal with their economic challenges, but that's a 
separate issue.
    We've got to stop, and I hear it sort of creeping back as a 
consequence of the problems in Iraq, saying that democracy is 
not suited for you, it's a Western idea. You know, Greece is 
not in the West, as much as we like to think. It's much closer 
to Afghanistan than we are. So we have to stop saying that 
democracy only works here.
    And we all know, all of us, and those of you who are still 
in politics, when I was in politics, the most important thing 
is people need to know that democracy is making their lives 
just a little bit better and their kids' lives a little better 
and their communities a little bit better. It's not very 
complicated. And if it isn't, they get really mad, and they 
throw you all out of office.
    Well, we've got to stop saying, well, I know the Saudis, 
every other word from the Saudis is reform these days, and 
we've got to stop putting our arm around them and saying, well, 
we understand you can't really be democratic because you've got 
difficulties here and there and everywhere. We have to stop 
doing that, because the people living in Saudi Arabia are mad 
because they don't have what we've got, which is the freedom to 
be able to throw people out of office when we don't like them.
    I'm not suggesting that we have sort of a naive, pie-in-
the-sky attitude that doesn't recognize that for many people 
democracy is one vote one time, but I believe that the most 
important thing for us in this battle of ideas is to say that 
democracy and free markets, as flawed as it is, as difficult as 
it is to make it work, is the best way to make your life a 
little better, and the life of your kids a little bit better, 
and the life of your community a little bit better.
    Mr. Platts. I agree 100 percent.
    Chairman Tom Davis. Thank you very much.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. I would like to 
thank the Commission for the work that they have done. I 
learned a lot, either being in my kitchen in the morning 
listening to your staff reports and opportunities when I had to 
watch the hearings on television. But most importantly, I want 
to thank the families. I think because of the families and the 
work that you have done, the report that the Commission 
generated, that I have been reading again, and that a woman 
next to me on an airplane looked at, and I said, you should 
read this. She said, oh, I don't know if I'd understand. I said 
you should read this, because you will understand it. It is 
written in a way that provides a wealth of information, in a 
way that every American citizen, every family can benefit from. 
So I thank you both for the work product that you have 
produced. And she agreed with me. She could read it, she did 
understand it, and she is going to buy a copy.
    In chapter 12 of the report, you say counterterrorism has 
become beyond any doubt the top national security priority for 
the United States. The report goes on to say, ``The catastrophe 
threat at this moment in history is more specific than just 
terrorism. It is a threat posed by Islamic terrorism, 
especially the al Qaeda network, its affiliates, and its 
ideology.''
    The other day, the President was asked the question, in 
what way would his new structure, or looking at any new 
structure, prevent the kind of intelligence failings that 
preceded the war in Iraq? I'm very, very troubled by not having 
the type of intelligence failings in Iraq addressed clearly. We 
had the intelligence failings in September 11, in Iraq.
    The President's answer to me, when asked that question, was 
equally troubling, ``And let me just say to you, knowing what I 
know today, we still would have gone to Iraq.'' And that is the 
end of the President's quote.
    Prior to March 2003, would Iraq have been defined a top 
national security priority for the United States based on this 
report's threat definition? Has the war in Iraq helped protect 
American citizens from the threat of Islamic terrorism when 
Osama bin Laden, Mr. Omar, and thousands of al Qaeda operatives 
remain at large?
    How can the Congress and the President use what you have in 
place to prevent the intelligence failure of Iraq, because it 
was a failure in intelligence for the reasons we did vote, for 
some who voted to go to war?
    Admiral Lehman. Well, I think that it was a blessing that 
the intelligence failures in Iraq were not part of our mandate 
and we did not spend a great deal of time on those intelligence 
failures, and there is now a Commission studying those. So I 
don't feel comfortable testifying as a Commission member on the 
first part of your question.
    But the second part of the question I feel very comfortable 
with, because what I've read in the newspapers and what those 
parts of the Iraq issue that have come before our Commission's 
investigation, and there are a bit of that, make it very clear 
that this is of a piece with the failings we found led up to 
September 11; that this is a Balkanized intelligence community 
that does not share, that does not have the ability within 
itself to prioritize what is important; as one Commissioner 
said, unable to distinguish between a bicycle accident and a 
train wreck in terms of raw intelligence.
    It's remarkably shocking that the senior Members of this 
Congress and of this administration first learned of the 
Iranian connections from us, not from the intelligence 
community. It was we, the 9/11 Commission, that dug this 
intelligence out that existed in the intelligence community, 
that had been gathered, was sitting there scattered around the 
intelligence community. We had to put it together; we, the 
Commission. So that is a remarkable fact that just illustrates 
that we have a dysfunctional, Balkanized intelligence 
establishment today.
    And the failures of the intelligence system in Iraq, in 
WMD, are entirely of a piece of everything else we have learned 
about the dysfunctions of this system.
    Mr. Kerrey. Yes, I'll stick with John's answers as well. It 
was outside of our envelope, but it does get connected in one 
way for me, and that is that among the insights I've taken away 
from the experience of being on this Commission is that--and it 
is hard to deal with it, but it's true--and that is that for 
the United States, the homeland is the planet. And try as you 
might to say, no, it's just the continental United States, 
Alaska and Hawaii, you're not going to get it done. If you're 
trying to deal with border security, or immigration issues, or 
whatever you're dealing with, you need the rest of the world to 
participate.
    When schoolchildren died in a fire in Bombay here a couple 
of weeks ago, it felt like it was in my neighborhood. When 
Spaniards were killed on March 15th, it felt like it happened 
to us. One of the mistakes that we made, in my view, with bin 
Laden is as long as he was killing people over there, it wasn't 
as big an issue for us as it was when he killed people here.
    In January and February 1993, we had the World Trade Center 
attack where six Americans were killed, and we had two 
Americans killed at CIA headquarters by a guy by the name of 
Kasi. We tracked both of those guys down, brought them back to 
the United States. They stood trial, and they got justice. But 
when it was killing Americans in Somalia, when it was killing 
Americans in East Africa, when it was killing Americans at OPM-
SANG in Saudi Arabia, when it was over there, it didn't affect 
us as much. We didn't respond like we did when it was here.
    And among the things I think Americans are going to have to 
get their head into, and it has lots of moving parts, is that 
the homeland is the planet. And I understand that imposes upon 
us a lot of responsibility, a burden that we perhaps prefer not 
to have, but it's our burden, and it comes as a consequence of 
our wealth, of our power, and our capability.
    Chairman Tom Davis. Thank you very much.
    Ms. Harris.
    Ms. Harris. Thank you, Mr. Chairman.
    Once again, I want to echo what all my colleagues have 
said. I want to thank you for your expeditious and timely 
handling of such an important issue for the Commission. Thank 
you for your service. Thank you for creating a report that may 
be one of the most important publications of our age, and 
certainly for the relatives of those who were murdered on 
September 11. We can't imagine the depth of your sorrow or 
pain, but thank you for channeling that loss into something 
very positive for a policy for the future and protection of our 
country.
    I want to revisit the last question just real quickly. I 
wanted to clarify something. In all of the reports, sometimes 
it's been alleged there was a politicization of some of the 
intelligence activities. And I just wanted to make certain that 
you did not find that and the report did not reflect that you 
found that in your findings?
    Admiral Lehman. That is not something that particularly 
emerged as a finding of our investigation.
    Mr. Kerrey. It is not a finding of the investigation, but 
if you ask my personal opinion, I think the idea that somehow 
we're going to take politics out of intelligence, you'll fail 
to get it done. If I'm afraid of the dark, and you elect me 
President, I'm going to bring that fear of the dark into my 
policies, and know that I'm going to. I'm just going to. 
Whether it's Bill Clinton or George Bush or Ronald Reagan, or 
whoever it is, when they come in to be President, the people in 
intelligence know what they care about, know what they're 
concerned about, and it's going to affect their attitude.
    What's necessary is to surround yourself with people who 
are really prepared to argue with you vigorously when they 
think that you shouldn't be afraid of the dark. That's what you 
need; not that you can somehow cause human beings to behave 
differently than what human beings are going to behave, which 
is they want to make the boss happy.
    Ms. Harris. I just wanted to clarify I had not found that 
in the report.
    The point of my question--and, actually, I have two 
questions. One, particularly when you look back at the report 
and see your findings that say really basically from the 1980's 
the United States--that terrorism had evolved, and it presented 
a threat to our government that we weren't really ready to 
counter, and yet we've seen one of the largest restructurings 
of the Federal Government since the last half century.
    The report gives us a broad array of suggestions to 
reorganize the government across agencies, cooperation, and 
other issues, and the President signaled yesterday that he 
wanted to implement some of those through his administrative 
Executive orders.
    When you look back and understand the urgency of 
implementing some of these issues and suggestions, but 
understanding the deliberations that are necessary if we're 
going to move swiftly, first could you tell us what your three 
top recommendations are? What should we do immediately?
    And then my second question is more specific. On the CAPS 
issue, Senator Kerrey, you have commented in some recent 
questions--in the 9/11 report it cited that Mohammad Atta and 
several others of the September 11 hijackers had actually been 
picked up by CAPS, so that, I guess, technology evidently was 
at least partially effective, but we didn't have procedures in 
place prior to September 11 for followup.
    Now that the Department of Homeland Security has been 
working on CAPPS II, which is a much more sophisticated 
screening program, but recently they decided to halt that work 
because of privacy concerns. And while I'm very concerned about 
our privacy, I mean, I am even more concerned about being 
attacked by terrorists again.
    Do you think that the CAPPS II was overly intrusive of our 
privacy, although it was really focused not at all on--it did 
not cite race; it really cited travel procedures and 
preferences. Do you think that we should continue on with CAPPS 
II, and do you think--I mean, just in view of protecting our 
homeland security, it seems like it shouldn't be too much to 
ask that we could track those. If Amazon.com is allowed to 
track buying patterns for consumers, then it seems at the very 
least we could track travel preferences and behaviors of those 
who might be suspicious.
    [The prepared statement of Hon. Katherine Harris follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.041
    
    [GRAPHIC] [TIFF OMITTED] T6537.042
    
    [GRAPHIC] [TIFF OMITTED] T6537.043
    
    [GRAPHIC] [TIFF OMITTED] T6537.044
    
    [GRAPHIC] [TIFF OMITTED] T6537.045
    
    [GRAPHIC] [TIFF OMITTED] T6537.046
    
    Mr. Lehman. I will answer the top three briefly, the easy 
ones, and Bob can answer the tough ones.
    First, Congress has to reorganize. The reason the massive 
changes that Homeland Security were to have brought about have 
not been fully realized is that the Secretary of Homeland 
Security reports to 88 committees. He spends more than half his 
time up here on the Hill, which in itself is not a bad thing, 
but it is totally fragmented, and no coherence in the process. 
It needs to be fixed. We have already talked at length about 
the need for the intelligence oversight to be fixed. So that's 
the No. 1.
    Second is to recognize the nature of this problem and the 
policy recommendations that we are making here on what to do.
    Third is to carry out the organizational changes, which 
start with the National Counterterrorism Center and the 
establishment of the National Intelligence Director and the 
dual-hatting of his deputies.
    So those are my top three, and I think that reflects the 
priorities of the Commission.
    Mr. Kerrey. Well, I apologize. I'm not going to be very 
helpful because I'm not that familiar with the CAPPS II 
findings, whatever it attempted to do. But I do think that it's 
worth noting that we had two tremendous successes, human 
successes, in preventing people from coming into the United 
States and doing bad things. One of them was in your State of 
Florida.
    And, John, do you remember the name of that individual----
    Admiral Lehman. Melendes, Oscar Melendes.
    Mr. Kerrey [continuing]. Who made these--and then a woman 
up in the State of Washington and the millennium plots, 
prevented Ressam from coming across the border.
    I mean, fundamentally the problem on September 11 is we 
weren't at a heightened state of alert, and we should have 
been.
    Going back further, we let a guy declare war on us in 1996 
and then basically operate with impunity for another half a 
dozen years. So--as long as he was killing people over there, 
it wasn't as big a problem for us.
    But I think, in addition to not being in a state of alert, 
the thing I think of when I think of CAPPS, Congresswoman, is 
the huge amount of time and resources and effort that it's 
going to take to train the men and women that are going to be 
necessary to do this work, because, for my money, it's the most 
important thing out there. We have 500 million visitors coming 
in and out of the United States every year. That's a big 
number. And their job is to basically find the needle in the 
haystack. And they are not going to find it if they don't 
understand what intelligence is, if they don't have access to 
that intelligence, if they aren't trained up, etc. I mean, all 
of us who have the joy of flying experience this issue every 
single time we get on an airplane of coming to the terms with 
the fact that the guy may not know exactly what it is that he 
is doing, and he is checking you all out and so forth.
    So I think you have to get the training done. And, again, I 
would urge you to look at the stuff that we had in the border 
security, that Susan Ginsburg did for us, because that team got 
access to things--my guess is--as John said, my guess is--
talking about the Iran issue, my guess is we got access to 
things that you haven't seen when it comes to border security 
and weaknesses and vulnerabilities in borders that you haven't 
seen today.
    Admiral Lehman. CAPPS I worked, as you said. It identified 
six of the terrorists that--but people were looking for 
explosives, so they were allowed through. CAPPS II is much 
better, much more sophisticated. It's not perfect. And 
certainly civil liberties have to be protected, but we ought to 
get on with it. It's not perfect, but it ought to be 
implemented, because to put it on the shelf and suspend it 
because of sensitivities seems--we think is not supportable. We 
need to get on with it.
    Chairman Tom Davis. Thank you very much.
    Our last questions, Ms. Watson.
    Ms. Watson. Thank you so much, Mr. Chairman. I, too, want 
to add my thanks with my colleagues to the Commission, the 
families and the staff. You have done a yeoman's job. You have 
added your wisdom, your experience to the volume of work that I 
think will go down in history as a major response.
    I am sitting here listening, and I have to be reminded that 
we are spending time reorganizing the deck chairs on the 
Titanic and rushing swiftly toward the iceberg. We don't even 
know what the iceberg is all about. But you reference it, and I 
think the most pertinent part of your report appears in chapter 
12: What to do in a global strategy. Who is our enemy? You 
know, your comments on terrorism, well, where is terrorism? Who 
is the enemy? Are they in what location?
    I believe they live and work among us. I believe they are 
driving those taxicabs here in the District. I believe they are 
in our institutions. And I truly believe they are smarter than 
we are.
    And so I think, because of the work that you have put into 
the Commission, that we ought to do the following: We ought to 
approve all the recommendations, and the Commission ought to 
stay in place as applicable for the rest of this decade.
    I also believe that we need to have a report on our risk 
assessment.
    I also feel very strongly that we need an independent 
citizens panel. These families that have worked with you minute 
by minute, side by side, including the media, ought to be on an 
independent basis, not attached to executive branch or the 
congressional branch, so they can act out there in the public 
and see that we do the right thing.
    We must focus on our global strategy. You said it--both of 
you did, but I happen to refer to Senator Kerrey. You know, 
terrorism is global, and we live on this globe. That's the only 
globe we live on. And unless we understand how they think, 
unless we understand the ideology that says they don't practice 
what we think, so let's just kill them, we will get nowhere. We 
can build great arms, and we can go after their arms. That's 
not going to get it.
    So, what we have to keep in mind is that we need to 
identify the mystic terrorist. We need to have people who look 
like them. And that's another thing, we need diversity in the 
State Department. We need diversity, people who share some of 
the same maybe ethnic background. And we need to get into their 
minds. And we need to show that we are a Nation of laws and 
that we indeed can share. And that's what you have come up 
with. We must share. We must share in this intuition that we 
are in. We don't do that. What do you call it, stovepiping? We 
are in two little stovepipes, Republicans and Democrats. We are 
afraid to offer and share.
    So you said we have a tremendous opportunity. And I think 
of yin and yang. We have a tremendous opportunity to take this 
great tragedy that not only we face, but the world faces and 
turn it around. It is going to take a decade or more to do. I 
think you ought to be paid because you are not going to be able 
to pursue your other careers. You are two fine gentlemen. It is 
going to take time, but I don't think you ought to meet daily. 
And I think you ought to be seen as the advocates for this plan 
that's going to help us survive on this globe.
    Thank you very much, Mr. Chairman. I will take the comment 
if there is time. And may I have permission to submit my 
remarks?
    Chairman Tom Davis. Without objection, all Members can 
submit statements for the record.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.047
    
    [GRAPHIC] [TIFF OMITTED] T6537.048
    
    [GRAPHIC] [TIFF OMITTED] T6537.049
    
    [GRAPHIC] [TIFF OMITTED] T6537.050
    
    [GRAPHIC] [TIFF OMITTED] T6537.051
    
    Ms. Watson. Thank you.
    Do you want to stay on forever, Bob? I said at the end of 
the decade. I gave them time.
    Chairman Tom Davis. I didn't see them jump out of their 
seats. But thank you, Ms. Watson, for your comments. Thank you.
    And let me just say, I think it has been incredibly 
informative. It was a needed dose of reality for Congress. We 
get so partisanized and political up here, sometimes we can't 
reach a consensus. You did a great job.
    Mr. Kerrey. Go on vacation now.
    Chairman Tom Davis. You are my cover if anybody says 
anything.
    Finally, let me just say, you know, five Democrats, five 
Republicans from fairly partisan backgrounds coming together in 
a nonpolitical atmosphere to reach a consensus on these issues. 
I feel confident that we will meet again as expeditiously as 
possible, but you both, for yourselves and the Nation as well, 
thank you. We thank you for your testimony as well.
    Admiral Lehman. Thank you very much.
    Mr. Waxman. I also want to extend my gratitude. You have 
given us excellent testimony and set good benchmarks for 
successful legislation. We are going to do all we can. I think 
you have given us the thoughtfulness and the concrete platform 
that I think we need. Thank you.
    Admiral Lehman. Thank you very much.
    Mr. Kerrey. Thank you.
    Chairman Tom Davis. We will take a minute recess as we move 
to our next panel. We have Beverly Eckert, Sally Regenhard, and 
Robin Wiener, who are all family members of September 11. We 
appreciate your patience and indeed the leadership you have 
shown. Thank you all for being here, and thank you for your 
patience. Let's see. We are very excited about having you here 
today and your willingness to come forward and testify before 
this committee.
    It is our policy to swear all witnesses before they 
testify. If you will rise with me and raise your right hands 
and be sworn.
    [Witnesses sworn.]
    Chairman Tom Davis. Why don't we start with you, and we'll 
move straight on down. Your testimony was submitted. Since your 
entire testimony is in here, we can take up to 5 minutes to 
read it, and then we'll have some questions.
    Let's see. Your entire testimony is in here; you can take 
up to 5 minutes to read it, and then we will have some 
questions. But, again, I think all of the committee is grateful 
for what you have done after September 11, not only with 
respect for your losses, but I think some good has come out of 
this, and your willingness to step forward and be leaders has 
made a difference.

 STATEMENTS OF SALLY REGENHARD, FAMILY MEMBER OF SEPTEMBER 11, 
  2001 VICTIM; BEVERLY ECKERT, FAMILY MEMBER OF SEPTEMBER 11, 
 2001 VICTIM; AND ROBIN WIENER, FAMILY MEMBER OF SEPTEMBER 11, 
                          2001 VICTIM

    Ms. Regenhard. Thank you very much. Thank you, Chairman 
Davis, Ranking Member Waxman, Vice Chairman Shays, and members 
of the House Committee on Government Reform. It's an honor to 
be here today, an honor that I appreciate very much.
    My name is Sally Regenhard. I'm the founder and chairperson 
of the Skyscraper Safety Campaign. I created this organization 
in memory of my son Christian Regenhard, a probationary 
firefighter who was lost at the World Trade Center on September 
11 with his entire Engine Co. 279, and they remain missing to 
this day.
    The goals of the Skyscraper Safety Campaign include 
advocating for a thorough investigation into the disaster of 
the World Trade Center as well as making high-rise buildings 
safer in the future through improved building codes, design 
practices, and enhanced emergency response procedures and 
equipment. Today we would like to discuss some of the findings 
and recommendations of the 9/11 report. I would like to focus 
on chapter 9 and the some of the recommendations in chapter 12.
    Overall, I feel that the 9/11 Commissioners and staff have 
provided us with a great amount of detail and analysis about 
the emergency response that terrible day. Their extensive text 
and notes give us new insights into what went right and what 
went terribly wrong that day. They are to be thanked and 
congratulated for their superlative and dedicated work, and 
they must also be thanked for the respect and honor shown to 
the victims and the family members. However, I do feel that 
some of the conclusions drawn in chapter 9 are not based upon 
actual substantiated facts, but rather upon unsupportable 
opinions.
    One particular aspect of the report that is quite troubling 
to me and to my organization is the discussion relating to the 
evacuation orders of the North Tower on pages 322 to 323 of the 
report, and the corresponding end note No. 209. It is alleged 
that many of the firefighters in the North Tower heard the 
message to evacuate, but chose to remain in the building prior 
to its collapse. To the contrary. This issue of firefighter 
deaths is directly tied to the lack of radio communication 
capability in the World Trade Center on September 11. This has 
been well documented in the post-September 11 McKinsey Report, 
the New York Times, and numerous other publications and 
firefighter comments. Yet this theory that firefighters chose 
to die has been advanced by some public officials, undoubtedly 
hoping to deflect criticism for the inadequacy of the FDNY 
radios and for the absence of a functioning incident command 
structure in New York City on September 11 which undoubtedly 
could have saved so many firefighters' lives, including my 
beautiful son Christian.
    I take specific exception to the section in the Commission 
Report which states, ``In view of these considerations, we 
conclude that the technical failure of the FDNY radios, while a 
contributing factor, was not the primary cause of the many 
firefighter fatalities in the North Tower.''
    I and my technical advisers of the Skyscraper Safety 
Campaign, which represent a large professional field of fire-
related professionals, have--and communication and evacuation 
specialists, have reviewed the substantiating documentation and 
have found it lacking. In essence, the report makes a very weak 
argument such as, ``It is very possible that at least some of 
these firefighters did hear the evacuation order;'' as well as 
the most curious statement that firefighters, ``were likely to 
have known to evacuate.''
    Such statements are not conclusive. Stating that 
firefighters refused to evacuate the building for whatever 
reason and disobeyed such an important order simply cannot be 
confirmed and is a disservice to their memory. These people are 
dead. We cannot ask them these questions. The questionable 
findings of chapter 9 are based on interviews and transcripts 
which the families and the public have no access to. The 
information upon which these conclusions were based is 
secreted, is suppressed, and this information contains key 
knowledge that the families of the victims would like to have.
    Myself and other family members here today are part of the 
45 percent of family members whose loved ones were never, ever 
identified. Not one single piece of DNA was ever found from my 
son and for 45 percent of the victims. If this information and 
this testimony that these Commission's recommendations and 
findings are based upon, I'm asking that this be made public so 
that at least we can find out how these very curious 
conclusions have come to pass.
    I have to say that it may seem that it's not that important 
to you, this one aspect of firefighters not obeying orders, but 
I must say to you to the families of the firefighters who 
perished that day, including myself and the mother of 
firefighter Sean Patrick Tallon, who is among the family 
members here today, we feel that the lack of radio 
communication capability was the primary reason that so many 
firefighters died. The fact is, that their equipment betrayed 
them at the time that they needed it the most. The fact is well 
documented in a new book coauthored by a New York City Fire 
Department battalion chief, and this book is called Radio 
Silence, FDNY. It provides a history of how these failed radios 
got into the hands of the entire New York City Fire Department 
on September 11.
    Even today, nearly 3 years later, the fire department still 
does not have an adequately robust radio system that gives them 
the capability to talk in all high-rise buildings in New York 
City, in all subways, and in tunnels. This is not just a 
firefighter issue, this is an issue of public safety and grave 
concern for all, not only in New York City, but in other States 
that also can be a target of terrorism, and we don't know how 
emergency communication will work.
    I call on Congress today to hold hearings into the flawed 
September 11 emergency communications system and the fire 
department radios of September 11 as well as the failure of the 
city of New York to put useful radios into the hands of today's 
firefighters. You are the last hope to provide an unbiased 
critical review of this significant issue.
    Another issue I would like to discuss pertains to the 
report's analysis of the incident command system currently 
utilized by the city of New York. Just days prior to the 9/11 
Commission hearings this past May in New York, the city 
announced the creation of a new citywide incident management 
system intended to meet impending Federal requirements. 
Unfortunately, CIMS is a fundamentally flawed command system in 
many respects, including its illogical split of HAZMAT 
responses between the NYPD and the FDNY even in the case of a 
terrorist attack and the lack of a single clearly designated 
incident commander in many emergency responses.
    As a New Yorker living in this Nation's No. 1 terrorist 
target, I also have grave concerns about the amount of money 
flowing to New York City for antiterrorism preparedness. We 
should be receiving a much larger piece of the pie, eliminating 
the pork-barrel spending of the past. I agree with the 9/11 
Commission in its desire to see that a risk and vulnerability 
assessment form the baseline for spending. I would further 
suggest that the likelihood of an attack play the predominant 
role in any risk vulnerability assessment.
    Regarding the Commission's recommendations, a review of 
chapter 12 reveals that only three recommendations deal with 
all of the complex issues that surfaced in New York City and 
continue to haunt us to this very day. These three 
recommendations can be characterized essentially as mom and 
apple pie. They are two broad, and they are lacking the 
specificity to deal with the complex issues at hand. I would 
have hoped for many more specific recommendations dealing with 
each of the communications, incident command, and private 
sector emergency preparedness issues raised in this report.
    Once again, this is not just about New York City. These 
have ramifications for every other State or every other city in 
this country which could be a likely target of a terrorist 
attack.
    For example, the 9/11 Commission should have strongly 
critiqued the New York City's incident command system rather 
than just stating that, ``emergency response agencies 
nationwide should adopt the incident command system.'' With all 
due respect to the Commission, most cities and States have 
already done this. New York was one of--was the only major city 
and the only State in this country which lacked an incident 
command structure on September 11. Why not analyze New York 
City's current system and detail why it is so flawed rather 
than just state, as the Commission stated, that it, ``falls 
short of an optimal response plan?'' Clearly, more work is 
needed in this area.
    In closing, you may have noticed that I am wearing some 
medals today. My son earned these medals for obeying orders as 
a recon Marine sergeant during his 5 years of distinguished 
service in the U.S. Marine Corps before joining the fire 
department. When a marine receives an order, he follows it. If 
told by a supervisor or superior officer to evacuate the World 
Trade Center on September 11, he and others would have done so 
if only their radios would have worked. All of these 
predominantly young firefighters lost at the World Trade Center 
on September 11, with rare exception, would have chosen life if 
only they were given the chance. Unfortunately, they and the 
rest of the 343 cannot testify before you today. I wear these 
medals to defend their honor, and, in doing so, I once again 
reiterate the need for congressional hearings into the 
communications and radio failures of September 11. I 
acknowledge the role of the first responders as far--as part of 
the first casualties in this war on terrorism. Please do not 
overlook the important problems still facing them today. The 
FDNY and the rest of our Nation's emergency personnel are 
America's first lines of defense in this country. If they are 
not safe and well equipped, how can they protect the public in 
case of another terrorist attack? Please help them and honor 
those who are gone by giving your attention to this most 
important matter. Thank you.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Ms. Regenhard follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.052
    
    [GRAPHIC] [TIFF OMITTED] T6537.053
    
    [GRAPHIC] [TIFF OMITTED] T6537.054
    
    Chairman Tom Davis. Ms. Eckert.
    Ms. Eckert. Honorable Chairman Davis, distinguished members 
of the committee, ladies and gentlemen, my name is Beverly 
Eckert. I am appearing here today as a member of the Family 
Steering Committee for the 9/11 Commission. We very much 
appreciate this opportunity. We understand it is both a 
privilege and a responsibility. And we also extend our thanks 
to the Commissioners and their staff for their tireless work 
and the cogent recommendations which are the focus of today's 
hearings. Most of all, we thank the American people for their 
interest and support of this process. Hundreds of thousands 
have purchased the Commission's report. Tens of millions have 
accessed the Commission's Web site to read for themselves the 
summary of what went wrong on September 11th, and what we need 
to do as a Nation to correct those failings. These astonishing 
numbers make it very clear that it can no longer be ``business 
as usual'' in Washington. This committee's presence here today 
is a testament to that.
    There is no recess from terrorism. And because of the 
transparent way the Commission operated and the accessibility 
of their report in bookstores and on the Internet, ordinary 
citizens are now well-informed about the failures of our 
national security apparatus. And they are engaging in much-
needed debate about how our government needs to change to 
address those failures. This is democracy alive and at work.
    Mr. Chairman, members of the committee, the roadmap is in 
front of you. There are 41 recommendations contained in the 9/
11 Commission report. Neither the Family Steering Committee nor 
the American people will let those recommendations suffer the 
same fate as those of past commissions. There is no shelf on 
which they can be hidden. You and the rest of Congress are very 
much in the spotlight, as I am sure you are all keenly aware, 
and you will be held accountable by the people for your 
actions--or inactions--as will the White House.
    To help this oversight--the people's oversight--the Family 
Steering Committee will make the progress of legislation, 
Executive orders, and agency initiatives available on our Web 
site. We will list cosponsors of bills as well as who voted for 
and against. Our hope is that legislation will be passed by 
unanimous consent after expedited hearings before the end of 
this year.
    As this process moves forward, we challenge you--election 
year notwithstanding--to resist pressures from lobbyists who 
might oppose reforms that add cost to their clients' 
operations.
    In terms of content, we respectfully require that every 
bill dealing with these recommendations mandate specific 
implementation steps and timetables, to avoid the delays that 
characterize the regulatory route. Families who worked so hard 
for aviation safety improvements after the Lockerbie tragedy in 
1988 understand this need all too well.
    We also require language in each bill that addresses 
funding, and that appropriations with flexible earmarking 
promptly follow. We respectfully require that the bills 
submitted to Congress be unencumbered by amendments, the 
``pork'' that so often is associated with controversial 
legislation.
    Last, we challenge the House and Senate to work together to 
draft complementary bills so that there will be no need for 
conferencing behind closed doors.
    The reforms needed to build a more secure Nation must not 
be derailed. Nearly 3 years have passed since our Nation's 
security was catastrophically breached, but not enough has been 
done since then to make us safer. During the September 11 
hearings, we heard from agency after agency that corrective 
measures have been implemented, only to learn from incidents 
reported in the news that security lapses are still rampant.
    The Commission report speaks of a ``failure of 
imagination'' in Washington, a failure to understand the threat 
and respond to it. Going forward, we need government officials 
who do have imagination, who can implement legislation that's 
creative, responsive, and capable of addressing the challenges 
and threats of the 21st century.
    A National Counterterrorism Center and a Director of 
National Intelligence at the helm is at the heart of the 
Commission's recommendations. Yesterday the President announced 
that he would support these two recommendations, but the DNI 
needs to have the necessary management, budget, and 
appropriations control. It's a critical element if they are 
going to succeed. And also, this control needs to extend to the 
Defense Department; otherwise, the effectiveness of the DNI 
will be undermined. Be assured that the Family Steering 
Committee will be monitoring these important aspects.
    The report identifies Congress itself as being 
dysfunctional. We therefore call upon each of you to have the 
courage to be part of the solution and embrace fundamental 
change in the way the congressional committee oversight system 
operates.
    As in the days preceding the September 11 attacks, the 
threat of terrorism is now high. This committee, Congress, and 
the President must act with great urgency. Upcoming elections 
must not overshadow these initiatives. These recommendations 
require your undivided attention. The American people will 
accept nothing less.
    Whatever the outcome in November, we expect that you, our 
representatives, will use your full terms of office 
productively. We fully support a special session of Congress to 
ensure that the momentum generated by these hearings will 
continue. We cannot afford a lame duck session attitude to 
legislation still pending after the November elections.
    My husband Sean was trapped in the South Tower of the World 
Trade Center on September 11th, but he was able to reach me by 
phone. When the smoke and flames drew near, and Sean knew he 
was going to die, he remained calm, speaking of his love for me 
and for his family. I will forever be in awe of the way he 
faced his final moments. In the days that followed, I felt 
somehow infused with his courage and strength, and that has 
help me persevere through these difficult months. So many other 
family members were similarly inspired. Despite our private 
anguish, we shared a goal: To make this country safer so that 
the deaths of 3,000 people would not be meaningless.
    Too many of us lost someone we cherished on September 11th. 
Too many of us also lost our faith in a government we had 
blindly trusted to protect the people we loved. After September 
11th, the country reached out to families and asked what they 
could do to help us heal. We now have an answer: ``Help us make 
these recommendations happen.'' And our question to Congress, 
the President, and this committee is, are you willing to 
implement reforms before this year has ended and thereby 
restore our Nation's faith in its government?
    The anniversary of September 11th approaches. What better 
way to honor the memory of those who perished than by enacting 
legislation this year, which ensures that no other family 
member has to experience what we have endured. I hope I never 
see the day another widow has to walk in my shoes. The time to 
act is now. Thank you.
    Chairman Tom Davis. Thank you very much, Mrs. Eckert.
    [The prepared statement of Ms. Eckert follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.055
    
    [GRAPHIC] [TIFF OMITTED] T6537.056
    
    [GRAPHIC] [TIFF OMITTED] T6537.057
    
    Chairman Tom Davis. Ms. Wiener.
    Ms. Wiener. Mr. Chairman, members of the committee, thank 
you for inviting us to testify today, and thank you for holding 
these hearings. I'm truly honored to be here. My name is Robin 
Wiener, and I appear before you as a member of the Family 
Steering Committee, a board member of Families of September 11, 
and, most importantly, as the sister of Jeffrey Wiener, who was 
killed the morning of September 11th while working at his desk 
on the 96th floor of Tower One of the World Trade Center.
    As tragic as that day was for the victims, their families, 
and all of our country, America was united, strongly united, 
for months after the attacks. Sadly, that unity eroded quickly 
as response to the tragedy became political. In the months 
following September 11, 2001, the families began to advocate 
for the creation of a commission to investigate the terrorist 
attacks, with the goal of making whatever changes would be 
necessary to prevent another such attack. The American spirit 
that drives us to seek the truth has shown itself in the sales 
of the report, a bestseller by anyone's calculation.
    Unity and truth are vitally important, Mr. Chairman. They 
are very powerful forces, and they are what make this country 
strong. As Beverly made clear, the American people are reading 
this report closely. They are absorbing the recommendations, 
they are watching what you do here today and what you will do 
in the weeks and months ahead. And they, along with the 
families, will not be pleased if they see the Commission's 
recommendations falling by the wayside.
    Certainly these hearings are a wonderful start, and I 
appreciate that the members of this committee have interrupted 
their recess to address the most serious issue facing all 
Americans. This type of response gives me hope that we are 
going to get things right for the safety and security of all of 
our citizens. However, Mr. Chairman, the encouragement that the 
families in our country received from the timeliness of these 
hearings is tempered by a very real fear. The families and the 
American people are expecting Congress and the administration 
to act expediently, but without political expediency.
    It is important that the implementation of the Commission's 
recommendations occur in a timeline that is drawn to protect 
America, not to protect incumbents of any party, Democrat or 
Republican. It is vital for our Nation that we avoid quick 
fixes that are inadequate or incomplete.
    We recognize that this puts you, your colleagues, and the 
administration in a difficult position. How can you act quickly 
to implement the Commission's recommendations without seeming 
to make political hay in the process? The solution, in my 
opinion, lies in the future of the 9/11 Commission itself.
    The families of victims have asked that the Commission be 
kept alive to oversee the implementation of its 
recommendations. This bipartisan body is uniquely qualified to 
monitor implementation and to reassure the American people that 
the process is working; that the progress being made by our 
elected leaders is furthering our security, and that all of the 
recommendations are properly implemented.
    Many of the September 11 families have endorsed the 
Commission's recommendations as a whole. We hope that you 
recognize that all of the recommendations are important, and 
all are part of a comprehensive package designed to work in 
concert to significantly diminish the terrorist threat facing 
our country.
    The Commission report deals with issues that go beyond 
intelligence czars and counterterrorism centers, issues that 
have led the news in recent days. The Commission has important 
recommendations that deal with such critical issues as foreign 
policy, diplomacy, education, foreign aid, border security, 
terrorist financing, economic policy and the like. I implore 
you to prioritize, to enact that which can be carried out 
immediately, but while also moving forward on recommendations 
requiring longer-term discussions.
    We, the families, challenge the members of this committee 
and all Members of Congress to recognize that the unprecedented 
terrorist attacks of September 11th demand an unprecedented 
effort on the part of Congress that will require streamlining 
the committee process and exceptional coordination between the 
House and Senate as well as coordination and communication with 
the administration. We challenge you to provide the American 
people with a timetable that Congress is prepared to follow to 
implement this report. And, last, we challenge you to put aside 
turf battles and partisan rivalries and act quickly to do 
everything that must be done to reduce our vulnerability to 
another terrorist attack. In short, Mr. Chairman, the families 
and the entire country are looking to you and your colleagues 
to do your work quickly and to do it right, an awesome 
responsibly.
    You have a wonderful opportunity before you to take a 
leadership role, and we commend you for calling this hearing 
today. We also commend Congressman Shays and Congresswoman 
Maloney for forming a caucus for Members committed to enacting 
all of the Commission's recommendations. Hearings like this can 
be important, but please demonstrate to the American public 
that you are serious in your efforts.
    Mr. Chairman, if I could take a personal moment. I was 
blessed on November 23rd of last year to become the mother of a 
beautiful little girl named Jennifer, named after the uncle she 
will never have the good fortune to know. The seriousness by 
which you take the job given to you by the 9/11 Commission will 
not only honor and create a positive legacy to those 3,000 
souls who so tragically lost their lives on September 11, but 
will determine whether Jennifer and millions of other children 
like her will grow up in a safe, secure, and strong America.
    Mr. Chairman, we implore you, please do what is required. 
Act smartly and act quickly. The families look forward to 
working very closely with you and the rest of the committee, 
the rest of Congress, and the administration to do what is 
necessary to implement the Commission's recommendations. Thank 
you.
    [The prepared statement of Ms. Wiener follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.058
    
    [GRAPHIC] [TIFF OMITTED] T6537.059
    
    [GRAPHIC] [TIFF OMITTED] T6537.060
    
    Chairman Tom Davis. Well, thank you all for some very 
moving and compelling testimony.
    I'm going to start the questioning with Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    And I want to thank the three of you for being here and 
giving us your testimony. I know you speak not just for 
yourselves, but for others who are in the same circumstances of 
having suffered a loss as a result of the attack on September 
11th.
    We have had the Commission due to a great part because you 
have all insisted on it, and now we have those committee's 
recommendations.
    Ms. Wiener, let me start with you. Secretary Lehman said 
that this is not a Chinese menu, these 40 recommendations. He 
thought that they ought to be considered as a whole, and we 
ought to pass all of these recommendations because they fit 
together and they make it work in its totality. Do you agree 
with that statement?
    Ms. Wiener. Absolutely. I don't believe that you can 
cherry-pick the recommendations. They all, as I mentioned in my 
testimony, work in concert to deal with the huge problem before 
us and must be dealt with as a package.
    Mr. Waxman. And, Ms. Eckert, is it the view of the Steering 
Committee of victims of September 11 that this be done, this 
legislation be done and adopted into law before we leave at the 
beginning of October?
    Ms. Eckert. Well, we think it should be done during the 
terms of office, that the people who are elected right now, 
before their term of office is over to the extent that is 
possible. We just think you should be productive all the way 
through the end of the year. And obviously the election is 
going to occupy some of your attention, but we don't want it to 
be totally diverted from what you need to do today.
    Mr. Waxman. Well, I would hope the fact that we have an 
election would be a way to drive us all together and accept 
these recommendations. My fear is if it gets kicked over to a 
lame duck session or next year, that the sense of urgency will 
be dissipated, and that we won't have the driving force that we 
now have to enact the legislation in its entirety.
    Ms. Eckert. And it's just so important. I mean, the 
Commission's set such an incredible example of bipartisanship. 
And I think, you know, the committee members of this room have 
evidenced that as well. And we need to continue in that, and we 
hope that legislation will be enacted before the end of the 
year through bipartisan cooperation.
    Mr. Waxman. Well, I want to join you in support of exactly 
that goal. I think we ought to move forward. I was somewhat 
critical in questioning whether President Bush's statements 
yesterday reflected that same commitment. The two witnesses 
that we had earlier, Secretary Lehman and Senator Kerrey, both 
thought it was a good start that the President came out and 
endorsed doing something, but I think that--I don't in any way 
mean this in a partisan way. I think we have to work together, 
not to put something forward that looks like the Commission's 
recommendations, but are just as effective; in fact, the very 
recommendations of the Commission.
    I thank you very much for your testimony, and I look 
forward to working with you and my colleagues on both sides of 
the aisle to accomplish what needs to be accomplished now and 
should have been done much earlier, but we need it now just as 
much as we ever did. Thank you so much.
    Chairman Tom Davis. Thank you.
    Mr. Shays.
    Mr. Shays. You both make us a bit speechless. You have been 
fighting this battle for so long, and your eloquence is still 
with you. We have before us a son Christian, a husband Sean, 
and a brother Jeff, and you give us some reality to what we 
need to be doing.
    With that in mind, I know you want this as a package, but 
if you told me what was the recommendation you agreed with most 
strongly, even if it wasn't the most important, I would like to 
know that. I would like to know what was the recommendation 
that spoke mostly to your heart and said, yes.
    Ms. Eckert. To me, I think the September 11th event could 
have been stopped if intelligence had operated more 
effectively. So I do believe that there are global issues that 
are going to take a long time to implement; but I think right 
now, because of the threat, that we really need to address 
integration of the intelligence stovepipes, as everybody has 
called them. I think that's urgent.
    Ms. Wiener. I think for me it's a group of recommendations. 
It's the group of recommendations dealing with the global 
strategy, and specifically what we need to do in the Muslim 
world and the Arab world in order to prevent the future growth 
of terrorism. And there was some discussion earlier about the 
madrassas, for example, and of all the efforts that--the 
recommendations that reflect the efforts that this government 
should take to provide economic stability and a better future, 
I think, in the Muslim world through education and through 
other such efforts. Those are the ones probably that are 
closest to my heart.
    Ms. Regenhard. I agree with my colleagues in both of their 
statements. And the thing that has touched my heart the most is 
that chapter 9, and the look at what happened to New York City, 
what happened, why 343 firefighters died is most inadequate. 
The finding that the radios were not the primary cause of 
firefighters' death really flies in the face of so much that we 
know, the families know, and that has already been printed.
    Also, the end notes, especially 209, contain information 
that materially conflicts with what some of the family members 
have been told regarding specific units, regarding who heard 
what. We are very concerned about this. And what speaks to my 
heart is the need for congressional hearings into the entire 
communications disaster of September 11.
    Mr. Shays. Ms. Regenhard, our committee has held hearings; 
the chairman has made sure that we have held hearings on our 
whole capacity to communicate and frequencies and equipment 
that's necessary. So we are looking at technology and so on. 
And he had mentioned to me that he wants us to followup on what 
you have requested. But I would like you to--so I would like to 
say we hear you.
    Ms. Regenhard. Thank you.
    Mr. Shays. But I would like to ask you to go beyond just 
that area. If you could get the communication issue done, what 
would be the thing that then spoke to you most?
    Ms. Regenhard. Well, certainly looking at the entire 9/11 
Commission report, looking at everything in totality, what 
speaks to me most is that there were levels of failure in every 
single area of this government, of this country. There was no 
one held accountable or responsible for what they did. I feel, 
and other families of the victims feel, that their loved ones 
died in vain, had a wrongful death without any correction. And 
certainly if these recommendations could be enacted very 
quickly, that would be something that speaks to me. However----
    Mr. Shays. Let me ask you this, my time coming to a close 
here. You did not want the report to have any redacted parts to 
it. You wanted it to be all. And what I want you to speak to, 
if you could, is the recommendation that less things be so-
called intelligence, classified, not available to the public. 
Could you all speak to me on that issue quickly?
    Ms. Regenhard. Yes. I would like to say that myself, the 
families of the victims, and my organization is very, very 
shocked to hear that the September 11 emergency tapes that 
occurred on September 11 plus the 500 interviews that were done 
with the New York City firefighters immediately after September 
11, all this information, instead of being disclosed to the 
public, instead of being shared with the families, is going to 
be secreted and put into the National Archives for a minimum of 
25 years. By the time that myself and other families members 
are able to find out what really happened to our sons and our 
husbands, we will really be perhaps not even in a capacity to 
really appreciate or understand it, or certainly not to take 
any action. That's one issue.
    But only recently, reading the Commission report and 
reading the end notes, and realizing that there is information 
there that contradicts what the families of the firefighters 
have been told--I have just recently learned that even that, 
even that information is going to remain secreted and to be put 
in the National Archives--I am calling for full disclosure. Why 
on Earth, with all the sensitive declassified intelligence 
information that has been shared, and we have gained so much 
from it, why on Earth would the city of New York, why on Earth 
would the 9/11 Commission want to keep any information about 
what happened in those buildings, what happened with the 
radios, what happened with the communication, why would they 
want to keep that secret? I really call for full disclosure of 
all this information, of all the testimony so we can really 
find out what happened and how can we correct it.
    Again, this is not about New York. There is a possibility 
of a massive communication failure and radio failure in any 
other city in this country. I want to prevent that, and I would 
like full disclosure.
    Chairman Tom Davis. Thank you very much.
    Mrs. Maloney.
    Mrs. Maloney. I would like to thank all the family members 
for their testimony and ask unanimous consent to place in the 
record a statement by the Family Steering Committee regarding 
the President's acceptance of certain recommendations, if 
that's possible.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.061
    
    [GRAPHIC] [TIFF OMITTED] T6537.062
    
    [GRAPHIC] [TIFF OMITTED] T6537.063
    
    Mrs. Maloney. I would also like to followup on what Ms. 
Sally Regenhard was saying. This is a lot of contradiction over 
the radios, and I, for one, Mr. Chairman, see absolutely no 
reason why we should not look at these tapes and look at this 
information, especially since the preceding panel talked about 
the need to have dissent, to have all of the information out 
there.
    To this day some people say the radios worked; some people 
say they don't. One leading official in the fire department 
told me the other day, ``The radios that did not work on 
September 11 still do not work.''
    We need to look at this information in order to protect our 
citizens and our first responders in other situations.
    On a personal note, on September 11 I went to the One Place 
Plaza, which was the temporary headquarters for response given 
that our headquarters were destroyed on September 11. The one 
thing I was asked to do was to get radios, because our radios 
do not work. I reached out to Bill Young, chairman of 
Appropriations, and he arranged to fly in military radios so 
that we could communicate on the mound when we were looking for 
survivors.
    So I would like to followup on your statement, Ms. 
Regenhard. What do you think we would gain from these hearings 
that we have not already heard? What benefit would be going 
further into exploring what exactly happened and look at all 
relevant documents? What would we gain?
    Ms. Regenhard. I think the benefit would be, first of all, 
that we could get a true accounting of what really happened in 
those buildings. What were the factors that led to this demise 
of so many first responders; not only firefighters, but police 
officers and Port Authority officers? We could examine all the 
issues and find out--the relevance to today is we can find out 
what has been corrected and what still needs to be corrected. 
Without a thorough, comprehensive examination of all the 
issues, all the facts, we will never be able to know that we 
have corrected the problems.
    We cannot let anything remain hidden. There is no reason 
for it. We have to have the courage to really see why there was 
such a massive failure, and, in doing so, protect not only the 
city of New York, but, as I said, the ramifications are across 
this country in every State. If there were another catastrophe, 
how do we know that emergency fire radios in different States 
could work? How do we know? We had so many shortcomings 
especially in the 911 system; when people called up, they 
wanted to know what should they do, how do they get out of the 
building, should they stay, should they go up, should they go 
down. There was no system between the Police Department of the 
city of New York and the fire department and the 911 emergency 
operators.
    That cannot be allowed to continue. Every State needs to 
have a framework whereby if there is a major catastrophe, and 
people are calling and saying, what should I do, it should not 
be up to a minimally trained 911 operator who has no input from 
the fire department or from the police department or from the 
HAZMAT units or the emergency services or environmental 
protection. We have to create a better system.
    In the past, we said we could never anticipate what 
happened. That's very questionable. However, be that as it may, 
we can anticipate that more terrorist attacks may be coming. 
And another matter that we can look into is to see what 
happened in that building and how did that building fail? And 
perhaps we can look at strengthening building codes practices, 
and think, when we are building, toward blast-resistant and 
antiterrorist construction.
    Thank you very much.
    Mrs. Maloney. I would like to very briefly ask all of the 
panelists to comment on how you view the 9/11 Commission should 
go forward. Some think it should be privately funded; some 
think its responsibility should be assumed by Congress. What do 
you see for the future of what has been, I think, a remarkable 
example of public service? And I ask all of you to comment.
    Ms. Eckert. I agree that they have a continuing role to 
educate and to be available for hearings like this one. They 
have indicated they themselves would prefer private funding, 
and we support them in that. On the other hand, if for some 
reason that funding isn't available, I do think that their 
role--they do have an important role. And they are not going to 
stay together the same way and operate the same way they have 
with subpoena power and calling hearings that people have to 
attend. I don't think they envision doing that, and neither do 
we. But they are an important source of educating the public 
and keeping everybody aware and focused, and if it comes to 
pass that Congress wants to appropriate money for that 
endeavor, that would be fine.
    Mrs. Maloney. Ms. Wiener.
    Ms. Wiener. I would have to agree with Beverly. And I would 
have to say that I would defer to the Commission itself and its 
preferences in this regard for private funding. They do play a 
critical role in the future to keep this issue alive and make 
sure that the recommendations do move forward into action. And 
so I would also hope that if for whatever reason private 
funding does not materialize, then Congress would step in to 
provide the support that's needed.
    Ms. Regenhard. I would like to consider perhaps a 
combination of private funding and the Federal Government 
funding, Congress. And, also, I would like to see funding for 
technology for the New York City Fire Department come really 
from technology that's available through the Department of 
Defense currently. I think--and not only in the New York City 
Fire Department, but every major fire department, police 
department, and emergency service throughout this country. They 
should be able to take advantage of the Department of Defense 
technology. It's there. You know, let's use it to protect the 
American public, the people that you represent so well.
    And I want to thank you, Mrs. Maloney, for your leadership. 
I want to thank every single person here for the wonderful job 
that you are doing. And we appreciate what you are doing, 
because you are helping to protect America. Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Ms. Regenhard, when you were talking about the issues of 
the equipment and the training for both the fire department and 
the police department, the response, it was an issue that 
perhaps you heard in the first panel that I had raised as an 
issue and share with you your concern. I notice in your 
testimony, you say review of chapter 12 reveals that only three 
recommendations deal with the all complex issues that surfaced 
in New York City and continue to haunt us to this day, and that 
you would have hoped for more specific recommendations.
    My first question, the city of New York had a weapons of 
mass destruction/terrorist response exercise a month prior to 
September 11th, and what struck me in reading the 9/11 report 
is that when I reread the domestic preparedness report of the 
exercise that occurred in Dayton and with the September 11 
incident being a real incident, they read very similar. In the 
city of Dayton's report it says, participants agree that the 
amount of information transmitted in and out of the command 
post was overwhelming. Fire department engine or truck company 
personnel should be trained how to properly support on a joint 
command post with the incident command and management, managing 
the incident by identifying issues and reminding them to 
request necessary resources required for this type of incident. 
Participants agreed direct radio communications between fire 
department and police department units would have been 
beneficial and desirable. Improving interagency incident 
communications should be addressed.
    All of the recommendations, all of what occurred in an 
exercise occurred in the actual incident that we had in 
September 11th in New York.
    Ms. Regenhard. Yes.
    Mr. Turner. And I said earlier that John Ashcroft had 
attended the exercise that we had in Dayton. I know that you 
have a continuing concern that we are not doing enough in this.
    Chairman Shays, the chairman of our national security 
subcommittee, has been really pushing on the issue of what we 
needed to do for first responders in case all of our efforts on 
intelligence still result in our need for our first responders 
to be there defending our country. I want to give you another 
opportunity to speak on that.
    Ms. Regenhard. Yes. I want to say it's really amazing and 
both horrifying that this type of procedure exists. The 
knowledge is there. You know, it wasn't a matter that New York 
City, you know, the technology didn't exist or whatever. The 
knowledge was there. What you described was something that was 
well known, it was an established procedure. But yet how could 
a city like New York, purportedly the greatest city in the 
world, how could they not have taken part in any of this 
technology, in any of this practice and procedures? How could 
we have been left so defenseless, lacking an incident command 
structure?
    You know that on September 11 the police department did not 
and could not communicate with the fire department, so that 
the--when the second tower--the police department and the fire 
department and the city of New York for decades, I imagine, 
have had a turf war. Instead of working together in an incident 
command structure under a unified head, at times they actually 
engaged in fisticuffs.
    This is something that has gone on and on, and it has not 
been addressed. It has been a failure of leadership in the city 
of New York for quite some time to not bring New York City up 
to this level of technology and practice that you described.
    I hate to--I am sorry to say this: We have made some 
progress since September 11, but I have to tell you the city of 
New York still does not have an adequate incident command 
structure, and there is no reason for this. We really need to 
look at what is happening right now in the city of New York and 
what needs to be done to assure that this catastrophe will not 
happen again. We have a long way to go.
    The other aspect is the radios that you mentioned. The 
radios that failed in the World Trade Center attack in 1993 
were the same radios that the New York City Fire Department 
were sent into the World Trade Center with in 2001. This is an 
outrage. I would like you to look into this. How could this 
happen? If this could happen in New York City, what is 
happening in other States? What is happening in other cities? 
Do we have such a failure of responsibility?
    You know, I deeply regret the lives of these beautiful 
people, these young, beautiful people--there were 97 unmarried 
firefighters lost in the World Trade Center. There were 17 
probationary firefighters, including my son. And the rest of 
the 343 wonderful, beautiful people, military people, Marines, 
people who were the salt of the Earth, they met a needless 
death because of the failure of emergency preparedness in the 
city of New York--lack of incident command structure, lack of a 
police department and fire department that were able to work 
together, and lack of radios that worked.
    This is simple. This is not something that is so beyond the 
scope of technology. We should have had it. We need to look at 
this. We need to find out how did this happen to this city? How 
did this happen?
    My son believed in the city of New York. He loved the city 
of New York. He loved his country. These are only 3 of 12 
medals and awards that he won; and the saddest part is, when I 
was looking at these medals closer last night, one of the 
medals in the back has three words: ``fidelity, zeal, 
obedience.'' My son and those firefighters would have obeyed an 
order to leave that building. My son was betrayed by a system 
that put him in there with radios that did not work.
    My son was a proud Marine. He obeyed orders. He was a 
shining example of the best of this country. I want to know why 
he was sent into a situation with equipment that did not work, 
a hopeless situation. And if I can save the sons and husbands 
of other people in the future, that is my goal. That is what I 
want to do.
    Chairman Tom Davis. Thank you.
    Mr. Davis, any questions?
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    I wanted to thank all three of you for your very well-
thought-out, developed and passionate testimony. Even though 
you are not elected officials, you know about timetables, you 
know about schedules, and you know about the legislative 
process. I think it may have been you, Ms. Eckert, who 
indicated that terrorism did not take a recess or did not have 
a recess.
    While most people that I hear are in agreement that the 
recommendations need to be implemented, we are already 
beginning to hear some people suggest that there may not be 
enough time this year or that maybe the implementation should 
occur after the election. It seems to me that we need to move 
as expeditiously as is possible in order to put in place as 
quickly as we can this set of recommendations.
    Do you think that there is--and each of you might respond--
there is actually enough time to do a good review of looking at 
the recommendations, going through the process, before the 
election in November, rather than after the election?
    Ms. Eckert. I do, because, even this position of director 
of national intelligence is not new. We are new at this, and we 
are trying to learn the ropes and to keep up. But, honestly, as 
far as I have heard, this debate has been going on since 1947. 
So I think the time for debate on something like that is over. 
It failed. We did not have a director of national intelligence, 
and therefore the process did not work.
    I think if people simply acknowledge you do have the 
information. The Commission worked long and hard to compile, to 
do these hearings and get testimony, and I know you are going 
to hear from some of the same people. It is your responsibility 
to do that.
    But I want to use the phrase expedited. This is not a real 
good example of an expedited hearing, because I know it is 
lasting very long. But I think it can be done. I think it can 
be done, if there is zeal, energy and commitment.
    Ms. Wiener. If I could add to this, we certainly recognize 
that a number of the recommendations are longer term. But 
longer term does not mean you start later. You still start now. 
It just may take a longer amount of time to get them ultimately 
implemented.
    My fear is if we wait until after the election to start 
even discussing some of these other recommendations that we 
will never get to them.
    There are--looking at the list again--the ones closest to 
my heart: Preventing the continued growth of Islamic terrorism, 
define the message, stand as an example of moral leadership in 
the world--quoting from the report--over an agenda of 
opportunity that provides support for economic education and 
openness. You can't achieve those by election day. I wish you 
could. But certainly the discussion has to begin now or it will 
never occur.
    So I urge you that when we say all the recommendations have 
to be done simultaneously, we are talking for some of the 
longer-term ones about at least starting the discussion 
simultaneously. Because some of these will certainly require a 
certain amount of debate, and they all don't--for some of 
these, I recognize it is not just passing a bill. There is work 
that has to be done within agencies. There are policy shifts 
that have to occur. But, please, I really urge you to start 
thinking about them now.
    Ms. Regenhard. I have to say again I agree with my 
colleagues on their statements. I have to also say that I 
really appreciated hearing from Ms. Watson her comments 
regarding to keep some of these Commission members involved. I 
think it would be a shame to have this wonderful Commission 
just go away now and leave it up to agencies and other people 
to start reinventing the wheel.
    In some way, shape or form, I would like to see people who 
have become experts in this arduous process to be part of the 
solution now, part of the implementation. Let them guide the 
agencies and people whose responsibility it will be to enact it 
in some type of way. Keep them connected with it and keep that 
momentum.
    One of the Congresspersons said something about losing the 
momentum, you know? We cannot really lose the momentum, because 
so much of life is in the momentum, and we don't have time to 
waste to lose it.
    Mr. Davis of Illinois. I certainly agree with each of you, 
and I want to commend you again for your courage, tenacity and 
fortitude and thank you very much for your testimony.
    Chairman Tom Davis. Thank you.
    Mrs. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman and I thank you for 
the extra effort today to bring us here for the hearing.
    I thank all of you, each one of you, for taking your time 
to come and to talk with us. I appreciate the comments that you 
just made about what we need to have the debate, and there will 
be policy shifts that we will need, too, that will need to take 
place.
    I think that we can all agree that the Commission and this 
committee agree that information sharing is essential, that 
increasing the information sharing is essential; and the report 
definitely makes it very clear that has to be increased at all 
levels of government, the local, the State and the Federal 
Government, if we are going to combat terrorism and the 
terrorists that are causing these activities.
    It seems like sometimes political decisions allow loopholes 
or cause loopholes in that data that is available for sharing. 
One of the things we have seen is that the Department of 
Homeland Security has made a decision to accept from the U.S.-
Visit border crossing system people entering from Canada and 
Mexico, and we already know that al Qaeda is trying to sneak 
terrorists in posing as Mexican nationals. I would like to hear 
from each one of you if you agree that the U.S.-Visit system 
should apply to everybody coming into this country, everyone 
that is not a U.S. citizen coming into this country. Because it 
seems that we are only going to be able to address the 
situation and make some good decisions if we have a complete 
data set that we are working from.
    I would like to hear from each of you on a response for 
that.
    Ms. Eckert. I would say--and I am not an expert on that 
topic--but I would say that until we have a more effective 
system of screening people that we do need to make it 
universal. We have, I don't know, 12 million illegals here 
already. Clearly, we make it too easy for people to infiltrate. 
We need to be able to identify people who are terrorists who 
are already here, but clearly we need to stop them before they 
enter the country.
    We made exceptions before. We had--what was it called--Visa 
Express, I believe, that allowed the Saudis--they actually 
targeted that system and used it because they knew how easy it 
was to get into the United States through that.
    So I think that is just an example. We have to learn the 
lessons of our mistakes before. So without necessarily 
elaborating on any one system, I don't think that we should 
have exceptions.
    Ms. Wiener. I am not an expert on that system either, but 
it would appear to me that we would be better off without 
exceptions, and it should be universally applied. But, again, I 
do need to state I am certainly no expert on this system.
    Ms. Regenhard. I would like to thank you very much for that 
question and tell you that the families of the victims have 
formed many different groups. One of the groups that was formed 
by the families of the victims--and certainly many of us are 
members here--is 9/11 Families for a Secure America. This is a 
group of people who have lost their loved ones who are working 
for the driver's license reform legislation and for the issues 
that you just mentioned. And, yes, they agree, we agree, it 
should be across the board. We cannot let certain people in and 
then not let someone else in and pay the price of the people 
who sneak in some way.
    We need to really get strict about our border security. We 
need, of course, while looking with certainly a sharper eye at 
fundamental Islamic militants or people from known terrorist 
countries, we certainly have to look with a more critical aye. 
However, we need to have strict guidelines across the board, 
and whether it is Canada or Mexico or whether it is another 
country, yes, we have to have that. Until we can re-refine it 
in such a way, we need to really get serious about immigration.
    All of these issues that you mentioned today, there were 
failures across the board; and if any one of them could have 
been, you know, not failed, even one could have stopped it, 
that is how I personally feel.
    So, yes, we have to get serious about immigration and 
drivers' licenses.
    Chairman Tom Davis. Thank you very much.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    I think everybody understands the kind of loss that each of 
you suffered and other victims suffered can be paralyzing. The 
fact that for all of you, you have just turned that pain into 
public service, as I mentioned earlier, is beyond commendable. 
It is absolutely inspiring, and I hope that you are able to 
inspire the prompt action that I think this warrants and 
deserves.
    One of you mentioned earlier about having a Web site or 
something that is going to keep people's feet to the fire, and 
I think it is a excellent idea. I commend Chris Shays and Mrs. 
Maloney for forming a caucus to support the recommendations.
    Just for what it might offer to you as a benchmark on it, 
we could certainly have a bill drafted almost immediately with 
the help of legislative counsel here that encompasses and 
embodies all of the recommendations of this report can be 
implemented soon. We could have committee hearings in almost no 
time at all.
    During the Homeland Security consideration, this committee 
met and marked up the bill in one long day, and at least two 
other committees with jurisdiction did the same, and then a 
select committee that the Speaker put in place held a couple of 
days of hearings, and then the matter went to the floor. So 
these things can move.
    If it goes to the floor for debate, I obviously think we 
should have more than the customary 1 hour that sometimes 
important matters are given, but it need not go on for weeks or 
months.
    And if it isn't brought to the floor immediately, there is 
a process around here called discharge petition that you all 
probably have heard of in another context where we could demand 
that somebody file a discharge petition and people sign on 
until we get a majority that forces it to the floor, and that 
would be where your Web site or whatever would be instructive 
to people to see who is for moving this bill and who is not for 
moving it. Not certainly who is voting for it or who is voting 
against it, because we have to respect people's opinions about 
what they feel about the actual legislation, but who is moving 
it forward for consideration and debate and deliberation, 
during which time it could be amended or amendments could be 
offered, and then it could be passed.
    This certainly, in my estimation, could be done before the 
anniversary date of September 11, 2004, but definitely by the 
end of this year, and that is even with time off for other 
things.
    So if that is any kind of a benchmark to you, I offer it to 
you, and we have past examples of how we have moved rather 
quickly on things.
    Getting aside from some of the particulars on the security 
matters, I wanted to ask for your respective opinions about the 
broader issue of Islamic terrorism and the comments made in the 
report about the fact that we have to move and do something 
about that.
    What generally has been the reaction of the families with 
respect to those statements to talk about offering an agenda of 
opportunity that includes support for public education and 
economic solution and openness, defining the message and 
standing with it, moral leadership in the world and those types 
of things? Is the Steering Committee and other families solidly 
behind those statements? Do you want to expand on those at all?
    Ms. Wiener. Two comments. First of all, on the first point 
you made about how quickly you can move, I just want to say 
thank you. I hope that happens.
    Also, the Family Steering Committee and the families in 
general, through our Web site as well as other means, are very 
prepared and willing to help you in whatever way we can to help 
legislation move through grassroots action. We are certainly 
most of us are located in the Northeast corridor. There are 
relatives everywhere. We are throughout the country.
    Mr. Tierney. Let me just inject, you should know, so it 
hopefully gives you some comfort on this, that there have been 
bills filed by Members of this Congress, without mentioning the 
names, but there have been bills that have been sitting there 
for months without yet being moved for hearing or not. So there 
are people willing to act on that, and you know who they are, 
can find out who they are. But there are certainly vehicles 
already filed for parts of this, but I think we can get one 
solid vehicle that encompasses it all and move that, too.
    Sorry to interrupt you.
    Ms. Wiener. I appreciate that, and I think we would very 
much welcome an opportunity to sit down with you outside the 
hearing process, sit down with you in your offices and talk 
about the bills that have been filed and which ones we should 
help move. That would be something we would be very anxious to 
do.
    With regard to your second point or your question, I can't 
speak for all the families on that, but I know that there has 
been discussion certainly in the Family Steering Committee and 
beyond where families are concerned with regard to the issues 
raised by the Commission in terms of the global strategy. And 
certainly we are concerned not only with protecting our 
homeland and doing everything we can to reorganize the debt 
shares--I think someone used that term earlier--but we also 
need and fully recognize there needs to be significant policy 
shifts and actions taken by our government to prevent the 
future growth of terrorism. Because, as we have all heard from 
the Pew opinion polls and other studies that have been done, 
there certainly is not a love for us in the rest of the world 
and certainly in that part of the world. If we do nothing about 
that the problem becomes even much larger than we can imagine 
right now. That failure of imagination the commissioners talked 
about I think is only going to grow.
    So certainly there is a recognition on the part of a lot of 
the families that we need to do something in order to address 
that. I use the term ``something'' because something I know I 
have been struggling with ever since the Commission came out 
with its report is how do you address those things. This is 
where a meeting might be helpful. I don't know that it is 
simply legislation, because some of these are policy 
initiatives. But there are also some very simple things that 
the Commission mentioned in terms of additional funding, for 
example, for broadcast and TV broadcasts in the Islamic world 
to get our message out. The funding of the schools has been 
mentioned already several times.
    So there are certainly small things that can be done and 
large things as well. I think Commissioner Kerrey mentioned 
this morning we shouldn't forget those small things. But in 
terms of the larger group of recommendations and the concept of 
a global strategy, certainly the families, as far as I am 
aware, are certainly behind that. When we say all the 
recommendations need to be implemented, we certainly include 
those recommendations.
    Mr. Tierney. I may leave you with the thought that I think 
leadership has a great deal to do with that in setting the tone 
of the Nation.
    Ms. Regenhard. I would like to add, regarding your 
question, that we can never forget that fundamentalist Islamic 
militants hate us; and their main goal is to destroy this 
country. That being said, I favor a multi-disciplinary 
approach. In addition to the awareness and the hyper-vigilance 
that we must have against our enemies, I also favor a 
disciplinary approach of education and many other different 
ways to deal with this serious problem.
    But these people are in our midst. They proved that on 
September 11. The recent terrorist plot or the information that 
we found out only yesterday proves these people are here, they 
are taking pictures, they are planning, they are here. We have 
to do a better job of tracking these people, finding out where 
the money is going. We need to do that. That is No. 1.
    No. 2 and No. 3 can be the multi-disciplinary approach to 
try to change their philosophies and try to stop them from 
hating us and trying to kill us.
    Ms. Eckert. I have one short comment, and that it is an 
overall policy issue. It has to do with our dependence on 
foreign oil. I think that we really need some changes in that 
regard, because it has caused this country to make unholy 
alliances and support corrupt regimes. So I think we can--every 
American can address that by fuel consumption. But we can 
address it as a Nation by alternative sources of energy.
    Mr. Shays [presiding]. Thank you.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.064
    
    Mr. Shays. At this time, the Chair recognizes Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Ladies, let me just add my words of welcome and admiration. 
I am in awe of your courage, of how you have taken a tragic 
circumstance and made it a positive force in memory of your 
lost loved ones.
    One of you said earlier that your loved one died in vain. I 
understood the reference, but I think through your work and 
through hopefully the work of this Congress and this committee, 
we can ensure that on a very important level that doesn't 
happen. I know that is a great motivation for you.
    As I said, I am in awe of you. Thank you for gracing us 
here today.
    I think you heard a little bit earlier some of the concerns 
about civil liberties. I will say to my colleagues I have found 
some of the comments earlier today and pontificating rather 
interesting. The fact of the matter is we are going to have a 
real struggle in this Congress when we get to issues about 
civil liberties, about transgression of those individual 
rights.
    I think it was pretty well evidenced just a few weeks ago 
on the House floor where we had an initiative on the floor that 
would have placed sanctions on communities that today are 
refusing to deal with the Immigration and Naturalization 
Service and Customs and other Federal agencies to get ahold of 
this immigration issue. This House, some of my colleagues who 
have been most vociferous today in their support of this 
blanket initiative, voted that down. I was stunned.
    We actually sanctioned in the House communities in this 
Nation not dealing with immigration authorities. That is where 
we are, and we have to be I think as realistic as these ladies 
have been and the surviving families in general about the 
challenge.
    One of the greatest assets I think I found in the pages of 
this report is, as Senator Kerrey said, they identified the 
threat. It is Islamic fundamentalists, terrorism, and to call 
it anything else in the interest of PC is a huge, huge 
disservice. Whether we are talking about the Patriot Act, 
whether we are talking about the initiative to identify through 
biometrics or others who is coming into this Nation, who is 
leaving, etc., we need to get serious about the larger 
incentive. To the extent this report lets us do that and get 
beyond the political correctness of the moment, I think it is 
important.
    My simple question to you ladies would be, drawing on your 
experiences not just on that terrible day but through this 
process, what would you say to the American Civil Liberties 
Union, for example, that has already expressed some concerns 
about portions of this report, as to the need to step forward 
and judiciously but perhaps in different ways choose between 
those civil liberties that we all cherish and the laws and the 
initiatives contained in this report? Because it is going to be 
a question we have to deal with.
    Ms. Eckert. I think as long as there are checks and 
balances, there is oversight, there is recourse for people, 
that it doesn't get out of control. I think some of the 
sensitivities about our civil liberties are an extreme 
reaction. Let's say for privacy, because we don't have a lot of 
privacy. Let's say whether we fly or not, or took a particular 
airline flight. I know since I charged this to my credit card 
the record is there.
    So as a family member who suffered the direct consequences 
of lack of security, I tend to want to try the experiment of 
going further than we have in terms of information that is 
necessary in order to identify suspicious behavior. But, as I 
said, I think it is really necessary that there is oversight.
    I think another part of the equation I heard at one of the 
hearings, someone said we don't need all of this, because we 
pretty much know the 75,000 people or so who are suspects, and 
we should be focusing on that and not everybody in the entire 
country. So I think there is some merit to that.
    I just hope that whatever is put into place does it. You 
can have too much data, and it is not going to mean anything. 
So I think we should focus on those areas where people, 
terrorists, are known to utilize, for lack of a better word, 
methods and focus there, and I think we need to have protection 
of our civil liberties. We already do have that, but if there 
are going to be privacy issues that are more in the forefront, 
then I think we should strengthen the protections as well.
    Mr. McHugh. Thank you.
    Mr. Shays. At this time, the Chair would recognize Chris 
Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    We have covered a lot of territory today, and I just wanted 
to take my time to first thank you for your powerful and 
eloquent testimony and thank you for dedicating yourselves to 
doing everything in your power to prevent another September 11 
and to prevent other families from suffering the terrible loss 
that you have.
    My colleague, Mr. Tierney, talked about the potential 
timetable in the Congress, and I just want to underscore that 
point and also add that the parts of the reform that deal with 
congressional oversight can be done even more quickly in the 
sense they don't even require any interaction with the 
executive branch. We can do that on our own. It affects only 
the Congress. It does not necessarily require getting any 
testimony or input from the executive branch. Yet I predict 
that will be one of the most difficult pieces to put in place, 
even though it is totally under control and it is our own 
House.
    So I ask you as you monitor the situation to make sure you 
hold Congress's feet to the fire and not just with respect to 
the recommendations that deal with the executive branch but our 
own House as well.
    I think you know better than anybody that you were the 
driving force behind the creation of the 9/11 Commission. There 
are many people that did not want to see the Commission 
established. If it had not been for your voices, we would not 
have the Commission, we would not have the recommendations we 
have heard today from the Commission and from all of you.
    I think the same may well be true, unfortunately, with 
respect to the recommendations of the Commission. Without your 
continued driving force behind these recommendations, there is 
a real danger, as I know you recognize from your testimony, 
that many of them will be left by the wayside.
    Even today, you have heard differences, interpretations 
about the remarks made by the President yesterday. I am not 
going to try and interpret his remarks. I would just ask you in 
the days ahead, rather than us debating exactly what he meant, 
to make sure you work with us to seek clarification. Because, 
as Secretary Lehman said, this is not a Chinese menu. These are 
all parts of a whole, and if you take parts of the 
recommendation without enacting another part, it really does 
upset the balance within them.
    So thank you for your testimony. If you have anything to 
add with respect to your plans in putting--maintaining public 
pressure on the Congress, I would welcome it.
    Ms. Wiener. I thank you for your comments, and I want to 
assure you that all the families will push you as hard as we 
are going to push the President and the executive branch. There 
has already been discussion about how critically important 
congressional oversight is, and changes in the committee 
structure is discussed in the Commission's report. We will be 
pushing you as well, we promise.
    Ms. Regenhard. I would like to add something regarding the 
bills and regarding the procession of this legislation, it 
being posted on the Web site and the families during committee 
monitoring it. Certainly things such as immigration reform 
issues will be one of the types of things that we will be 
looking at and who is really supporting this and who is working 
against this.
    I wanted to say one word about immigration reform. The 
families of the victims are certainly concerned with illegal 
immigration. We certainly all--I am a child of immigrants 
myself. I am a first-generation American. My parents were legal 
immigrants to this country. So a lot of times when we speak 
about illegal immigration there is really a confusion regarding 
what exactly is said.
    We are certainly for legal immigration in this country. We 
support it. It is a country of immigrants. It will continue to 
be so, to our credit. But it is illegal immigration that has to 
be monitored, it has to be stopped, if we want to remain safe.
    Ms. Eckert. I think people forget we have an incredibly 
compassionate immigration policy. We do let an enormous number 
of people here legally, and I think we have to keep that in 
mind. It is important, and there are some programs--sometimes 
there is talk of amnesty as some kind of solution. Before we 
consider something like that, I think the public needs to know 
that Ramsey Yusef was a beneficiary--he is the World Trade 
Center bomber in 1993. He is a beneficiary of amnesty. So any 
of these programs have to be dealt with very carefully.
    Mr. Shays. Thank you.
    What we will do is Mr. Platts has agreed to allow Mr. Lynch 
to go. I think he has to catch a plane. You have the floor.
    Mr. Lynch. Thank you, Mr. Chairman, and my colleagues.
    I want to thank you and all the families who have been 
willing to come here and help this committee in its work.
    So much of today's testimony from the earlier panel and 
yourselves focuses on accountability, and so much of this 
report--and it is stunning in its simplicity and directness--
focuses on accountability. Whether it is the accountability 
created by intelligence sharing or immigration reform which you 
have spoken about, by oversight of the Commission or continuity 
of the Commission itself, it is the thread that runs through 
all of what you are talking about.
    I just wanted to ask you how important whatever we adopt in 
the end--and we all hope it is basically what the Commission 
has recommended here, but how important is that strain of 
accountability in getting the answers that you are looking for, 
at trying to find out about your loved ones and their last 
hours and in terms of getting some reliability in terms of 
every firefighter or every public servant who answers a similar 
call? How important is the fact that accountability be in that 
plan that we come up with eventually through this legislation?
    Ms. Regenhard. I would like to say that certainly 
accountability and responsibility are the hallmarks of a 
democratic society. In September 11, we have had an absence of 
accountability and responsibility, and the people who perished 
were pinnacles of accountability and responsibility. They led 
lives characterized by that. And yet people who caused their 
death, through omission or through commission, there has been 
no accountability and responsibility for all the levels, if it 
is the INS, the DOT, the CIA, the FBI. Members of our Family 
Steering Committee 2 years ago sat in the joint Intelligence 
Committee hearings, and we saw the FBI person with the hood on 
weeping and saying he tried to tell, he tried to share, people 
did not want to listen to him. He begged them and so on and so 
forth.
    Every time we hear that this plot could have been stopped 
in some way, or at least a bump in the road, it is a knife in 
the heart of the families.
    Yes, accountability and responsibility mean everything to 
us, everything, and unless we have that, what is the impetus? 
What is going to force people to do their job and to be 
responsible?
    Yes, I want that. My son lived his life by accountability 
and responsibility. He deserves that as a legacy to protect 
people in the future.
    Ms. Eckert. Well, I don't really know that I can add to 
that. The report is replete with a flavor that no one was in 
charge, so that the Commission did not make an effort or--I am 
sorry, they sidestepped I think for good reasons in order to 
focus on the reforms, but names were not named. But I think 
that is a one-time pass.
    I think we do have to have somebody who is in charge and 
who is accountable, and that is why the Director of National 
Intelligence position, with authority, is so important, because 
with that there will be accountability.
    Ms. Wiener. I think what Sally said is key, in that it is 
only through accountability that you can ensure that there is 
some mechanism that people have an incentive essentially to do 
the right thing, because if they do not, they will be held 
accountable. So accountability is certainly a key to make sure 
that this is not repeated.
    Mr. Lynch. I just want to emphasize what Mr. Tierney spoke 
of earlier, and that is the good that you can do, the moral 
imperative that you have at your command, the passion that you 
have, because of what you have gone through. Even though we 
talk incessantly about the politics and how things might get 
bogged down, there is no politics in the face of that type of 
testimony, the testimony that we have heard from you today, and 
it will fall away, it will fall away. We need the power of your 
passion and your conviction on behalf of your loved ones, and 
we need to have that power to help move this process.
    Thank you.
    Mr. Shays. I thank the gentleman.
    The Chair recognizes Mr. Platts.
    Mr. Platts. I want to add my words of sympathy to our 
witnesses as well as other family members here who have lost 
loved ones. As best we try, there is no way we can truly feel 
the emotions that you each do. Your courage in being here with 
us is certainly commendable, and your ability to take very 
personal tragedies and seek to turn them into public good is 
remarkable, and that is what you are doing by your persistence 
in working with the Commission and being here today and 
assuring all of us that you are going to continue to keep the 
pressure on.
    Because in the earlier panel Representative Van Hollen 
asked Senator Kerrey, based on his experience in the Senate, 
how can we succeed in transforming this place, Congress, the 
House and Senate. And I think the best answer to that question 
really is you, because you speak with that personal passion 
because it was your loved ones. That is important in overcoming 
the innate nature of this institution and its resistance to 
change and the turf battles and the unfortunate partisanship. 
Your message and your efforts will help us overcome that and 
truly embrace these recommendations, embrace the good work of 
the Commission and allow us to truly ensure a safer America.
    I personally thank you for your efforts. As the father of 
two young children who wants them to grow up in a safe and 
strong America, what we do with this effort is critical to 
their future. So we are looking out not just for the memories 
and legacies of your own loved ones but for the loved ones of 
all Americans. I commend you for that.
    Thank you, Mr. Chairman.
    Ms. Regenhard. Thank you very much.
    Mr. Shays. I thank the gentleman.
    [The prepared statement of Hon. Todd Russell Platts 
follows:]

[GRAPHIC] [TIFF OMITTED] T6537.068

    Mr. Shays. At this time, the Chair would recognize Ms. 
Watson.
    Ms. Watson. Again, we appreciate and we thank you for your 
sincere devotion to all of our causes.
    I just wanted to say very quickly, I feel the need to move 
very quickly, as you do, and I would hope that you would take 
an example of MADD, Mothers Against Drunk Driving, which 
originated in the capital, Sacramento, CA. Many years ago, a 
young girl was killed, and her mother organized a group of 
neighbors, and now they are nationwide.
    Ms. Eckert, you said that there are relatives all over the 
country. What I would like to see is you organize yourself into 
chapters around the country and you visit your representatives, 
wherever the locations are. You visit and you talk to each and 
every one of them about what you as family members, as 
Americans, as citizens, would like to have them do to represent 
you.
    MADD, as you know, is a very effective and instrumental 
organization that has been the basis of many of the laws we 
have introduced not only in California but across the country. 
I see you as being a model for that kind of organization. I 
would like you to followup. My staff is going to give you--I 
have some more information for the three of you--I will give to 
you privately. So we will see you afterwards.
    Thank you. I will be leaving shortly. But I hope we can 
stay in close touch.
    Ms. Eckert. A real quick comment on that, it is funny, we 
realize we need to take quick steps. There are 12 of us on this 
committee, and we are here for the long haul. But we could use 
reinforcements. I think you have made an excellent suggestion, 
and we have actually been talking about kind of a subcommittee. 
God knows, we don't want to get too bureaucratic, but we do 
know that there is a need to, as the Commission is doing, 
traveling the country and explaining to people exactly what 
this is all about. So it sounds like an excellent suggestion.
    Ms. Watson. Some distant cousin on the West Coast of 
California could be the surrogate and could visit my office and 
the office of our large delegation of 54, their offices 
respectively.
    Ms. Regenhard. I wanted to say one of the family groups, 9/
11 Families for a Secure America, does visit individual 
Congresspeople to advocate for immigration reform and driver's 
license reform. It is a difficult job because they are not 
always, you know, received the way they would like to be and a 
lot of times their goals are misinterpreted. But I think it is 
a wonderful idea, and we have to continue to do that. Thank you 
very much for that suggestion.
    Ms. Wiener. I also want to thank you. Rest assured, 
actually, there are a number of family groups out there that we 
are all trying to coordinate, and a number of us do maintain 
data bases that we have been able to put together of family 
members beyond this geographic area and are trying to locate 
families throughout the country so that we can be--we are in, I 
would imagine, almost every district when you span out to 
cousins and uncles and aunts. So we will make sure we fan out 
as deep as we can and try to reach everyone.
    Ms. Watson. I commend and congratulate you on your efforts, 
your compassion. We all share your feelings. I know that 
something good is going to come out of this. Thank you very 
much.
    Mr. Shays. Before we go to our next panel, is there any 
last comment, brief comment, you would like to put on the 
record?
    Ms. Regenhard. Yes. I would like to acknowledge the 
firefighter families who have come here today. I would like to 
ask them to stand up.
    Mr. Shays. Let's have all the families who came stand up.
    Ms. Regenhard. As well as the civilian families who joined 
us today. Please stand up.
    Mr. Shays. You all have been wonderful witnesses. I would 
like to give you an opportunity to make closing comments.
    Ms. Eckert. Thank you for arranging this, Chairman Davis 
and the whole committee, and for hearing us.
    I think what I would like you to come away with is not a 
sense of just almost why is this happening to me at this 
particular time but that you have an opportunity to go down in 
history as performing something so noble and so urgent and so 
monumental, that you also have an opportunity of going down in 
history for doing the right thing. I would like to leave you 
with that thought.
    Mr. Shays. Thank you.
    Ms. Wiener. I also wanted to just say thank you. We are so 
grateful to you for taking time out of your recess and coming 
back.
    I also wanted to echo what Beverly said, that you have a 
unique opportunity before you; and we ask you to please not 
think of yourselves as Democrats or Republicans but to think of 
yourselves as Americans and leaders trying to do the right 
thing and know that we are here with you standing beside you 
and behind you and in front of you, everywhere we need to be, 
in order to help you move whatever legislation needs to move 
forward. We will be there with you to help in any way we can.
    Ms. Regenhard. I would like to thank you also for 
everything you are doing, and I would like to end by saying God 
bless America. Thank you.
    Mr. Shays. Thank you very much. We have many reasons to say 
God bless America, and we have a great deal of gratitude for 
all three of your testimony and remembrance and the legacy of 
your loved ones.
    Ms. Eckert, we do know we have a solemn responsibility and 
a tremendous opportunity. There would not have been a 9/11 
Commission without the work of the families of September 11th. 
I know that role continues, and you give us a great deal of 
strength and pride in our country. Thank you all very much.
    At this time, we will adjourn this panel.
    We have two more panels. I am thinking that we will ask 
them to join collectively--you know what? I just want to say it 
is now almost 3 o'clock. We will have the GAO go separately, 
and we will do it that way.
    If you would stand, Mr. David Walker, thank you very much 
for being here. I will swear you in. It is our policy to swear 
witnesses in.
    [Witness sworn.]
    Mr. Shays. Let me say, Mr. Walker, it is right that you 
testify individually. We will have the next panel, and we will 
hear them separately. But it is important that your testimony 
be singularly focused on. We thank you for coming and thank you 
for your patience. You could have asked to speak sooner, and we 
appreciate that you waited to hear from the families and to 
hear from the Commission.
    So, with that, you have the floor. We welcome your 
testimony.

  STATEMENT OF DAVID WALKER, COMPTROLLER GENERAL, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Walker. Thank you, Mr. Vice Chairman, members of the 
committee. It is good to be before you to speak to certain 
recommendations of the 9/11 Commission report.
    As you know, GAO is in the business of trying to help 
maximize the government's performance and assure its 
accountability for the benefit of the American people.
    Mr. Shays. I am going to ask you to start over again and 
get that mic closer to you.
    Mr. Walker. Is that better?
    Mr. Shays. Staff, move that other mic away.
    Mr. Walker. Mr. Chairman, I am pleased to be with you and 
other members to discuss certain aspects of the 9/11 Commission 
recommendations at your request.
    As you know, GAO is in the business of helping to assure to 
maximize the performance of the government and an ensure its 
accountability for the benefit of the American people. We 
issued over 100 reports on the issue of Homeland Security 
before September 11, 2001, and we have issued over 200 since 
then, with hundreds of recommendations and almost 100 hearings 
before the Congress.
    I have been asked to address two issues and would like my 
entire statement to be included in the record so I can 
summarize, if that is all right, Mr. Chairman.
    Mr. Shays. Yes, and don't feel you have to rush. I should 
not say it is getting late. You just take your time and we will 
take each issue as it comes.
    Mr. Walker. Thank you. I have been asked to address two 
issues, basically the need to enhance information sharing and 
analysis and also to discuss some of the reorganization and 
transformation needs dealing with the intelligence community.
    As we all know, yesterday, on August 2, the President asked 
the Congress to create a National Intelligence Director 
position to be the principal intelligence adviser appointed by 
the President with the advice and consent of the Senate and 
serving at the pleasure of the President.
    He also announced that he will establish an NCTC whose 
director would report to the National Intelligence Director and 
that this center would build upon the analytic work of the 
existing terrorist threat integration center.
    These are positive steps. However, it is important to note 
there are substantive differences between the President's 
proposal and the Commission's recommendations.
    With regard to information sharing, there is a continuing, 
critical and heightened need for better and more effective and 
more comprehensive information sharing. We agree that the 
intelligence community needs to move from a culture of need to 
know to need to share.
    The 9/11 Commission has made observations regarding 
information sharing and recommended procedures to provide 
incentives for sharing and to create a trusted information 
network. Many of the Commission's recommendations address the 
need to improve information and intelligence collection sharing 
and analysis within the intelligence community itself.
    It is important, however, to note that we must not lose 
sight of the fact that the purpose of improving information 
analysis and sharing is to provide better information not only 
throughout the Federal Government but also to State and local 
governments, its private sector and to America's citizens so 
that collectively we are all better prepared.
    I want to make it clear that such information sharing must 
protect confidential sources and methods and we do not propose 
any changes that would infringe upon those important 
protections.
    Nonetheless, in order to be successful in this area, the 
Federal Government must partner with a variety of 
organizations, both domestic and international, in the public 
sector, the private sector and the not-for-profit sector. As 
you know, Mr. Chairman, GAO has done quite a bit of work in 
this area in connection with information sharing, and I have 
summarized that in my full statement, but I will move on to the 
organization transformation in the interest of time.
    With regard to the organization and transformation issues, 
on the basis of GAO's work in both the public and the private 
sector over many years and in my own fairly extensive change 
management experience, it is clear to me that many of the 
challenges that the intelligence community faces are similar or 
identical to the transformation challenges applicable to many 
other Federal agencies, including the GAO.
    As I touched on earlier, while the intelligence agencies 
are in a different line of businesses than other Federal 
agencies, they face the same challenges when it comes to 
strategic planning, organizational alignment, budgeting, human 
capital strategy, management and information technology, 
finances, knowledge management and change management. They are 
generic challenges faced by every single agency and government.
    The intelligence community for years has said we are 
different. In some ways, they are. In most ways, they are not.
    For the intelligence community, effectively addressing 
these basic business transformation challenges will require 
action relating to five key dimensions--namely, structure, 
people, process, technology and partnerships. It will also 
require a rethinking and cultural transformation in connection 
with intelligence activities both in the executive branch and 
the Congress.
    With regard to the structure dimension, there are many 
organizational units within the executive branch and in the 
Congress with responsibilities in the intelligence and homeland 
security areas. Basic organizational and management principles 
dictate that, absent a clear and compelling need for 
competition or checks and balances, there is a need to minimize 
the number of entities and levels in decisionmaking, oversight 
and other related activities.
    In addition, irrespective of how many units and levels are 
involved, someone has to be in charge of all key planning, 
budgeting and operational activities. One person should be 
responsible and accountable for all key intelligence activities 
within the executive branch, and that person should report 
directly to the President. This person must also have 
substantive strategic planning, budget, operational integration 
and accountability responsibilities and authorities for the 
entire intelligence community in order to be effective. If this 
person has an out-box but no in-box, we are in trouble.
    In addition, this person should be appointed by the 
President and confirmed by the Senate in order to help 
facilitate success and assure effective oversight.
    With regard to the oversight structure of the Congress, the 
9/11 Commission noted that there are numerous players involved 
in intelligence activities and yet not enough effective 
oversight is being done.
    With regard to people dimension, any entity is only as good 
as its people. As I stated earlier, the intelligence community 
is no exception. In fact, they are in the knowledge business.
    Believe it or not, Mr. Chairman, there is a tremendous 
amount of parallel between the GAO and the intelligence 
community. The reason I say that is the intelligence community 
is supposed be in the business of getting facts and conducting 
professional, objective analysis that is nonpartisan, non-
ideological, fair and balanced. And, in fact, our No. 1 
competitor on college campuses today for talent is the CIA and 
the FBI. So there are a lot of analogies and a lot of common 
denominators that can be shared.
    In addition to having the right people and the right tone 
at the top, agencies need to develop and execute work force 
strategies and plans helping to ensure that they have the right 
people with the right skills and the required numbers to 
achieve their missions. They also need to align their 
institutional unit and individual performance measurement 
reward systems in order to effectuate the needed 
transformation.
    With regard to procession and technology dimensions, steps 
need to be taken to streamline and expedite the processes and 
integrate the information systems that are needed in order to 
expeditiously analyze and effectively disseminate the 
tremendous amount of intelligence and other information 
available to the intelligence community.
    With regard to partnerships, it will take the combined 
efforts of many parties crossing many sectors and geopolitical 
boundaries over many years to effectively address our Homeland 
Security challenges, but we must start immediately.
    With regard to the cultural dimension, this is both the 
softness and the hardest to deal with. By the softest, I mean 
that it involves attitudes and actions of people and entities. 
By the hardest, I mean the changing, longstanding cultures can 
be a huge challenge, especially if the efforts involve 
organizational changes in order to streamline, integrate and 
improve related capabilities and abilities and especially if it 
involves changing power bases, responsibility and authority, 
whether it be in the executive branch or in the legislative 
branch.
    In conclusion, we at GAO stand ready to constructively 
engage with the intelligence community to share our significant 
government transformation and management knowledge and 
experience in order to help members of the community help 
themselves engage in a much-needed and long-overdue 
transformation effort. We also stand ready to help the Congress 
enhance its oversight activities over the intelligence 
community, which in our view represents an essential element of 
an effective transformation approach.
    In this regard, we have the people with the skills, 
experience, knowledge and clearances to make a difference for 
the Congress and the country.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions that you or other Members may have.
    Mr. Shays. Thank you, Mr. Walker.
    [The prepared statement of Mr. Walker follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.069
    
    [GRAPHIC] [TIFF OMITTED] T6537.070
    
    [GRAPHIC] [TIFF OMITTED] T6537.071
    
    [GRAPHIC] [TIFF OMITTED] T6537.072
    
    [GRAPHIC] [TIFF OMITTED] T6537.073
    
    [GRAPHIC] [TIFF OMITTED] T6537.074
    
    [GRAPHIC] [TIFF OMITTED] T6537.075
    
    [GRAPHIC] [TIFF OMITTED] T6537.076
    
    [GRAPHIC] [TIFF OMITTED] T6537.077
    
    [GRAPHIC] [TIFF OMITTED] T6537.078
    
    [GRAPHIC] [TIFF OMITTED] T6537.079
    
    [GRAPHIC] [TIFF OMITTED] T6537.080
    
    [GRAPHIC] [TIFF OMITTED] T6537.081
    
    [GRAPHIC] [TIFF OMITTED] T6537.082
    
    [GRAPHIC] [TIFF OMITTED] T6537.083
    
    [GRAPHIC] [TIFF OMITTED] T6537.084
    
    [GRAPHIC] [TIFF OMITTED] T6537.085
    
    [GRAPHIC] [TIFF OMITTED] T6537.086
    
    [GRAPHIC] [TIFF OMITTED] T6537.087
    
    [GRAPHIC] [TIFF OMITTED] T6537.088
    
    [GRAPHIC] [TIFF OMITTED] T6537.089
    
    [GRAPHIC] [TIFF OMITTED] T6537.092
    
    [GRAPHIC] [TIFF OMITTED] T6537.093
    
    [GRAPHIC] [TIFF OMITTED] T6537.094
    
    [GRAPHIC] [TIFF OMITTED] T6537.095
    
    [GRAPHIC] [TIFF OMITTED] T6537.096
    
    [GRAPHIC] [TIFF OMITTED] T6537.097
    
    [GRAPHIC] [TIFF OMITTED] T6537.098
    
    Mr. Shays. That was an excellent statement. At least for 
me, it put in perspective some questions I have.
    For instance, you add a director. Aren't you adding a 
layer? The message I am hearing from you is a person in charge 
could eliminate a lot of layers in the process of running an 
agency or in charge of being in charge of a variety of 
agencies.
    I am interested to know, and I am going to expose my 
ignorance here, technically, my subcommittee has jurisdiction 
of the intelligence community in Government Reform for 
programs, for ways to cut waste, abuse and fraud. But whenever 
we want the CIA to testify, they would get a permission slip 
from the Intelligence Committee that said they didn't have to 
testify. One of the times was we wanted to know how well they 
communicated with the FBI. We weren't looking at sources and 
methods.
    What kind of cooperation does the GAO get from the 
intelligence community? Do you have oversight? Are you able to 
get in and see what you need to? Is it a constant battle, and 
do you usually win those battles?
    Mr. Walker. Mr. Chairman, with the exception of certain 
accounts and activities, so-called black accounts or funds, GAO 
has extensive oversight authority with regard to the 
intelligence community.
    However, during the past number of years, we have not had 
extensive involvement in doing work in the intelligence 
community for two reasons: No. 1, tremendous resistance from 
the entire intelligence community, which resistance was 
manifested in a memo by the then CIA Director in 1994; and, 
second, because there has been a lack of request and support 
from the intelligence committees to have oversight in this area 
for a number of years. This is a problem.
    As I mentioned to you before, Mr. Chairman, sources and 
methods are one thing. As you acknowledged yourself, you 
weren't looking at getting into sources and methods, we aren't 
interested in getting into sources and methods, but the fact of 
the matter is a vast majority of the challenges that the 
intelligence community faces are the same challenges that every 
other government agency faces. They need attention. They need 
oversight.
    Mr. Shays. When I met with Governor Kane and also spoke 
with Lee Hamilton, they both expressed concern before the 
report had come out with all the documents that were 
classified. I think Lee Hamilton was more aware that was 
happening, but Governor Kane was astounded at the documents he 
read that basically seemed so mundane. And one of their 
recommendations is to get rid of some of that so you know what 
the jewels are that need to be shared, and this other 
information can be out there, digested by a community, a 
democracy that doesn't get into sources and methods and so on. 
Can you speak to that issue?
    Mr. Walker. Well, yes. I think there's no question that we 
have to look at the basis for classification. As you know, 
right now each agency makes its own decisions with regard to 
whether and on what basis to classify information. And there 
has been a tendency in the past--as this committee noted in 
calling this hearing, there's been a tendency to hoard that 
information, and there's been a tendency to only provide it to 
those who ``need to know.'' And there's been a cultural barrier 
to sharing information, and there's also been a cultural 
barrier to providing a reasonable degree of transparency.
    Let me state that there is absolutely no question that 
sources and methods need to be protected. However, that being 
stated, there is a need for additional transparency in this 
area. In order for a healthy democracy to work, you need 
incentives for people to do the right thing, reasonable 
transparency to provide assurance they will because someone is 
looking, and appropriate accountability if they do not do the 
right thing. And we have work to do in these areas.
    Mr. Shays. What would be the benefit if you were able to 
see less--if there was more openness and less classified 
documents, what would be some of the benefits that would occur 
from that, and what are some of the disadvantages by having 
classified documents that maybe simply don't need to be 
classified?
    Mr. Walker. Well, again, recognizing the need to protect 
sources and methods, that's of critical importance, and 
focusing the classification on that, to protect sources and 
methods, that needs to be protected. However, I think we've 
seen a tendency for people to classify beyond what is 
essential.
    Mr. Shays. I'm not asking that question. I want to know 
benefit.
    Mr. Walker. The benefit? OK, the benefit would be, quite 
frankly, that the Congress would be in a much more effective 
position to conduct meaningful and constructive oversight. 
Right now, the Congress is not in an effective position to do 
that, for a lot of reasons, and that's one.
    Mr. Shays. My time has come to an end. Let me call on Mrs. 
Maloney. You have the floor for 5 minutes.
    Mrs. Maloney. Thank you very much, and welcome.
    Mr. Walker, I have here a report that you issued on July 2, 
2004 to Jim Turner, who is the ranking member of the Homeland 
Security Committee. He asked you to assemble in one place all 
of the recommendations to improve the homeland security of our 
Nation so that we could assess where we are 3 years after 
September 11, and in this report you identify 104 
recommendations that you consider key to the agency's ability 
to effectively secure homeland security for our Nation. You 
have made these recommendations, you compile them over 3 years, 
and is that a fair statement, that you have issued this report 
with 104 recommendations; is that correct?
    Mr. Walker. We have. I don't recall the exact number. I 
will say it is my understanding that we've issued over 500 
recommendations in total, of which at least 100 remain 
outstanding.
    Mrs. Maloney. Well, your report states that as of June 28 
only 40 of the 104 in this particular report--you may have 
issued other reports--but in this particular report there are 
104 recommendations, and only 40 of them have been implemented. 
That means there are 64 specific recommendations that to date 
are unfulfilled but that you and your department consider key 
to the homeland security of our country, to protect our people, 
our infrastructure; is that correct?
    Mr. Walker. I don't have the numbers in front of me, but in 
general terms they sound reasonable.
    Mrs. Maloney. Well, I'll put it in the record.
    Mr. Walker. I'll be happy to do that.
    Mrs. Maloney. Has anything changed over the last month 
since you issued this report to Congressman Turner with respect 
to the status of these recommendations?
    Mr. Walker. I have not been given an update, but let me 
just assure you that one of the things we do at GAO is when we 
make recommendations we actively followup on those 
recommendations, because one of our basic success measures is 
to what extent do they adopt them and, if so, what benefit 
occurs from that.
    Mrs. Maloney. Your report states that you issued 12 
recommendations to the Information Analysis and Infrastructure 
Protection Directorate, and these involve both intelligence-
related functions and infrastructure information. But your 
report also states that none of your 12 recommendations to this 
office has been implemented. Is that correct?
    Mr. Walker. That's my understanding, not fully implemented. 
My understanding is that there has been some progress. In some 
cases, they have partially implemented but not fully 
implemented.
    Mrs. Maloney. Your report also states that there are 33 
pending recommendations within the Border and Transportation 
Security Directorate alone, and your recommendations there are 
key to reducing security vulnerabilities and passenger 
screening, border security, and ports. What is the status of 
these 33 recommendations?
    I have them here, and I'm particularly interested in them. 
I just want to mention some of them. One is to develop a risk-
based plan that specifically addresses the security of the 
Nation's rail infrastructure. Has that been done?
    Mr. Walker. To my knowledge, it has not been completed.
    Mrs. Maloney. Another one you recommended was to develop a 
comprehensive plan for air cargo security. Has that been done?
    Mr. Walker. I would have to check to find out. To my 
knowledge, it has not been completed.
    Mrs. Maloney. And it goes on and on with specific examples.
    A great number of these recommendations, especially those 
that relate to border security, were reiterated and became part 
of the 9/11 Commission report; is that correct?
    Mr. Walker. Many of them were incorporated in the 9/11 
report; that's correct.
    Mrs. Maloney. But you made many, if not all, of the 
recommendations before the 9/11 Commission report; is that 
correct?
    Mr. Walker. In many cases, that is true.
    Mrs. Maloney. Well, my question basically is, do you have 
any recommendations for how we, as Congress, can help instill a 
greater sense of urgency at the Department of Homeland Security 
to implement both your recommendations and those of the 9/11 
Commission? You outline these in great detail. Many of them are 
part of the report. Most of them have not been implemented.
    Mr. Walker. Well, I think it's important to note they have 
implemented a number of recommendations. We continue to 
followup. The Department of Homeland Security has challenges 
along a couple of dimensions, one of which is to make sure they 
are taking the needed steps to enhance our homeland security. 
The other is to try to be able to integrate 22 to 23 different 
departments and agencies in what is the largest reorganization 
since the establishment of the Defense Department in 1947.
    I believe, relating to the subject of today's hearing, that 
there are at least four things that need to be done to help in 
this regard: No. 1, the adoption of a National Intelligence 
Director I think is of critical importance, but it has to be a 
substantive position with real responsibilities and authority; 
second, the establishment of the NCTC as a way to make progress 
in integrating activities, rather than just coordinating 
activities; third, to look at congressional reorganization and 
to enhance congressional oversight; and, fourth, and frankly 
pretty basically, to complete a comprehensive threat and risk 
assessment in the area of homeland security and to use that as 
a basis to finalize the Department of Homeland Security's 
strategic plan for allocation of resources for determination of 
performance measures and for effective oversight by the 
Congress.
    Mrs. Maloney. Thank you. Actually, the acting chairman and 
I have introduced legislation to actually achieve just that.
    My time has expired. Thank you for your report.
    Mr. Shays. Thank you. Thank the gentlewoman.
    Mr. Schrock, you have the floor.
    Mr. Schrock. Thank you, Mr. Chairman.
    General Walker, thank you. I agree with everything you 
said. But the interesting thing is, we can sit here in these 
hearings all day long, but what are we going to do about it? 
When the rubber meets the road and we have to stick this voting 
card in to vote yes or no, what are we going to do?
    You've sort of insinuated, I believe, that we don't have 
the ability to take charge of things, and I think you're right. 
We've rolled over and played dead. If you don't think so, the 
Supreme Court legislates from the bench and the Federal courts 
legislate from the bench. They're taking away the 
responsibility we have. The way to get some of these people 
under control is just to subpoena them and bring them up here 
and make them do what we tell them to do, but we haven't done 
that, and I think that's why we have a lot of the problems that 
we have.
    Our borders. What are we going to do about our borders? 
Political correctness seems to be the name of the game anymore. 
I was only privileged to serve with Congressman Bob Ehrlich a 
short time. He is now the Governor of Maryland, and he finally 
said, political correctness be damned, we're going to do what's 
right for the people of Maryland and people like that.
    It's time we get over that sort of stuff, because it is 
this political correctness that's getting us in trouble. You'll 
hear Members say they are willing to do certain things when 
they get on the floor, but political correctness will dictate 
otherwise when it comes time to vote, and they won't get things 
done.
    But we have extremists in this country. We are really in 
deep trouble in this country if we don't start listening to 
people like you and others and this 9/11 Commission that has 
put together this magnificent document. I don't know where we 
go from here. I am generally worried and generally concerned 
about that. And this committee can sit here all day, but unless 
we're willing to take action, strong action, then we will fall 
back into the same old trap we were in before.
    So I really appreciate your being here and your comments, 
because I agree with everything you say. And I don't usually 
agree with everything everybody says, but I really agree with 
what you're saying.
    Mr. Walker. Thank you, Mr. Schrock. If I can comment 
briefly----
    Mr. Schrock. Yes, please.
    Mr. Walker [continuing]. It might be helpful.
    First, I think if you look at all the recommendations of 
the 9/11 Commission, many of those recommendations don't 
require legislation.
    Mr. Schrock. That's right.
    Mr. Walker. So I think one of the first things that needs 
to be done is to go through and analyze which one of those 
would require legislation and which one wouldn't.
    Mr. Shays. Would the gentleman just yield a second?
    Mr. Schrock. Sure.
    Mr. Shays. We would like that document. We would like you 
to go through and tell us specifically what is an 
administrative effort, a regulation, Executive order, law, or a 
rule change. That would be very helpful.
    Mr. Walker. Mr. Chairman, I will be happy to talk to our 
staff and see if we can come up with a first cut as to which 
requires legislation versus those that could be done through 
executive action.
    Mr. Schrock. Mr. Chairman, we might be surprised. There 
might be more that can be done without legislation than we 
imagine.
    Mr. Walker. I think there are quite a few that can be done 
without legislation, so we'll do that. That's No. 1.
    No. 2, you then are going to have to obviously prioritize 
what is most important.
    I mentioned four things I felt are critically important. Of 
those four things, two require legislation, one requires 
congressional action to organize itself and to reinvigorate 
oversight, and the other----
    Mr. Shays. Can you be specific which ones are which?
    Mr. Walker. The two that I mentioned that I think require 
legislation would be the creation of the National Intelligence 
Director, that position, to make sure it's substantive, to make 
sure it meets certain criteria. Certain aspects of the NCTC may 
require legislation. For example, the fact that they want to 
create the deputies, the deputy positions to have certain 
responsibilities. That might require certain legislation.
    The third item I talked about was Congress reorganizing 
itself and reinvigorating oversight. That would not require 
legislation. The Congress could do that on its own.
    Mr. Schrock. But will we?
    Mr. Walker. That's a good question.
    And, last, the need for the Department of Homeland Security 
to finalize its comprehensive threat and risk assessment and 
its strategic plan. That, obviously, doesn't require 
legislation.
    So what items require legislation? Realistically, you're 
going to have to focus on the most important things first and 
to address certain issues on an installment basis. But, in the 
final analysis, the Congress has a responsibility to address 
all recommendations of the 9/11 Commission and make a conscious 
decision as to whether or not it is going to accept them and, 
if not, why not.
    Mr. Schrock. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    Mr. Tierney, you have the floor, if you would like to ask 
questions.
    Mr. Tierney. Thank you, Mr. Chairman.
    Thank you, Mr. Walker, for your usual great testimony and 
hard work that you do.
    I want to ask you a little about a letter that was actually 
sent from this committee to the administration on October 15, 
2001. It was a bipartisan letter that then Chairman Dan Burton 
and the Ranking Member Henry Waxman, as well as Representative 
Shays and the ranking member of the subcommittee Dennis 
Kucinich, all signed onto.
    It requested the administration to conduct a comprehensive 
threat risk and vulnerability assessment, to prioritize our 
spending as part of the overall strategy to counterterrorism. 
It was based on large part on your agency's work. The basic 
idea which you have urged, I know, at numerous hearings on 
occasions before September 11 as well as afterwards was that we 
don't know whether we're spending correctly on counterterrorism 
or Homeland Security efforts until we have a threat risk and 
vulnerability assessment. Am I right in making that judgment?
    Mr. Walker. That's correct. It's pretty fundamental.
    Mr. Tierney. My concern has been and continues to be, as I 
think it has been with members on both sides of the aisle on 
this particular committee, we never received a response. Today, 
nearly 3 years later, the Commission is making the same 
recommendations.
    When I look at page 428: The Department of Homeland 
Security should regularly assess the types of threats the 
country faces. Further on page 428: The Department of Defense 
should regularly assess the adequacy of the Northern Command 
strategies of planning. Page 396: Homeland Security assistance 
should be based strictly on an assessment of risks and 
vulnerabilities.
    Now, Mr. Walker, you and numerous others at the GAO have 
been monitoring the progress of the administration on this. Can 
you tell me why this recommendation is still necessary?
    Mr. Walker. Well, first, significant progress has been made 
in developing threat and risk assessments for certain sectors, 
but the Department of Homeland Security has yet to complete a 
comprehensive and integrated threat and risk assessment, which 
is important, which would also be used to inform a strategic 
plan, which would be used as a basis for allocating limited 
resources to finding desirable outcomes and holding people 
accountable for results both within the executive branch as 
well as congressional oversight. So that recommendation is 
still outstanding.
    As you know, Mr. Tierney, the transformation of the 
Department of Homeland Security is on GAO's high-risk list, and 
there's good reason for that.
    Mr. Tierney. And the reason is?
    Mr. Walker. Well, the reason is, because, No. 1, they have 
a massive undertaking, including to complete this comprehensive 
threat and risk assessment, to do a strategic plan which ends 
up making sure that we're focusing on the most important 
things, because there's no such thing as zero risk and we have 
finite resources; and, second, because they have to integrate 
the policies, the systems, the practices of 22-plus agencies 
that were not together until within the last 2 years, many of 
which, quite frankly, their primary mission was not homeland 
security before September 11, 2001, and yet most of which it 
either is their primary mission now or clearly a major part of 
their mission.
    Mr. Tierney. I just asked you that to drive the point home, 
more than anything here. This committee, as I said before, is 
bipartisan. This is not a partisan statement. The letters that 
have gone out, the votes that we've taken, the hearings and 
meetings that we've held continue to try to pound home that 
point, that we think these priorities have to be set.
    Independent commissions--I think of the Bremer Commission, 
the Hart-Rudman Commission--have all made the same point, but, 
3 years later, we're still waiting for that to be done. So 
let's hope that this hearing as well as others, and the 
Commission report, may bring that point home and we get 
something done on that. Because, frankly, it's really amazing 
that Congress has continued to appropriate money and purport to 
give direction to different people and they haven't really had 
that kind of assessment from which to work.
    Let me ask you, from your experience and your observations 
as well, the Commission has advised that the Congress 
reorganize itself and set up either a joint committee on 
intelligence for the House and the Senate or individual 
committees within the House and the Senate that have the goal 
that the Commission set forth and to have budgetary control and 
things of that nature. From your perspective, is there a 
preference as to which would work more effectively or better?
    Mr. Walker. I hesitate to suggest exactly what the right 
answer is for the Congress. I will tell you this. I think 
there's absolutely no question that you need to consolidate. 
You need to have as few as necessary in order to get the job 
done and yet provide important checks and balances.
    Let me give you an example to what I mean by that. To the 
extent that you have a committee focused on intelligence and 
possibly one focused on homeland security, I would respectfully 
suggest that when you're dealing with issues like personal 
privacy and individual liberty, that they should be in a 
different committee, because you probably want checks and 
balances between the security and intelligence and those other 
issues. They both need to be considered, but you probably want 
the checks and balances. So I would say as few committees as 
possible.
    I think it's interesting to note that within a few days of 
the 9/11 Commission issuing its report there are numerous 
committees holding hearings. Now, in part that symbolizes the 
need to try to consolidate things. On the other hand, in 
fairness, I think if you look at the scope of the 9/11 
Commission's recommendations, they cover a lot of areas. They 
cover foreign policy, they cover a variety of different areas, 
and all of those cannot be and should not be consolidated into 
one committee, obviously.
    Mr. Tierney. Thank you.
    Mr. Schrock [presiding]. Thank you.
    I know you said, General Walker, you didn't think that--you 
didn't want to be so presumptuous as to tell Congress what to 
do. I wish you would. As Mr. Tierney said, we appropriate, but 
we don't watch over these folks, and we have to get this under 
control and under control fast.
    Mr. Walker. There's absolutely no question that there needs 
to be much more extensive oversight than has been the case, and 
we can help the Congress in that regard, but we can do it in a 
constructive way. It doesn't have to be adversarial oversight.
    Mr. Schrock. Well, I'm not sure I agree with that. A little 
brickbat once in a while.
    Mr. Turner.
    Mr. Turner. Mr. Walker, we have had discussions about the 
legislative versus administrative action, but I was wondering 
if you could comment on, in reviewing the Commission's report, 
what do you consider to be the most important recommendations 
and what recommendations, if any, do you disagree with?
    Mr. Walker. Well, I have not had an opportunity to analyze 
each and every recommendation, so I wouldn't want to say if I 
disagreed with any. I agree with many.
    The four actions that I mentioned that I believe are 
arguably the most important are, No. 1, to create the National 
Intelligence Director position and to make it a substantive 
position and to make sure that it is consistent with the 
criteria that I articulated in my statement; second, to create 
this National Counterterrorism Center to be able to integrate 
activities of the existing intelligence community without 
necessarily restructuring the entities below that; third, to 
look at congressional reorganization and invigorate the 
oversight activities; and, fourth, for the Department of 
Homeland Security to complete its comprehensive threat and risk 
assessment, its related strategic plan, which would serve as a 
basis to allocate its limited resources and to help enhance 
congressional oversight.
    So those would be four thoughts.
    Mr. Turner. Thank you.
    Mr. Schrock. Mr. Kanjorski.
    Mr. Kanjorski. Thank you, Mr. Chairman.
    Mr. Walker, when I visit my district, I often get 
questioned on just what we're doing; and listening to your 
testimony, we're still drawing up plans and organizational 
charts 3 years after the fact. It sort of reminds me of 
something that struck me in the Commission's report that on the 
President's desk the day of September 11 they had just spent 7 
or 8 months reorganizing the administration's new approach to 
terrorism.
    Would it be reasonable to say that we just may be muscle 
bound as a government and incapable of responding to this type 
of a threat? Or at least over the last 3 years we haven't 
displayed a potential to do that.
    Mr. Walker. Candidly, Congressman, as I touched on before, 
I believe a lot of the challenges that the Homeland Security 
Department and the intelligence community face are challenges 
that are faced by virtually every major department and agency 
in this government. And to a great extent my experience, having 
headed two executive branch agencies and now one legislative 
branch agency, is that a large part of government is structured 
to focus on challenges that existed and to try to address those 
challenges based upon means and methods and management models 
that existed in the 1950's and the 1960's. We are in need of a 
fundamental review reassessment and reengineering of how we do 
business.
    Mr. Kanjorski. I understand that, but struggling over the 
management in a time of peril, and taking 2\1/2\ or 3 years to 
do it strikes me as a pretty slow pace if in fact we're faced 
with the threats that we periodically hear from Homeland 
Security and from other agencies of the Federal Government. 
Seems to me we're in the fourth quarter, the last 2 minutes, 
and we're still drawing up the game plan.
    Mr. Walker. Well, as you may recall, before September 11, 
2001, the GAO had recommended the creation of an Office of 
Homeland Security within the President to try to bring together 
some of these things. My view is that a lot of the things that 
are going to have to happen, that require more fundamental 
transformation, are going to take time. To engage in a 
fundamental transformation of any organization is a 5 to 7-year 
effort at a minimum, no matter whether you're in the public 
sector, private sector, or not-for-profit sector.
    As a result, that's why I think the idea of having a 
National Intelligence Director, trying to move with this NCTC 
concept and to do some of the things I talked about are the 
most pragmatic and the most meaningful things we can do short 
term in order to try to help us get from where we are to where 
we need to be, while you can take more time to determine 
whether you want to do other things that may take considerably 
longer.
    Mr. Kanjorski. You talked about resources. Has anybody made 
an analysis of the amount of money that will be necessary to 
provide border control, shipping control, rail control 
protection, etc., for the country? Has that analysis been done?
    Mr. Walker. Not to my knowledge.
    Mr. Kanjorski. We really don't know then what the cost of 
the war on terrorism is?
    Mr. Walker. Part of the thing that has to be completed is 
to engage in a comprehensive threat and risk assessment, 
because there's no such thing as zero risk in today's world, 
and yet we have finite resources. So one of the reasons we felt 
so strongly to complete that is that it would then be able to 
form a discussion and debate within the executive branch and 
with the Congress about what should be done and what should be 
appropriated.
    Mr. Kanjorski. When you say ``finite resources,'' why do 
you say that? Do you have any figure on what the war on 
terrorism will cost? What will it cost us for Homeland 
Security?
    Mr. Walker. First, it depends upon how you define homeland 
security in determining what the cost is. I guess when I say 
finite resources what I mean by that, Congressman, is that we 
need to spend whatever we think it takes in order to try to 
provide for reasonable security, recognizing we can't do 
everything and that we're facing large structural deficits that 
are likely to increase in the future.
    Mr. Kanjorski. I understand, but this is wartime, 
basically----
    Mr. Walker. I understand that.
    Mr. Kanjorski [continuing]. So we're not necessarily going 
to have the best plan, the most efficient plan, but we have to 
have a plan, and we have to get on our way to do it.
    I mean, is this going to cost $2 trillion or $5 trillion?
    Mr. Walker. Until you have the comprehensive threat and 
risk assessment and the strategic plan from the Department of 
Homeland Security, it is impossible to answer that question.
    Mr. Kanjorski. Absolutely impossible?
    Mr. Walker. It would be imprudent and inappropriate for me 
to answer without knowing that.
    Mr. Kanjorski. Well, Senator Kerrey just suggested that 
maybe 10 or 20 years from now terrorism would no longer be a 
threat. If it's going to take us 7 years to draw up a plan and 
then take 5 or 7 years to implement it, maybe we shouldn't do 
anything, because the threat may be over by then?
    Mr. Walker. Candidly, it shouldn't take that long to draw 
up a plan. And when I talk about implementation, there are 
things that have been implemented already. I think it's 
important to note there are a number of things that have 
happened in the last several years. I give several examples in 
my testimony. There are other things that can happen quickly.
    When I talk about 5 to 7 years, I'm talking about that 
being how long it takes in order to effectuate a cultural 
transformation in any organization; and it could be IBM, it 
could be the Department of Homeland Security, whatever, that's 
how long it takes. So what we need to do is to do other actions 
that can be done quickly, that move us in the direction we want 
to go, recognizing that some of the heavy lifting is going to 
take more time if you're talking about cultural transformation.
    Mr. Kanjorski. Thank you.
    Mr. Schrock. Mr. Ruppersberger.
    Mr. Ruppersberger. Well, first, I agree with you, there's 
going to be time for transformation, but you have to start. And 
I think we have come a long way since September 11. 
Unfortunately, we always tend to criticize a lot and put blame, 
and we have to stop the blame game and learn from mistakes, set 
up the appropriate system that's going to work.
    Now, you've been here most of the day and a lot of the 
testimony has been about the creation of a National 
Intelligence Director, which I feel very strongly that needs to 
be done. I think, from a management perspective, you need one 
boss, one person that's going to hold all agencies accountable 
for their performance. You also need that person, in order to 
be able to have really the power to fulfill those obligations, 
you need to have fiscal responsibility. We don't need window 
dressing. We need results.
    I'd like your opinion about whether or not you feel that 
the National Intelligence Director should have fiscal authority 
and should that person be in the White House, outside the White 
House?
    A good analogy that I've seen so far is Greenspan. He has 
the independence to do what he feels based on his expertise is 
right for the country, and yet he does work with the President 
and the Congress. So let me have your thoughts on that issue.
    Mr. Walker. Well, first, I don't think it would be a good 
idea for this person to be in the White House.
    Mr. Ruppersberger. And why?
    Mr. Walker. Because the White House is comprised of many 
very capable and talented individuals who are not just 
concerned with policies, they're also concerned with politics.
    Mr. Ruppersberger. Good point.
    Mr. Walker. And I do not think you want a person to be 
physically in the White House, no matter what party controls 
the White House, because they are going to be interacting day 
in and day out for many hours of the day with people who are 
concerned not just with policy but also with politics. That 
would be like the Comptroller General of the United States 
having an office next to the majority leader or the minority 
leader of Congress. I think that would be a mistake, too.
    I do think it's important that this person be a 
Presidential appointee, Senate confirmed, report to the 
President, removable by the President for cause.
    Mr. Ruppersberger. What type of term, too, 10-year term?
    Mr. Walker. My personal opinion would be is that for the 
top person, the National Intelligence Director, no, that they 
should be removable by the President. But then, below that, if 
that's the person who is going to be responsible and 
accountable, you may want to look at the players below that. 
You may want to look at the CIA Director, and you may want to 
look at some of these others and decide whether or not they 
should have term appointments. Because, right now, as you know, 
the CIA Director is also the DCI, therefore, the person on the 
point in theory, not necessarily in practice, and that is one 
of the reasons they do not have a term of appointment.
    So I think you could look at that. I think there has to be 
solid-line reporting responsibility by key players to the 
National Intelligence Director, although they could have to 
report to other players as well. They need to have budget 
authority. They need to have substantive authority.
    As I mentioned before, if all they have is an out-box 
suggesting that people do certain things or giving input, 
forget it, it won't work. They need to have people reporting to 
them, and they need to have substantive authority.
    Mr. Ruppersberger. I agree, and this is why I hope the 
President or his staff are listening to these hearings. I 
really applaud the President for coming out and saying we need 
a National Director, because I know he had a lot of advice to 
go the other way. But if you're going to do it, you do it 
right, and you have to have this person with authority.
    Now the other issue that isn't talked about a lot, but I 
think it's a major issue here, because we're talking about 
integration and teamwork, is the Department of Defense. What 
most people don't realize is that over 80 percent of the 
intelligence personnel and budget and resources go into the 
Department of Defense--that is a lot of people, and that is a 
lot of power, and that is a lot of money--and then the CIA and 
the FBI and other agencies get the rest.
    Now I think it's extremely important that the DOD be at the 
table here. There is a bill that a group of us introduced in 
April, the Intelligence Transformation Act, which also 
recommended that we have the national director. And that 
recommendation would be to have a Deputy Director from the 
Department of Defense who is dual-hatted. There would be an 
under secretary in the Department of Defense but also the 
Deputy Director under the National Director of Intelligence. 
That way you do have the DOD at the table, and yet when it 
comes to intelligence budgeting, they will have input.
    Because what I'm concerned about, we know that the 
Secretary of Defense is one of the most powerful positions in 
the world. Not as powerful as the President, but it's close, 
especially when you're at war. Now they have sometimes a 
different focus than maybe what intelligence might; and I think 
it's extremely important that all the agencies come together, 
CIA, FBI, NSA, military coming together.
    What is your opinion about having a dual-hatted Deputy 
Director for the DOD?
    Mr. Walker. Well, first, I think it's critically important 
that DOD be part of this. They, as you properly point out, 
represent over 80 percent of the resources. Let's face it, 
whether you're in the government, the public sector, or the 
private sector, whoever controls the people, the money, and the 
technology is who you pay attention to. And that's all the more 
reason why there has to be substantive responsibility and 
authority with regard to those things or else the position 
doesn't mean anything with regard to that.
    My understanding is the 9/11 Commission is recommending 
three deputy directors and that one of which would be the Under 
Secretary of Defense for Intelligence. And I think it's also 
important that the Congress think about, if you're going to 
have this DCI, do you want term appointments for some of the 
other players and what are you going to do if an administration 
turns over? Who is going to be in charge?
    You may have to have a principal deputy, a principal deputy 
who, hopefully, would have a term appointment, who then could 
be able to provide some continuity in changes between 
administrations. And I would be happy to provide additional 
information on that.
    Mr. Ruppersberger. Just one question. The only thing 
about--and whether or not the director themselves--I think it 
might be wise--just have your opinion on this and then my time 
is up--to have everyone have a term and then they'll be held 
accountable at the end of that term to see whether they're 
going to be reappointed. It's an accountability factor. So 
instead of just saying you have one person that could be there 
for life, like Herbert Hoover or someone like that, everyone 
has a term.
    Mr. Kanjorski. J. Edgar.
    Mr. Ruppersberger. Who?
    Mr. Kanjorski. J. Edgar Hoover.
    Mr. Ruppersberger. What did I say? Herbert Hoover?
    Mr. Kanjorski. Herbert Hoover.
    Mr. Walker. He only got one term.
    Mr. Ruppersberger. He only had one term; right. I don't 
want to get into that right now. There are fiscal issues 
involved there, too.
    But the Hoover issue, I think, is extremely important so 
that you do have terms for all the deputies and whatever and 
also the director. But then they have to come back for 
confirmation, and their performance would be analyzed by 
Congress. What do you think of that?
    Mr. Walker. I think there are certain positions where 
there's strong merit to considering having a Presidential 
appointee, Senate confirmation for a term appointment, with a 
performance contract geared toward trying to achieve 
demonstrable results. Now I think you have to be careful which 
ones. Right now, you have that for the FBI Director.
    Mr. Ruppersberger. Think it works?
    Mr. Walker. I think it works pretty well. I think you could 
consider it for other key positions in the intelligence 
community, where you're talking about national security, which 
would be a nonpartisan issue. This is below the Director for 
National Intelligence. You could consider it for the CIA 
Director. You could consider it, possibly, for the Under 
Secretary of Defense for Intelligence.
    But my personal opinion is that, whoever is on the point, 
the President has to be comfortable. Whoever it is, the 
President has to be comfortable, because that is the person 
they are looking to for primary advice and to integrate 
different activities and to make sure the right things are 
being done and the right people are being held accountable.
    Mr. Ruppersberger. Thank you, Mr. Chairman.
    Mr. Schrock. Thank you, Mr. Ruppersberger.
    Thank you, General Walker. Thank you for your indulgence. 
Thank you for your patience. Thank you for your testimony. It 
really makes a lot of sense. It's just common sense stuff, and 
we certainly need to address a lot of things you've talked 
about, and I think it's incumbent on this Congress, this 
committee, to do that. So thank you very much for being here.
    Mr. Walker. Thank you, Mr. Chairman.
    Mr. Schrock. We'll take about a 5-minute break here while 
we set up for the fourth panel.
    [Recess.]
    Mr. Schrock. We will now move on to our fourth and final 
panel. We thank you all for your indulgence as well.
    We are happy to have today Mr. Paul Light, who is with the 
New York School of Public Service; Mr. Bob Collet, vice 
president of engineering, AT&T Government Solutions; Mr. Dan 
Duff, vice president of government affairs for the American 
Public Transportation Association; Mr. John McCarthy, executive 
director of the critical infrastructure protection project--
boy, that's a mouthful, critical infrastructure protection 
project--and Jim Dempsey, who is executive director, Center For 
Democracy and Technology.
    Gentlemen, it is the policy of this committee that all 
witnesses be sworn, so if you will please stand and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Schrock. Let the record show that all witnesses 
answered in the affirmative.
    We would ask that you try to hold your testimony to 5 
minutes to allow for some questions and answers, and of course 
your entire statement will be made part of the record.
    We'll start with Dr. Light.

STATEMENTS OF PAUL C. LIGHT, ROBERT F. WAGNER SCHOOL OF PUBLIC 
   SERVICE, NEW YORK UNIVERSITY; BOB COLLET, VICE PRESIDENT, 
   ENGINEERING, AT&T GOVERNMENT SOLUTIONS; DANIEL DUFF, VICE 
 PRESIDENT, GOVERNMENT AFFAIRS, AMERICAN PUBLIC TRANSPORTATION 
   ASSOCIATION; JOHN MCCARTHY, EXECUTIVE DIRECTOR, CRITICAL 
 INFRASTRUCTURE PROTECTION PROJECT; AND JIM DEMPSEY, EXECUTIVE 
         DIRECTOR, CENTER FOR DEMOCRACY AND TECHNOLOGY

    Mr. Light. Thank you for this hearing. Thank you for your 
work. We have been here before.
    Mr. Schrock. I know you have.
    Mr. Light. No, we have.
    Mr. Schrock. Yes.
    Mr. Light. We've been here on a dozen issues over the last 
10 years dealing with duplication, overlap, lack of 
communication across Federal agencies. We were here talking 
about IRS taxpayer abuse, the nuclear security issue at the 
Department of Energy. We've talked about FBI reorganization 
several times, homeland security, food safety, you name it.
    In my testimony, you will see a reference to these issues 
and my support for reorganization authority, properly defined 
and properly limited. But I believe that as part of whatever 
legislation you produce that you should give the President 
authority to be more proactive by way of reorganization than 
reactive.
    We have heard a lot of testimony today. It is moving and 
important. I have heard these recommendations made before in 
other commissions. We have on the table, for example, a number 
of solutions that we've seen before, some that have worked, 
some that have not. We have had czars, some that have been 
strong, some that have been not strong. We have had 
reorganizations that have worked and some that haven't.
    On the issue of the National Intelligence Director, let me 
be clear, and off my testimony, that I believe the position 
should be separate from the White House. It should be at 
executive level one. That is Cabinet-level status. That does 
not mean the person has to sit at the Cabinet table. That 
individual should have a term of office.
    A term of office does not imply you cannot be fired. It is 
hortatory in most cases, except for the Comptroller General, 
whom we hire for 15 years and hope he will stay. But a term of 
office sends a message to the rest of the Federal bureaucracy 
that this person is going to be around and the presumption is 
in favor of continuity. The President can always fire, the 
question being whether you want it to be so strict as to fire 
for cause, which is a more extreme measure, or whether you just 
want to give the President that authority.
    I absolutely strongly encourage you to give the National 
Intelligence Director some budget and personnel authority. This 
current proposal that's floating around today at least is no 
carrot and no stick; and the czar is going to have to have some 
authority to make agencies respond, including authority to 
require streamlining plans from the agencies that he or she 
receives information from.
    Let me suggest to this committee as you proceed with your 
deliberations that you be proactive so that we're not 
revisiting this over and over again in reaction by addressing 
reorganization authority, that you deal with the significant 
thickening of the bureaucracy that reports to the National 
Intelligence Director. It doesn't make any sense to add a new 
layer of bureaucracy if we don't delayer the existing agencies. 
We've got to do that.
    In the 6 years since I last looked at these issues, all of 
our intelligence agencies, in fact, all agencies in the Federal 
Government, have grown both taller and wider. At the FBI, we've 
added an entirely new layer of executive assistant directors. 
I'm sure they perform an important service and that the 
accountability that came with the new layer was essential. We 
also added a chief of staff to the director. You see this at 
the CIA, you see it at the NSA, you see the proliferation of 
titles. We've got to do something about it. Because it's like 
the childhood game of gossip or telephone where we're just 
passing information back and forth.
    We absolutely must use this opportunity to fix the 
Presidential appointments process. What difference will a 
National Intelligence Director make if he or she cannot be 
nominated and confirmed in a reasonable amount of time? The 
average time to get in office for the Bush administration was 
8\1/4\ months. That is a long time to wait, especially if we 
are in a transformation that's going to take 7 years.
    Finally, we have to address the personnel issues embedded 
in the Department. I believe you should give the national 
director, the intelligence director, the same authorities 
embedded in the defense personnel reforms and embedded in the 
Homeland Security reforms. I think those are important in terms 
of the discipline in the work force at the new agency. It 
wouldn't be a bad thing for you to extend those authorities 
down into the intelligence community at large as part of 
holding people accountable.
    I will submit my testimony for the record, and I will await 
any questions you might have. Thank you very much for having 
me.
    Mr. Schrock. Thank you, Dr. Light.
    [The prepared statement of Mr. Light follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.099
    
    [GRAPHIC] [TIFF OMITTED] T6537.100
    
    [GRAPHIC] [TIFF OMITTED] T6537.101
    
    [GRAPHIC] [TIFF OMITTED] T6537.102
    
    [GRAPHIC] [TIFF OMITTED] T6537.103
    
    [GRAPHIC] [TIFF OMITTED] T6537.104
    
    [GRAPHIC] [TIFF OMITTED] T6537.105
    
    [GRAPHIC] [TIFF OMITTED] T6537.106
    
    [GRAPHIC] [TIFF OMITTED] T6537.107
    
    [GRAPHIC] [TIFF OMITTED] T6537.108
    
    [GRAPHIC] [TIFF OMITTED] T6537.109
    
    [GRAPHIC] [TIFF OMITTED] T6537.110
    
    Mr. Schrock. Mr. Collet, welcome.
    Mr. Collet. Good afternoon. My name is Bob Collet. I'm vice 
president of engineering for AT&T's Government Solutions 
division. Thank you for inviting us here to discuss AT&T's view 
on the need to share critical network infrastructure 
information. We applaud the consistent efforts of this 
committee to improve the overall infrastructure security of the 
Federal Government and the Nation.
    At AT&T, we take our responsibility to protect against 
information or infrastructure vulnerability very seriously, and 
we are constantly updating our network security in response to 
ever-changing threats against the network.
    Following the tragic events of September 11, we have 
meaningfully increased our efforts by deploying new 
technologies and infrastructures. For the recent Democratic 
convention, for example, we applied what we have done in all 
our critical nodes with a location-specific network recovery 
strategy in case of terrorist action, and we stationed a 
response team in Boston to be ready to implement that plan if 
it should be needed. Obviously, we will be doing the same for 
the upcoming Republican convention, and we do the same thing 
for other high-profile events.
    As you know, most of our country's critical infrastructure 
is owned and operated by the private sector. Thus, the private 
sector does play a role in ensuring the safeguarding of the 
infrastructure. Now, while our contribution can't compare to 
sacrifices of the first responders, the availability of 
telecommunications infrastructure is essential, and we are 
concerned about well-meaning but fundamentally unsound 
initiatives to collect infrastructure information outside the 
methods and procedures that have served our Nation so well in 
the past.
    In particular, a concern is that critical 
telecommunications infrastructure information should not be 
collected in multiple places where the information, in its 
collected form, would be vulnerable to intrusion. With regard 
to telecommunications, this country has a tested, trusted 
approach that we should continue to use and optimize. In this 
context, let me describe two of these public-private 
partnerships.
    First, within the Department of Homeland Security, and that 
is the National Coordination Center Information Sharing 
Analysis Center. The good news for telecommunications is that 
this sector has been a leader in forging a public-private 
partnership to address infrastructure security. Telecom 
carriers have shared information informally with the NCS, or 
the National Communication System, since its inception in 1984; 
and since March 2000, the NCS's NCC, or National Coordinating 
Center, has served as the Information Sharing and Analysis 
Center [ISAC], for telecommunications. The participants include 
industry and government representatives, including the FCC; and 
they gather and share information about threats and 
vulnerabilities.
    There are three reasons why this is successful. The first 
is the government routinely provides specific threat and alert 
information to industry representatives. Second, the NCC 
Telecom-ISAC has demonstrated an ability to handle corporate 
proprietary information and government classified information 
in a secured manner. And, third, in times of crisis, they act 
as an ombudsman on behalf of industry, helping industry 
complete its mission.
    So, for example, during September 11, the NCC helped 
network providers obtain access to Ground Zero. We have an 
atmosphere of trust and cooperation in which industry feels 
confident in sharing sensitive information with the government 
and with our competitors in times of crisis.
    The second institution is another example of the 
partnership that has worked and should be a model for any 
government industry problem solving, and that is the Network 
Reliability and Interoperability Council of the FCC. This was 
organized back in 1992. It is a forum where industry, 
consumers, and government come together for the sharing of 
work-specific issues. A good example of its ability to perform 
was during the Y2K. Since then, there has been a focus, 
understandably, on homeland security, with teams addressing 
both physical and cyberlevel security.
    NRIC VII is further enhancing this work. The product is an 
extensive set of best practices for service providers, network 
operators, and equipment vendors. There are literally hundreds 
of best practices that have been developed.
    Now, the NRIC also monitors and analyzes information 
prepared or received from the public network over the last 10 
years. In order for this effort to be successful, it must be 
voluntary. This is to encourage the utmost in the sharing of 
information and experience. Second, it must be developed by 
industry experts that make it. And, third, it must be adaptable 
and usable by the country's infrastructure providers, and they 
are us.
    Now, let me address the issue of safeguarding or sharing 
private information.
    As a private sector operator of a major part of one of 
America's most important critical infrastructures, we clearly 
have to safeguard all information about our physical locations, 
capabilities, and components of our worldwide infrastructure. 
An ongoing major concern of the industry remains the public 
dissemination of the availability of critical information who 
has a desire to do harm to the national communications network.
    Despite these concerns, we have been asked by various well-
meaning government agencies for specific but we consider 
extremely sensitive information about capabilities, including 
maps, network facilities and infrastructure. Now, in the wrong 
hands, the compilation of this critical infrastructure assets 
only increases the vulnerability of the telecommunications 
infrastructure. So, while well-intentioned, we believe such 
requirements would greatly hinder our ability to protect the 
survivability and availability of the network.
    So in order to ensure that all information provided which 
contains critical infrastructure information is protected from 
our adversaries through public disclosure, we recommend that it 
be routed through one Federal Government agency. We believe 
that agency should be the Department of Homeland Security, 
because of the very good track record of the NCS.
    By initially providing voluntary reporting to the DHS in 
the event of a terrorist attack or an act of nature that 
affects all major utilities and communications, including the 
communications infrastructure, of course, one agency would 
maintain the responsibility for leadership in coordinating 
restoration efforts. The coordination of a unified response 
should result in greater efficiency and effectiveness in the 
restoration and recovery process.
    Accordingly, we believe the DHS process for administering 
the protection of critical infrastructure should continue to 
reside with those entities that have the mission to assure 
continuous connectivity.
    In closing, in this time of elevated terror threat levels, 
we must take every step necessary to protect America's 
citizens. This committee's work, among its responsibilities to 
be responsive to the issues highlighted by the 9/11 Commission, 
is to ensure that survivability and security be key features of 
the next-generation telecommunications service in the Federal 
Government.
    We at AT&T are living up to that responsibility in the 
fullest manner every day. But, in some cases, a need to know 
better protects America than a well-meaning but undefined need 
to share. Therefore, we ask that you carefully consider the 
security ramifications of wider information sharing as you 
proceed in your deliberations.
    AT&T would like to thank Chairman Davis and members of this 
committee for holding this hearing on this important issue, and 
I offer AT&T's assistance in your endeavors on this matter. 
Thank you.
    Chairman Tom Davis [presiding]. Thank you very much.
    [The prepared statement of Mr. Collet follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.111
    
    [GRAPHIC] [TIFF OMITTED] T6537.112
    
    [GRAPHIC] [TIFF OMITTED] T6537.113
    
    [GRAPHIC] [TIFF OMITTED] T6537.114
    
    [GRAPHIC] [TIFF OMITTED] T6537.115
    
    [GRAPHIC] [TIFF OMITTED] T6537.116
    
    [GRAPHIC] [TIFF OMITTED] T6537.117
    
    [GRAPHIC] [TIFF OMITTED] T6537.118
    
    [GRAPHIC] [TIFF OMITTED] T6537.119
    
    [GRAPHIC] [TIFF OMITTED] T6537.120
    
    [GRAPHIC] [TIFF OMITTED] T6537.121
    
    Chairman Tom Davis. Mr. Duff, welcome.
    Mr. Duff. Mr. Chairman and members of the committee, thank 
you for this opportunity to testify on the 9/11 Commission 
report and related issues. We commend the House Committee on 
Government Reform for holding this hearing today.
    Let me start, if I could, with just a word about my 
organization, the American Public Transportation Association, 
which is a nonprofit international trade association of over 
1,500 public and private member organizations, including 
transit systems and commuter rail operations and the businesses 
that provide the goods and services to the industry. Some 90 
percent of persons using public transportation in the United 
States today are served by APTA member systems.
    A few background facts about public transportation. Over 9 
billion transit trips are taken annually on all modes of 
transit service. People use public transportation vehicles over 
32 million times each weekday. To put this into perspective, 
this is more than 16 times the number of daily travelers aboard 
the Nation's domestic airlines. The vast number of Americans 
using public transportation each and every day creates ongoing 
challenges for enhancing security within our transit 
environments.
    Since the events of September 11, State and local public 
transit agencies, in fact, all State and local entities, have 
spent significant sums on police overtime, enhanced planning 
and training exercises, and capital improvements related to 
security. In response to a recent APTA survey, transit agencies 
around the country have identified in excess of $6 billion in 
transit security needs.
    These include both immediate capital investments and 
recurring operating expenses related to security.
    In the months following the September 11th terrorist 
attacks, transit agencies of all sizes worked to identify where 
they might be vulnerable to attacks and increased their 
security investment for both operation and capital activities. 
The agencies subsequently upgraded and strengthened their 
emergency response and security plans and procedures, taking 
steps to protect transit infrastructure and patrons and 
increase transit security presence.
    All transit system buses and trains are equipped with two-
way radio communication systems that are connected to their 
respective operations control centers. Many transit systems 
have been in the costly process of upgrading these systems to 
ensure their reliability.
    While many transit agencies are more secure than prior to 
September 11th, much more needs to be done. And one of the key 
measures that the transit industry recognized it needed to do 
was focus on enhanced communications. In that regard, public 
transportation is recognized by the Federal Government to be 
one of our Nation's critical infrastructures. And APTA is 
pleased to have been designated public transportation sector 
coordinator by the U.S. Department of Transportation. And in 
that capacity, in January 2003, APTA received a $1.2 million 
grant from the Federal Transit Administration to establish and 
fund a Transit Information Sharing Analysis Center for its 
initial 2 years of operations.
    This ISAC for public transit provides 24/7 a secure two-way 
reporting and analysis structure for the transmission of 
critical alerts and advisories. It collects, analyzes and 
distributes critical cyber and physical security information 
from Government and numerous other sources. These sources 
include law enforcement, Government operations centers, the 
intelligence community, the U.S. military, academia and others. 
Best security practices and plans to eliminate threats, 
attacks, vulnerabilities, and countermeasures are drawn upon to 
protect the sector's cyber and physical infrastructures.
    The public transit ISAC also provides a critical linkage 
between the transit industry, the Department of Homeland 
Security, the Transportation Security Administration, and the 
Department of Transportation, as well as other sources of 
security intelligence.
    Transit systems are public agencies and rely upon Federal, 
State, and local funding. Consequently, the public transit ISAC 
is available without cost to all transit systems. There are 
currently over 130 transit systems participating in the public 
transit ISAC, and these numbers continue to grow. Funding for 
this ISAC will, however, end by February 2005. We agree with 
the recent GAO report on ISACs where it identified as a 
challenge requiring further Federal action the funding of ISAC 
operations and activities. APTA has made a request for funding 
to continue the public transit ISAC to the Department of 
Homeland Security in January of this year, and we currently 
await their support of this request. Failure to fund this 
project on an ongoing basis would mean that public 
transportation systems would be without the very resource that 
the Federal Government has encouraged for our Nation's critical 
infrastructures.
    Let me turn briefly to the 9/11 Commission Report. And with 
respect to transportation security, that report recommends that 
the U.S. Government identify and evaluate the transportation 
assets that need to be protected, set risk-based priorities for 
defending them, select the most practical and cost-effective 
ways of doing so and then develop a plan, budget and funding to 
implement the effort.
    I spoke earlier about the needs that we have identified in 
the area of $6 billion, and we would urge the Department of 
Homeland Security to take up that initiative, because, while we 
appreciate the funding that has been made available to date, in 
the $100 million range, we think there are much greater needs.
    One other final point I would like to make, Mr. Chairman, 
is that we also think it would be useful if the Department of 
Homeland Security and the Department of Transportation together 
worked out a memorandum of understanding to address the roles 
of those two agencies in working with public transportation 
security. DHS clearly is the lead in that regard, but DOT has 
years of experience in working with local public transportation 
entities, and DHS should utilize that experience.
    Mr. Chairman, we look forward to building on our 
cooperative working relationship with the Department of 
Homeland Security and Congress to begin to address these needs. 
We again thank you and the committee for allowing us to testify 
today and your commitment to addressing the security 
information needs of our Nation's critical infrastructure.
    [The prepared statement of Mr. Duff follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.122
    
    [GRAPHIC] [TIFF OMITTED] T6537.123
    
    [GRAPHIC] [TIFF OMITTED] T6537.124
    
    [GRAPHIC] [TIFF OMITTED] T6537.125
    
    [GRAPHIC] [TIFF OMITTED] T6537.126
    
    [GRAPHIC] [TIFF OMITTED] T6537.127
    
    [GRAPHIC] [TIFF OMITTED] T6537.128
    
    [GRAPHIC] [TIFF OMITTED] T6537.129
    
    [GRAPHIC] [TIFF OMITTED] T6537.130
    
    Chairman Tom Davis. Thank you very much.
    Mr. McCarthy.
    Mr. McCarthy. Good afternoon, Mr. Chairman, members of the 
committee. Thank you very much for having me today. I am John 
McCarthy, the director of the critical infrastructure 
protection project at George Mason University School of Law. I 
would like to quickly discuss the project and give you the 
context of why our testimony today is relevant.
    George Mason about 2 years ago started a program to build 
an interdisciplinary program around critical infrastructure. 
The guiding principles were interdisciplinary research--to 
build an interdisciplinary research curriculum. It would be 
multi-institutional, and that the work support the national 
agenda. To date, we have sponsored close to 100 researchers 
around the Nation, with upwards of 70 schools to do work in the 
area of homeland security critical infrastructure protection.
    Two programs which are especially relevant to this 
discussion today that we have spun off as separate projects and 
received separate funding for are as follows: One is the work 
we do with the National Capital Region. The Commonwealth of 
Virginia, the State of Maryland and the District of Columbia 
have pooled their Homeland Security research money and asked 
the critical infrastructure project to provide oversight for 
their work in the National Capital Region relative to critical 
infrastructure protection. So we are operating a consortium of 
scholars and researchers from some 10 area universities looking 
at vulnerability assessment in the National Capital Region. So 
that's looking at the problem from a very local perspective.
    Also, we have been asked by the Department of Homeland 
Security to, in essence, be the executive directorate for the 
sector coordinators in the Information Sharing and Analysis 
Centers. Our goal is to build out those private sector 
entities, assist them with strategic planning, assist them in 
organization and moving the national agenda forward and working 
with Homeland Security to make logical connections between the 
entities that the private sector has built, some of which have 
been articulated here, and what's being built inside the 
Department of Homeland Security.
    Relative to the 9/11 report, I have a brief comment on 
three areas that were raised in the report. First is that our 
Nation's decision to consolidate Homeland Security has improved 
information sharing in significant ways in the opinion of the 
project. DHS has focused and energized on sharing threat 
information. In providing a single point of contact, the new 
Department is working to provide an efficient way to share 
threat analysis and disseminate sensitive information to the 
right people at the right place at the right time. I don't want 
to sound like a cheerleader, because it's not a perfect system, 
and I think you will probably hear testimony relative to this 
weekend as an example of some issues.
    But the fact is that we have moved significantly from where 
we were 3 years ago during September 11 in terms of being able 
to disseminate and have discussion simultaneously with an 
incident as opposed to after the fact when everyone's either 
been left out of the decisionmaking process or improperly 
briefed.
    A second point is that the committee should consider ways 
to involve the private sector in the Government-wide 
information-sharing reforms discussed today. This idea was 
mentioned by several of the previous panels. While you are 
focused on the formation and reformation of the intelligence 
community, one critical piece that cannot be left out is all 
the work that's being done in the private sector, the ISACs and 
the sector coordinator activity and how that can roll up in a 
logical way and touch these new entities.
    And we at CIP project feel very strongly that this single 
point of contact with the private sector right now should 
remain with the Department of Homeland Security. So any 
mechanisms that are built to connect to this new national 
director to the private sector should be through DHS.
    And the third point speaks to the technology. We vigorously 
applaud the 9/11 Commissioners for promoting the critical role 
of technology to this agenda. Within the research project 
portion of the CIP element that I mentioned before, we have 
invested a great deal in the area of technology balanced with a 
look at the business governance, and the economic and the legal 
implications of that technology. We've set priority goals at 
CIP for looking at developing a comprehensive understanding of 
infrastructure vulnerability, developing tools to assess these 
vulnerabilities, offering research on complex interdependencies 
between the infrastructure's sectors, developing concepts, 
metrics and models to support decision allocating resources, 
the Homeland Security initiatives, measuring progress and 
developing effective systems of public-private partnership that 
afford true information sharing.
    One key emphasis when you are looking at technology, again, 
relative to the intelligence agenda, is this notion of the 
amount of data that's out there and building programs that 
begin to help the decisionmakers sort. Its biometrics and other 
access clearance-type technologies are very important to this, 
but the ability to find the needle in the haystack--the data 
stream is massive and huge. It's a major paradigm shift in the 
intelligence community, and that technology and that focus on 
research, I think, is very useful. And we very much support 
that agenda at GMU.
    One question that I would like to address that was brought 
up in some of the previous testimony was the idea of moving the 
Commission forward. One project that we sponsored using the CIP 
money was an oral history of the President's Commission on 
Critical Infrastructure Protection, another feeding commission 
into the body of knowledge that's led up to the discussion 
today.
    And one of the key lessons that we learned in analyzing 
that previous commission's work was that the commission, almost 
immediately after it reported out--and the result of that was 
the signing of Presidential Decision Directive 63--the 
commission was disbanded, and there was very little interaction 
between the entities that took over to implement the findings 
of the commission and the former commissioners.
    And one major theme that's come out of our preliminary 
study and the oral history is that you should not let that 
happen. And I think I heard that message loud and clear, and I 
hope that was recognized by the committee.
    And one final point, while outside the scope of the CIP 
project and my testimony today, I'm sure I will be asked, in 
terms of the National Intelligence Directorate and the 
formation of that, based on my prior Government experience, I 
strongly support my colleagues and the suggestions today that 
it should be outside the White House, but for another kind of 
reasoning. And it goes back to a prior life as a Coast Guard 
officer and a commanding officer of a ship, the notion that the 
CO never stands watch. When you put a critical function like 
that intelligence integrator into the White House, you are, in 
essence, co-locating that person with the President. And it's 
an extension of the CO's authority. The CO should be standing 
back and watching and managing and having activity develop and 
be able to step in when problems arise. And when that's co-
located in the White House, I don't think that can happen. And 
if a problem does arise, it puts it at the foot of the 
President as opposed to out in the Departments where 
operational decisions should be made.
    Thank you very much for the opportunity.
    [The prepared statement of Mr. McCarthy follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.131
    
    [GRAPHIC] [TIFF OMITTED] T6537.132
    
    [GRAPHIC] [TIFF OMITTED] T6537.133
    
    [GRAPHIC] [TIFF OMITTED] T6537.134
    
    [GRAPHIC] [TIFF OMITTED] T6537.135
    
    Chairman Tom Davis. Thank you very much.
    Mr. Dempsey.
    Mr. Dempsey. Good afternoon, Mr. Chairman, members of the 
committee. Thank you for the opportunity to testify today at 
this first hearing in the House of Representatives on the 
recommendations of the 9/11 Commission. It's a privilege to sit 
here at this table following the commissioners, Secretary 
Lehman and Senator Kerrey, and the families of the survivors. 
To both the commissioners and the families, our Nation owes a 
debt of gratitude for their dedication and commitment and 
insight.
    There are three issues confronting the President and the 
Congress, today and in the coming weeks, that I would like to 
address. The first question is how can we better share 
intelligence information, law enforcement information, at all 
levels of Government in order to prevent terrorism? Important 
progress has been made since September 11 to improve 
information sharing, but still we do not have a decentralized 
dynamic network for the sharing of information. Still there are 
technological barriers as well as institutional barriers.
    The Markle Foundation has a Task Force on National Security 
in the Information Age. This task force has been in existence 
now for 3 years. It is made up on a bipartisan basis of experts 
with national security backgrounds from the Carter, the first 
Bush administration, the Reagan administration, and the Clinton 
administration, and experts from the technology and privacy 
fields. They've issued two reports. The most recent one was in 
December of last year, ``Creating a Trusted Information Network 
for Homeland Security.'' They spell out in that report how, 
using off-the-shelf technology, it is possible to build a 
network to better share information. The tools are available. 
It's based upon write-to-release. It's based upon federated 
searches across agencies. It's a system that promotes 
horizontal sharing of information and downward sharing of 
information as well as the stovepiped and upward sharing of 
information. It is based upon writing reports to be disclosed, 
for using tear lines to protect sources and methods.
    We need to get on with building this network. There are 
steps that we can take beginning immediately with establishing 
directories and pointers so that at least we know what we know, 
and so that we can find out who has the information.
    The second question confronting the President and this 
Congress is who should be in charge of the information and 
intelligence sharing and analysis effort? Now, with the 
recommendations of the 9/11 Commission and with the decision of 
the President yesterday, that question has been answered to 
some extent. If we establish and move forward as the President 
has said he will with the director of national intelligence, 
there are many important questions to be addressed, including 
eliminating duplication and correcting or clarifying the lines 
of authority between existing analysis centers. But, certainly, 
a key part of the role of the director of national intelligence 
should be the answering of those questions.
    The third question is how to do this while protecting the 
privacy and the civil liberties of ordinary citizens. Now, the 
9/11 Commission was 100 percent clear that we can and must 
address this threat of terrorism consistent with our civil 
liberties. They called for an enhanced system of checks and 
balances to protect precious liberties that are vital to our 
way of life.
    The Gilmore Commission chaired by former Virginia Governor 
Gilmore reached the same conclusion. The TAPAC--the Technology 
and Privacy Advisory Committee appointed by Secretary Rumsfeld 
also stressed the importance of protecting privacy, as did the 
Markle Task Force.
    Part of the answer is in the technologies themselves, 
anonymization technologies that will minimize the amount of 
information that is collected, quality control measures, 
auditing trails to make sure that information is not being 
abused or misused or compromised, and also the policies. The 
wall is now down; no one is proposing re-erecting it. 
Intelligence agencies and law enforcement agencies are sharing 
information as they never did before. The Government agencies 
have broad collection authority. There is really not any 
information that the Government does not have the legal 
authority to get. But the Privacy Act and our other rules are 
outdated, and the guidelines have not been put in place for 
this new information-sharing environment.
    And these guidelines need not tie the hands of 
investigators and law enforcement and intelligence officials. 
In fact, the guidelines can empower the officials as well as 
constrain them by telling them what is permissible and what 
they are authorized to do. We will need oversight, both 
congressional and in the executive branch. This Congress was 
wise in creating a privacy officer and a civil rights and civil 
liberties officer when it created the Department of Homeland 
Security. Similar mechanisms need to be created for the new 
information-sharing structures. At the end of the day, the 
oversight and accountability mechanisms will benefit both 
national security and civil liberties. Well implemented 
accountability need not impede intelligence operations. Checks 
and balances result in clear lines of responsibility, well-
allocated resources, protection against abuse, and the ability 
to evaluate and correct past mistakes.
    As this committee moves forward to implement the 
recommendations of the 9/11 committee, the Center for Democracy 
and Technology and the members of the Markle Task Force are at 
your disposal to work with you and move forward in achieving 
our shared goals. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Dempsey follows:]

    [GRAPHIC] [TIFF OMITTED] T6537.136
    
    [GRAPHIC] [TIFF OMITTED] T6537.137
    
    [GRAPHIC] [TIFF OMITTED] T6537.138
    
    [GRAPHIC] [TIFF OMITTED] T6537.139
    
    [GRAPHIC] [TIFF OMITTED] T6537.140
    
    [GRAPHIC] [TIFF OMITTED] T6537.141
    
    [GRAPHIC] [TIFF OMITTED] T6537.142
    
    [GRAPHIC] [TIFF OMITTED] T6537.143
    
    Chairman Tom Davis. Let me just thank all of you for being 
patient, staying with us today. This testimony is important as 
we contemplate where we go from here as a committee and as a 
Congress.
    Let me start the questioning with you, Mr. Light. You are 
no stranger to this committee. In addition to the other 
elements, you hit on two major themes in your testimony: One, 
that there are too many layers of bureaucracy in our Federal 
Government; and two, that Congress needs to reauthorize 
Executive Reorganization Authority.
    To me, these two issues seem to be intertwined. Will you 
agree that much of the bureaucracy comes from congressional 
micromanagement and that reorganization authority would be one 
way to try to diminish some of the micromanagement and free 
Congress to focus on broader policy goals?
    Mr. Light. I agree, absolutely, with the second. The 
layering of Government, this thickening that I talk about is 
like Kudzu; it grows from many sources. Some of it's 
micromanagement. Some of it's perfectly legitimate expansion 
due to congressional decisions and executive decisions on 
policy priorities. Some, as you know, from your hearings on the 
Civil Service system, reflect backdoor pay raises. And, you 
know, it's like the stalagmites and stalactites problems. Some 
of it drips down; some of it rises up.
    You need a mechanism that the President can take hold of to 
attack it. You have to be persistent about it. And I believe 
that reorganization authority properly constrained to allow 
congressional action on an expedited timetable is an 
appropriate device for constraining it. It's the kind of thing 
that grows unless you check it.
    Chairman Tom Davis. And the separation of powers is no way 
to do that? Is it because it's difficult once the Federal 
program gets created? I mean, there is nothing closer to 
eternal life, it seems to me.
    Mr. Light. Well, you need to make agencies pay a price for 
each new layer they create. We don't do that in the Government. 
The private sector does. There is a price to be paid on the 
profit line. So you have to be diligent about tracking it. And 
I think that requires a strong executive authority. And, also, 
the credible threat that you are going to do something about it 
as you see the layering occur.
    Chairman Tom Davis. Your testimony explains that there were 
long gaps in the management during the administration change, 
creating an environment where intelligence and information is 
either lost or misinterpreted or you lose some history. What 
steps need to be taken to ensure that the appointment process 
runs smoothly and within a reasonable timeframe to prevent 
these types of problems?
    Mr. Light. Well, there is a perfectly reasonable first step 
that's already been drafted out. Your professional staff was 
involved in it on the other side. We could make enormous 
progress from simply streamlining the forms that we have our 
appointees fill out, by making them all electronically 
available, by populating information across forms. We could get 
the Senate and the White House to agree on some simple 
technological fixes and, in doing so, lead them toward the kind 
of compact that would allow for some tight rules regarding 
movement of nominations forward.
    It makes no sense again to create a National Intelligence 
Directorate if it's going to take you 8\1/2\ months to get 
somebody in that position and if the turnover is 18 to 24 
months, if people are only staying that long. And so that's why 
I think a term of office encourages the kind of presumption in 
favor of at least staying long enough to make an impact. But 
there are some very easy fixes that I would attach to whatever 
legislation you push out here. And, of course, the 9/11 
Commission made recommendations on the appointments process.
    Chairman Tom Davis. Let me ask the other panelists. 
Currently, the private sector really collects the information 
about critical infrastructure vulnerabilities and threats 
through the ISACs. Last week, GAO issued a report on critical 
infrastructure protection which found that this system's 
ineffective, because the private sector is concerned its 
information being shared with Government will be made public, 
and that has a lot of ramifications from business liability. Do 
all of you share that concern? Mr. Collet, I'll start with you, 
from AT&T's perspective, and move straight on down.
    Mr. Collet. Sure. As I mentioned, we have been working with 
the Department of Homeland Security and the NCS since its 
inception, when it was organized under the White House. And 
during those years we have continuously shared information with 
the Federal Government. It's a very good relationship. I am 
unaware of any deficiency that we have in what we report to the 
NCS within DHS. So perhaps our industry is blessed, because, 
since 1984, we have had the equivalent of an ISAC, and over the 
years a level of trust and confidence has developed for both 
parties.
    So today, as telecommunications expands to include things 
like wireless and satellite and other media besides wireline, I 
think the scope of what they do will be expanded a bit. But it 
seems to be a good working model, and perhaps all that we need 
to do there is continue working with what we have because it 
has a very good track record.
    Chairman Tom Davis. Any other panelists want to address 
that?
    Mr. Duff. Just a quick point, Mr. Chairman. The public 
transit ISAC is a little bit different. I think it is one of 
the few that is in the public domain. Most of the members of 
that ISAC are public bodies, and we are protected by a 
provision in the Patriot Act that preempts any State's Sunshine 
Laws. So there is an element of protection there that makes our 
members feel comfortable in sharing information, and many of 
them have joined up with it.
    Mr. McCarthy. Yes, sir. In working with virtually all the 
ISACs and the emerging ISACs, along with DHS, what you are 
hearing is three or four different business models, the NCS 
being a well-established, close relationship between the 
Government and private sector. What's behind that, when you go 
back historically is a very significant amount of Government 
funding, along with private sector contribution, and a firm 
commitment on both sides.
    You flip all the way over the financial sector, and their's 
is a totally private sector entity without Government 
interaction. And then there is everything in between, and 
people trying to pick.
    So the issue is much more--trying to pick one as the model 
is very difficult to do. The information sharing issue is, in 
my mind, radically changing as we move from the PDD 63 
environment where the ISACs were the brain child and generated 
from out of the original President's commission, and now we are 
in the Homeland Security HSPD 7 model where there is money on 
the table with significant funding. With that comes 
responsibility and accountability back.
    So that's a challenge that both the private sector and the 
Government have to work through relative to this. If the 
Government is putting money on the table to fund ISACs or 
pieces of ISACs or sector coordinator activity, what kind of 
responsibility and information sharing comes back from that? I 
think that's a key question that I see out there for both 
parties.
    Chairman Tom Davis. OK.
    Mr. Dempsey. Mr. Chairman, I'm not familiar with the GAO 
study you mentioned. I'm surprised a little bit by it. Speaking 
just for CDT, I thought that the FOIA issue was taken care of 
in the legislation that was passed. I have to say, quite 
honestly, that CDT was skeptical that FOIA exemption was 
necessary or that it needed to be as broadly drafted as it was.
    But now that's in place, and it's in place in a very broad 
fashion. If there is not sufficient information sharing still 
going on, then we need to look elsewhere for the cause of that.
    Chairman Tom Davis. Thank you very much.
    Mr. Kanjorski.
    Mr. Kanjorski. Thank you, Mr. Chairman.
    Mr. McCarthy, when you were testifying--I now came to the 
realization why the unemployment hasn't moved up. Apparently, 
we are hiring an awful lot of people to do a lot of thinking 
and writing a lot of articles. It seems all our entities have 
to go out there and come up with these plans that we are 
talking about.
    You heard earlier testimony today about--from Mr. Walker--
this may take 5 to 7 years to come up with a structured plan of 
how to handle the war on terrorism? Do you have any experiences 
at the table that could short-circuit that and get us on our 
way? It struck me that the terrorists, for $500,000 and 19 men 
killed 3,000 Americans and drove right through the strongest 
Nation in the world in a relatively short period of time, 
several years. Why in the world such a sophisticated Nation as 
this has to struggle so hard to get a plan and policy together 
to meet the challenge?
    I was just commenting to one of the reporters who asked me 
the question, I think General Eisenhower planned and put 
together and implemented the invasion of Normandy in 18 months, 
and the Manhattan Project less than 18 years. Have we become so 
muscle bound as a country and as a Government that we are not 
capable of re-instituting some of our institutions to be able 
to meet this threat? What seems to be the problem?
    Mr. Dempsey. Congressman, if I could venture to answer 
that. I don't think it takes that long. I think we have to all 
recognize and appreciate that very important strides have been 
made since September 11 in improving information sharing and 
increasing cooperation between law enforcement and intelligence 
agencies. The President said it. The 9/11 Commission said it: 
We are safer, but we are not safe.
    Mr. Kanjorski. Well, I think they say that. But if you get 
out in the country and you talk to the first responders, they 
are going to tell you they don't have any damned equipment to 
handle any biological attack, chemical attack. They have no 
training. They don't have the vehicles.
    Mr. Dempsey. Well, the State and local piece is often the 
most overlooked piece of this on the information-sharing side 
as well as the preparedness side.
    Mr. Kanjorski. Well, that's what bothers me. I mean, that's 
where the people are going to die out there on the street. They 
are not going to die in the Capitol here, or maybe a few of us 
will. But the ones we are worried about are out there on the 
street, and the first responders of them, and they haven't 
heard any of the--I think I talked to Tom Ridge the other day. 
And a minimal amount of the Homeland Security money is starting 
to trickle out through the various established State entities.
    Mr. Dempsey. Well, I won't comment upon the equipment issue 
because that's not really my area of expertise.
    But on the information-sharing piece, we heard today from 
both the commissioners as well as from members of the committee 
the concern about the fact that, in the past, so much 
information was tightly held, for a variety of reasons, both 
good and bad.
    Mr. Kanjorski. Information is power.
    Mr. Dempsey. But we have the opportunity now to move to a 
situation, as the title of the hearing is, of need to share and 
of write to release, and breaking down some of the rigid 
classification systems.
    Mr. Kanjorski. You heard some of the testimony earlier. It 
disturbed me, this movement to put somebody in the White House. 
I agree with all of you saying, if you put it in the White 
House, God forbid, you may have the next dictatorship in the 
United States if you do that. And I'm not just talking about 
this White House. I'm talking about any White House, putting an 
intelligence person who controls that much information and 
money in a political home such as the White House.
    It just seems to me--I'm not old enough to remember when J. 
Edgar Hoover was hired, but I know there was a great threat of 
prohibition and criminality in this country, and they took this 
young kid from wherever he came from, and they started the FBI, 
the first Federal Bureau of Investigation. And, by God, by the 
time it got to Lyndon Johnson, they couldn't fire him because 
he had a book on everybody, not only those who lived in the 
White House but everybody up here on Capitol Hill. And if he 
lived to have been 200, he would still be the Director of the 
FBI.
    And we are talking, right here and now, this great fear of 
terrorism, throw away all the protections, all prior 
experiences, get a czar in place, give him all the power, all 
the money, and, hopefully, this great white knight, whoever he 
is, will not be ambitious politically or otherwise. I mean, I 
don't hear anybody talking about if we put all this power and 
all this money in one person's hands, where are our protections 
that he literally couldn't become a dictator and the very thing 
we are trying to save, democracy, he could take away of from 
us?
    Mr. Dempsey. Congressman, the thrust of my testimony is 
that director and the other structures that we are creating 
need to be subject to oversight, checks and balances, and 
internal and external auditing. There is no choice that we have 
other than to create a web of controls and checks and balances 
and mechanisms of accountability. This committee and this 
Congress have a role in that. The other two branches of 
Government do as well.
    Mr. Shays. I want to give Mr. Schrock a chance to ask some 
questions. Thanks.
    Mr. Schrock.
    Mr. Schrock. That was going pretty well, I thought.
    Thank you, Mr. Chairman.
    I believe the point that the 9/11 Commission Report makes 
about the inherent weakness of an identification system that 
relies solely on paper-based identification such as the 
passport is certainly thought-provoking. And I'm a supporter of 
efforts to develop a biometric-based method of identification, 
because I believe that it has multiple benefits, including 
reduction and reducing the burden on security screeners in a 
variety of settings and in making identity theft and fraud a 
lot more difficult. I believe that we can achieve a workable 
and secure biometric-based system that is practical and 
affordable.
    And I am also aware that there is great potential for 
infringing upon civil liberties which we've heard a lot about 
today. But I just cannot accept that, as a Nation, with all the 
dedicated people in Government and private industry, and with 
all the organizations dedicated to protecting civil liberties, 
that we cannot come up with a workable solution that makes us 
more secure in our homes and workplace and in our civil rights. 
I would like to get your thoughts on what you believe the 
greatest challenges are in achieving a system of biometric-
based identification similar to what the Commission recommends, 
any of you.
    Mr. McCarthy. Individual acceptance. I think it boils down 
to the individual accepting it. You can go back to the 
implementation of any technology. Go back to seafaring. For 
many years, you look at the pictures in the museums, and you 
see this beautiful ship with four or three huge masts with 
sails and smokestacks, because the sailors would not accept the 
fact that those boilers are going to take me--get me under way. 
All the stories about the people not using the ATM machines 
when it first came out, that it's going to steal your money 
instead of giving the money back. It's acceptance on the part 
of the people. And I'm not sure, no matter what kind of time 
lines directed or driven or pushed, that's ever going to 
change.
    Mr. Duff. And reliability?
    Mr. McCarthy. And the reliability of it.
    Mr. Collet. I also think we have contemporary examples to 
look at. I think, just a few years ago, people were concerned 
about shopping over the Internet because they were concerned 
about identity theft or security. And now, people are buying 
over the Internet all the time. So there was a tipping point 
that was reached in which it became very commercially viable 
and attractive, and you know, e-commerce is doing very well now 
because of that. The same thing might be true for cell phones.
    Mr. Schrock. So time? It's just timing and education and 
understanding and trying to accept something that they are not 
used to then?
    Mr. Collet. True. And clearly, I'm sure when you use your 
computer either at home or in the office you have to log in 
every time to every particular application that you use, and 
that's inconvenient. I think a biometric system may be coming 
sooner than people think from the commercial sector because it 
will make commerce easier. It will make office automation 
easier. It will make life more pleasant. I think a lot of 
people will go for it.
    Mr. Schrock. Dr. Light.
    Mr. Light. Well, I think that Chapter 12 of the 9/11 report 
is quite detailed and quite important and has received almost 
no attention whatsoever. We have been focused on the 
intelligence czar and appropriately so. But you have to talk 
with your Appropriations Committee chairs, subcommittee chairs 
about injecting some money into this effort.
    I talked to the people at DHS, and they are telling me that 
they are being nickel-and-dimed to death, and they don't have 
access to the dollars they need. Now, I'm not saying you have 
to double their budget, but, you know, we are at a point where 
you may need to raise the budget and also allow the Department 
to hire more people. Much as we hate bureaucracy and big 
Government and so forth, it may mean that we have to inject 
some more resources into the effort.
    Mr. Dempsey. Congressman, if I could.
    Mr. Schrock. Yes, sir.
    Mr. Dempsey. As Mr. Light said, the recommendations of the 
Commission on biometric identification and screening are some 
of its most important and detailed recommendations.
    At the same time, the Commission also notes that there are 
very important and very difficult unanswered questions about 
moving forward. They recommend what has, I think, become the 
accepted path, which is strengthening the State driver's 
license. The Center for Democracy and Technology last year 
issued a report looking at practices at the State DMVs, and 
they have a serious security problem. They have people getting 
officially issued but fraudulently obtained State driver's 
licenses. They have people breaking into DMVs and stealing the 
machines and stealing the blank cards and then being able to 
mass produce their own very authentic-looking, biometrically 
based ID cards. They obviously have a corruption problem in a 
decentralized system where one employee can earn some money on 
the side.
    The National Academy of Science issued a report a couple of 
years ago on IDs, and the title of it was something like, 
``Harder Than You Think.'' The process of issuing, on a massive 
basis, an ID card, not a national ID card but improving 
biometrics, even using the State driver's license, is hard.
    The Government is working through DHS with the U.S. Visit 
Program to establish a biometric entry-exit visa system under 
the U.S. Visit Program. That is beginning, 500 million visitors 
a year. It's only been partly implemented. I think we need to 
learn from some of the lessons there.
    The Center for Democracy and Technology and the Heritage 
Foundation--which you might think of as one organization on the 
left of the political spectrum and one on the right of the 
political spectrum--we recently issued a joint report, one of 
several joint reports that we have issued on information 
technology issues. We recently issued a report on biometrics, 
laying out some of the concerns and factors that need to be 
taken into account both on the privacy side as well as on the 
security side.
    Mr. Schrock. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    I will have a number of questions that--I want you to know 
that sometimes the last panel--it's the end of the day, we seem 
to talk a little more softly and so on. But I learned some of 
my most interesting information from the panel sometimes that 
goes last. So I am eager to ask you all a few questions.
    I want to know--and you don't have to go in any particular 
order. But I want you to basically tell me the following: What 
do you think was the most important proposal? What do you think 
was the least most important, or maybe a proposal that you 
frankly don't like? And I want you to tell me where you think 
the hardest challenge will be.
    So the first thing, just talk about the proposal that you 
like the most in this, the thing that you are happy to see in 
the report. And I'm going to say to you up front, and it may be 
evident, I think they did a hell of a good job. And I think 
it's almost inspired, inspired in this sense: I feel like they 
had a higher calling. I think they all of a sudden said, wait a 
second, we are out too much. We are politicizing. This can 
crash. And then I think Senator Kerrey, when he described, when 
they talked about the events, it kind of woke them up. That's 
the feeling I get. So I view this as a very important work, and 
I want to treat it with the importance it deserves.
    Tell me what you think was the most important 
recommendation or one or two of the most important. Who wants 
to go first?
    Mr. Duff. Mr. Chairman, I can say that, from our 
perspective, from the public transportation industry's 
perspective, on page 391, the Commission Report talks about the 
need for a forward-looking strategic plan system, systemically 
analyzing assets and risks and recommending that the U.S. 
Government identify and evaluate the transportation assets that 
need to be protected, set risk-based priorities for defending 
them, select the most practical and cost-effective ways of 
doing so, and then develop a planned budget and funding for 
them. So from the perspective of my industry, we felt that was 
very important.
    Mr. Shays. And that would be out of the Department of 
Homeland Security?
    Mr. Duff. That's correct.
    Mr. Shays. And your testimony is that, if it's happening, 
it's really in the infant stages?
    Mr. Duff. If it's happening--we have critical 
transportation needs that we have brought before the 
Department, and they have begun to look at those, but we think 
they are not looked at in a really comprehensive way. I think 
they need to look at all aspects of transportation and, as the 
report says, analyze them and determine what is the best way to 
proceed in terms of an overall plan.
    Mr. Shays. So you were happy to see that in the reports?
    Some other comments?
    Mr. McCarthy. Sir, mine is actually combined. My favorite 
is my least. It has the most problems or issues. And that's the 
standard of care for the private sector. I think that the--it 
talked about the lack of a private sector standard deemed 
principal factor and lack of private sector preparedness, and 
they mentioned the number of standards that they endorsed.
    I think that the adoption of a standards-based view of 
implementation of Homeland Security is the way to go. Where the 
report I don't think went far enough is that one standard 
doesn't fit all even across critical infrastructures and even 
within a critical infrastructure.
    Mr. Shays. Give me an illustration.
    Mr. McCarthy. A chemical plant. OK? The security of a 
chemical plant. If you have a chemical plant that's located in 
a totally isolated area away from a population, you need 
minimal security. Somebody should not be able to walk on to 
that plant freely, etc. All the horror stories you hear. 
However, do you need the same level of care relative to a 
potential terrorist attack, a physical assault or a cyber 
assault on that plant when the plant is located in a populated 
area?
    Mr. Shays. I believe we have like 123 plants that could 
impact a million people each. Is that not the statistic? In 
other words, there are a number of chemical plants that are in 
the heart of urban areas.
    Mr. McCarthy. Right.
    Mr. Shays. And if they were attacked, the outcome would be 
horrific.
    Mr. McCarthy. And I think this is where the GAO is going 
with the risk-based view of if you have limited resources to 
invest in chemical plant security, you have to have a 
differentiation. If the standard--if a single standard calls 
for the same level of protection across all of them, one or the 
other, and where that also lacks in the area of standards is 
the idea of what picks up. And we have even, I think heard some 
of the reference in the testimony--previous testimony of 
insurance and tax incentive. Well, you know, there isn't in 
many areas relative to security----
    Mr. Shays. You're telling me a little more than I want to 
know right now. I want to know what is the proposal that you 
like the most.
    Mr. McCarthy. It was the implementation of a standard. It 
needs to be refined.
    Mr. Shays. Mr. Dempsey.
    Mr. Dempsey. The most important were two-fold, really. One 
is the endorsement of the SHARE network concept and 
specifically citing the Markle Foundation Task Force. Coupled 
with that, on pages 393 and following of the report, a very, 
very strong endorsement of civil liberties protection, and of 
the need for checks and balances, and in Chapter 13, the 
recommendations for stronger congressional oversight.
    Speaking just personally from a civil liberties 
perspective, I don't see anything that I would per se oppose in 
that report from a civil liberties perspective. The thing that 
is going to be hardest and is going to pose the greatest 
challenges----
    Mr. Shays. We'll come back to greatest challenges.
    Mr. Dempsey. OK.
    Mr. Shays. The thing that you were most happy to see in the 
report, Mr. Collet?
    Mr. Collet. I also agree that----
    Mr. Shays. Your mic is--you have a terrible mic.
    Mr. Collet. Is that better now?
    Mr. Shays. Yes.
    Mr. Collet. I also agree that it's the shared network 
concept. Five years ago, none of this would have been possible. 
But with the development of virtualization across network 
layers and information technology, it is now very doable and 
achievable. So, as a network company, we find that very 
attractive.
    You are asking, what is it that we didn't like? And I would 
have to say, perhaps, maybe an overemphasis on the need to know 
versus the need to share. You know, as I mentioned in my 
testimony, we're concerned about the proliferation----
    Mr. Shays. We'll get back to the one you disliked the most.
    Yes, sir.
    Mr. Light. Before this committee and this chamber, I think 
you need to remember one statistic that just continues to echo 
for me. On September 11th, half--half of the 164 senior Senate-
confirmed jobs were either vacant or occupied by an individual 
with less than 1 month on the job. We were so vulnerable 
because of the lack of leadership at that point.
    For me, before this body, I think you have to focus on the 
transition process and the Presidential appointments process. 
It's a disaster. And we are so vulnerable in the first 6 to 9 
to 12 months of a new administration; it's shocking.
    Mr. Shays. I hear you. And what's interesting is, I think, 
this is one thing that will probably escape the attention of a 
lot of people.
    Mr. Light. You can't let it happen. I mean, I have been on 
the staff on both the House and the Senate side, and sometimes, 
House people will say, ``Well, you know, the appointments 
process is really the Senate's business.'' You know, the White 
House and Senate struggle.
    But, you know what? We have been unable after 3\1/2\ years 
of very hard work to convince our colleagues in the Senate to 
move forward on this issue. If not you, it's just not going to 
happen. You have the distance perhaps to argue favorably for 
action on improving the appointments process.
    Mr. Shays. Fascinating.
    One of the things that I would like each of you to suggest 
is, my subcommittee, National Security Subcommittee, Emerging 
Threats and International Relations Committee, is going to have 
two hearings at the end of this month. We want to take a part 
of the bill that we think won't get the attention that it might 
get from others. In other words, there are some wonderful big 
fat crumbs that will fall from the table of some more important 
committees. And we want to identify those, and that may be one.
    Tell me the thing that concerns you the most about the 
report. Not which is the hardest to pass, but the thing that, 
you know, you look at and say, gosh. I mean, I will tell you 
the one that concerned me, just to give you an example of where 
I'm coming from, the concept that somehow the White House would 
have operational responsibility. And I'm not sure I'm being 
fair to the Commission, but that was the one area that I 
thought, you know, it just had too much the feeling of 
Watergate and people in the White House and power to--well, you 
get the gist. What are the areas that might have concerned the 
five of you?
    Mr. McCarthy. One area, and it speaks to the organizational 
piece, not necessarily the intelligence, but the broader 
strategic organizational piece. And that is building into this 
a--just that, a view that's beyond the immediate threat out to 
the next 6 months. How do you build into the organizations a 
longer view? In DOD, you have two kind of activities going on 
simultaneously. One is that immediate activity to support the 
needs----
    Mr. Shays. I want to follow you, this is an important part. 
But does that relate to the report? Was there something in the 
report that was in there that you disagreed with, or are you 
talking about something that wasn't----
    Mr. McCarthy. It's something that belonged--it needed more 
emphasis in the report. There are subtleties in there.
    To give you an example. In critical infrastructure, if you 
look at the organizational structure for Australia, for 
instance, for their CIP, and you compare our IAIP to what 
Australia has, they have a piece built into it that's called 
the Futures Group. Their sole responsibility is to be removed 
from the immediate day-to-day activity of working with the 
private sector, trying to build the alliance and trying to move 
the agenda forward. And their view is to look at, what will the 
economic environment look like? What will the threat 
environment look like? And then, how do you need to adjust all 
the mechanisms in the Government to respond?
    Mr. Shays. That's interesting. You broke out of my box a 
little bit, and we're thinking of something that wasn't being 
addressed that concerned you. So, something that was addressed 
that you didn't like or something that wasn't addressed that 
should have been there.
    Any others?
    Mr. Dempsey. At CDT, we are most concerned about the border 
screening and the broader screening questions. Not because of 
any anything that's wrong in the report, but just because of 
how hard these issues are.
    The report does not mention the question of watch lists, 
CAPPS II, in a way, or the airline passenger screening system 
in a way is dependent upon watch lists. The FBI has the 
Terrorist Screening Center. We have 14 agencies developing 
watch lists coordinated by the TSC, Terrorist Screening Center 
at the FBI. Completely unanswered are questions of data 
quality, how someone gets on the list, how they get off the 
list, how they respond if they are denied a job based upon 
screening.
    Mr. Shays. So when Senator Kerrey spoke, and I'm saying 
yes, you are saying, uh, oh.
    Mr. Dempsey. I'm saying----
    Mr. Shays. I mean, I was cheering when he spoke, inside.
    Mr. Dempsey. Well, we already have a border screening 
system through the visa process.
    Mr. Shays. That doesn't work.
    Mr. Dempsey. We have an airline passenger screening system. 
We have various employment screening systems for a variety of 
sensitive jobs. All of those have gaps. All have limitations. 
There are efforts under way to try to improve them, and the 
Commission recommends the linking together of those various 
screening systems into what they call a comprehensive screening 
system.
    I think, inevitably, we are moving that direction, but the 
issues that the report highlights of due process, of how you 
identify people----
    Mr. Shays. I hear you. You have some deep concerns about 
that.
    Mr. Dempsey. Crucial issues that concern us.
    Mr. Shays. And I hear you.
    Some others. Yes, Mr. Duff.
    Mr. Duff. This may be similar to Mr. McCarthy, and I'll be 
brief. But it's the issue of the roles--clarification of the 
roles and responsibilities of agencies. You have this huge new 
Department of Homeland Security, and yet you still have the 
U.S. Department of Transportation with somewhat overlapping 
roles and responsibilities. Isn't there some way to clarify 
that and make it clear which Department is responsible for 
what?
    Mr. Shays. OK. So, but is that--so your concern is that 
they didn't address it deeply enough?
    Mr. Duff. That's correct.
    Mr. Shays. OK.
    Mr. Collet.
    Mr. Collet. We have no concerns.
    Mr. Shays. OK.
    Mr. Light. I have a big fat target for you.
    Mr. Shays. OK.
    Mr. Light. And a concern.
    The target is the current structure of the intelligence 
community, which was pretty much left off the table.
    Mr. Shays. Right.
    Mr. Light. We are up against a highly agile adversary, a 
networked adversary, and in many ways, we are trying to defeat 
him with a smokestack, to mix our metaphor.
    Mr. Shays. I would like to pursue that point.
    Mr. Light. Well, just the point that, at the subcommittee 
level, you need to take a look at what needs to happen in the 
intelligence community to speed information to the National 
Intelligence Directorate. It's the issue that the comptroller 
general was talking about, about a full outbox with no inbox. 
And I think that the intelligence community has gotten a pass 
on its basic organizational structure.
    Mr. Shays. All of you have spoken about your concerns.
    Let me tell you my concern and have you react to it. My 
concern is that you have--and since there is hardly anyone 
here, I can say this now. But you have an Armed Services 
Committee, in my judgment, that's captive to the military. You 
have various committees in Congress that develop these 
relationships.
    I have a belief that the Intelligence Committee was a 
captive of the intelligence community in some ways. But I don't 
know how they were captive, but I didn't feel they were in 
control. And the reason I can speak about that is that this is 
the committee that has 360 degrees jurisdiction. My 
subcommittee oversees the Defense Department. Again, we kind of 
pick the crumbs from what's not done by the Defense, the Armed 
Services Committee. But we are not in the same--a four star 
means a lot to me, but it doesn't mean quite the same thing to 
the members of the committee. And we don't necessarily feel we 
have the same--well, I had better be careful there.
    What I'm trying to say is that we don't have those same 
relationships that--and so I feel like we are freer to be a 
little more aggressive. And what's surprised me about this is 
that, frankly, if the intelligence agency didn't succeed, the 
Intelligence Committee of Congress didn't succeed. And yet we 
are saying we want to make them more powerful and give them 
more responsibility. And that's kind of the thing I'm wrestling 
with. I'm wrestling with, when we wanted to have a hearing, as 
I mentioned earlier, the Intelligence Committee gave the CIA 
permission so they didn't have to participate. And I went up to 
the chairman and complained about it, and it was just, you 
know, that's the way it was.
    And so I'm wondering how we get a better handle on the 
intelligence community if we are basically empowering only one 
committee of Congress to have oversight with no judgment on 
whether they are doing their job or any other committee to kind 
of pick up the crumbs that they may not see falling from the 
table. Any reaction to that? If not, I will just take my last 
question. OK.
    Tell me the thing you think is most difficult to achieve. 
The thing that you think is, ``Good luck, ain't going to 
happen, or, if it happens, I will be amazed.'' Do you think 
most of this report will be incorporated? Let me put it this 
way, do you think most of this report will be adopted? And, if 
not, what are the parts that you think will most likely not be 
adopted?
    Mr. Light. I think we are right now at the beginning of the 
process, and we saw yesterday with the President's proposal a 
process of dilution that happens in politics. The proposal now 
on the table would create the weakest agency out of the gate 
that I've seen in terms of a response to a problem like this. 
By my view, the proposed National Intelligence Directorate 
would be so weak, it might as well be located in Baltimore. 
That's a tough statement, but it's just the way it is.
    Mr. McCarthy. We have a pattern here of too many massive 
parts in play. Immediate reaction: Form TSA. Forget about DOT. 
Now you have to deal with TSA. TSA started to feel growing 
pains. We shifted it to form the Department of Homeland 
Security. And you talk to the guys at DOT, and they are--TSA, 
and they are kind of rambling around. Now the shift is going to 
be into intelligence. We just keep doing this, and in the 
process, we leave a path of starting to implement massive 
change without the follow-through, without the piercing follow-
through that's needed both from the oversight side and within, 
how do you align this up in the executive branch, budget, 
people, the whole 9 yards? None of the foundation's been laid.
    Mr. Shays. OK. Some other points?
    Mr. Dempsey. Congressman, I don't know if it is the 
hardest, but one of the hardest things will be making sure that 
this director of national intelligence does not merely serve 
the President. I think one of the initial problems that the 
TTIC faced and to some extent still faces is there is such a 
premium placed on moving information up to the President and 
getting your little nugget or your piece of analysis in front 
of the President. The President isn't going to be the one who 
prevents the next terrorist attack. It's going to be some alert 
Customs officer or some TSA screener at an airport. The goal 
has to be to push that information down and out to all levels 
of Government and to allow people who are on the frontlines--to 
have that information.
    Mr. Shays. That's an important point to make. Just tell me 
the hardest thing that we are going to--in this report to--I'm 
making an assumption that you basically support the 
recommendations of this Commission. I mean, for the most part, 
you do. What is the part that you think--what concerns that you 
have expressed, what do you think is not going to happen 
because it's just going to be too difficult or there won't be 
the kind of attention to it? I mean, your point was very valid.
    Mr. Dempsey. This is one that I see is a very hard thing to 
legislate in the first place, hard to accomplish.
    Mr. Shays. Anybody else?
    Now we are going to close up here. You don't want to--Mr. 
Collet?
    Mr. Collet. I really don't have much of an opinion on it.
    Mr. Shays. Why don't you turn your mic on?
    Mr. Collet. I am sorry. Perhaps the most difficult thing 
will be finding the money for the budget. It is as simple as 
that.
    Mr. Shays. Anybody want to make a last comment before we 
close up?
    Mr. McCarthy. Not just finding the money but allocating it, 
making those hard decisions about how you allocate it across 
the transportation sector, for example. That will be very 
difficult, and that is why we support the idea of a strategic 
plan to do just that.
    Mr. Shays. OK. It is going to be an interesting fall, isn't 
it?
    Gentleman, thank you for all your good work, and thank you 
for spending your whole day with us.
    If there are no further comments, we will adjourn.
    [Whereupon, at 5 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6537.144

[GRAPHIC] [TIFF OMITTED] T6537.145

[GRAPHIC] [TIFF OMITTED] T6537.146

[GRAPHIC] [TIFF OMITTED] T6537.147

[GRAPHIC] [TIFF OMITTED] T6537.148

[GRAPHIC] [TIFF OMITTED] T6537.149

[GRAPHIC] [TIFF OMITTED] T6537.150

[GRAPHIC] [TIFF OMITTED] T6537.151

[GRAPHIC] [TIFF OMITTED] T6537.152

[GRAPHIC] [TIFF OMITTED] T6537.153

[GRAPHIC] [TIFF OMITTED] T6537.154

[GRAPHIC] [TIFF OMITTED] T6537.156

[GRAPHIC] [TIFF OMITTED] T6537.157

[GRAPHIC] [TIFF OMITTED] T6537.158

[GRAPHIC] [TIFF OMITTED] T6537.159

[GRAPHIC] [TIFF OMITTED] T6537.160

[GRAPHIC] [TIFF OMITTED] T6537.161

[GRAPHIC] [TIFF OMITTED] T6537.162

[GRAPHIC] [TIFF OMITTED] T6537.163

[GRAPHIC] [TIFF OMITTED] T6537.164

[GRAPHIC] [TIFF OMITTED] T6537.165

[GRAPHIC] [TIFF OMITTED] T6537.166

[GRAPHIC] [TIFF OMITTED] T6537.167

[GRAPHIC] [TIFF OMITTED] T6537.168

[GRAPHIC] [TIFF OMITTED] T6537.169

[GRAPHIC] [TIFF OMITTED] T6537.170

[GRAPHIC] [TIFF OMITTED] T6537.171

                                 <all>

</pre></body></html>
